<html>
<title> - ASSESSING THE FISCAL YEAR 2012 BUDGET FOR AFRICA</title>
<body><pre>[Senate Hearing 112-199]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-199
 
            ASSESSING THE FISCAL YEAR 2012 BUDGET FOR AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
72-391                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Carson, Hon. Johnnie, Assistant Secretary of State, Bureau of 
  African Affairs, Department of State, Washington, DC...........     4
    Prepared statement...........................................     8
    Responses to questions submitted by Senator Richard G. Lugar.    47
    Responses to questions submitted by Senator Christopher A. 
      Coons......................................................    51
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Fine, Patrick C., Vice President for Compact Implementation, 
  Millennium Challenge Corporation, Washington, DC...............    23
    Prepared statement...........................................    25
    Responses to questions submitted by Senator Christopher A. 
      Coons......................................................    71
Goosby, Hon. Eric P., U.S. Global AIDS Coordinator, Department of 
  State, Washington, DC..........................................    16
    Prepared statement...........................................    18
    Responses to questions submitted by Senator Christopher A. 
      Coons......................................................    65
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
Jandhyala, Rajakumari, Deputy Assistant Administrator, U.S. 
  Agency for International Development, Washington, DC...........    10
    Prepared statement...........................................    12
    Responses to questions submitted by Senator Christopher A. 
      Coons......................................................    76

                                 (iii)

  


            ASSESSING THE FISCAL YEAR 2012 BUDGET FOR AFRICA

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, Isakson, Inhofe, and Lee.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I would like to call to order this hearing 
of the Subcommittee on African Affairs of the U.S. Senate 
Committee on Foreign Relations.
    I am pleased to chair today's subcommittee hearing which 
will primarily examine the President's budget request for sub-
Saharan Africa for fiscal year 2012. It is a distinct privilege 
to serve as the subcommittee chairman. I am grateful for the 
opportunity given me by Chairman Kerry and my colleagues on the 
committee.
    I am also honored to serve with my good friend, Senator 
Isakson, whom I will compliment again once he joins us in just 
a few moments, and look forward to working closely with him in 
this Congress on issues we both care deeply about, principally 
economic growth, security, stability, governance, global 
health, food security, conflict prevention, and democratic 
institution-building across the continent.
    The goal of today's hearing is to review the President's 
budget request for Africa, including both bilateral and 
regional priorities for foreign assistance. This hearing will 
help to inform the entire subcommittee and committee of the 
administration's program and resource priorities in sub-Saharan 
Africa, as well as the basis and the projections for the 
requested resources. The discussion today is intended to also 
include priority initiatives such as the Global Health 
Initiative, including the President's Emergency Plan for AIDS 
Relief, better known as PEPFAR, and the Feed the Future 
program, as well as the Millennium Challenge Corporation.
    One of the objectives of this hearing is to consider the 
whole-of-government approach toward the region and to explore 
the impact of proposed budget cuts in the continuing 
resolution, or CR, for the current fiscal year, Federal fiscal 
year 2011. Within a constrained budgetary environment, these 
are issues of critical importance for this committee and 
Congress as a whole as we consider the longer term implications 
of reducing Federal spending.
    Unfortunately, limited resources do require difficult 
decisions and tradeoffs regarding budgetary priorities, and I 
hope to hear from our four witnesses today about the 
implications for the long term of potential reductions in 
foreign assistance and the projected impact that these proposed 
cuts will have in Africa where the need is great and sadly the 
resources are already too scarce.
    According to the proposed long-term CR, which may well be 
considered by this body later today, the Pentagon's budget is 
more than 10 times larger than that proposed for the Department 
of State. Today, if I understand the proposed CR correctly, we 
will consider cuts to the State budget from last year that are 
significant while also raising the Pentagon budget which 
demonstrates, in my view, our growing emphasis on military 
spending potentially at the expense of foreign assistance.
    I am pleased to be joined by my ranking minority, Senator 
Isakson, who I will invite to make an opening statement as soon 
as I conclude. I just want to say thank you for joining us 
today, and I am greatly enjoying serving on the subcommittee 
with you.
    I am pleased that recently both Secretary of Defense Gates 
and the Chairman of the Joint Chiefs Mullen have expressed 
their strong support for increased resources for the State 
Department and its critical work in development so that it can 
continue to play a central role in U.S. diplomacy. I share 
their expressed views that American national security is also 
critically dependent upon development and the projection of our 
values throughout the world through diplomacy.
    Today we will hear from State Department leadership, as 
well as the U.S. Agency for International Development and the 
MCC, about their strategy for sub-Saharan Africa as reflected 
in their budget requests for the next fiscal year. We will use 
this to examine the administration's priorities and the means 
by which it aims to meet competing goals in the region, 
responding not only to U.S. objectives but also regional and 
bilateral needs.
    We have prepared a chart to, sort of at the largest level, 
give an overview of how the request for fiscal year 2012 breaks 
out.
    The total foreign assistance request for Africa is $7.8 
billion, nearly three-quarters of which denoted in red are 
dedicated to the Global Health Initiative. This program 
increased dramatically during the Bush administration. In fact, 
I would say a number of the initiatives under the Bush 
administration were significant accomplishments among the 
premier accomplishments of the Bush administration in fighting 
HIV/AIDS and malaria in Africa in particular. The Global Health 
Initiative was developed under President Obama in 2009, and I 
look forward to hearing today from the U.S. Global AIDS 
Coordinator, Ambassador Eric Goosby, about the future plans for 
the GHI and, in particular, PEPFAR.
    Six percent of the Africa budget request is dedicated to 
the Feed the Future initiative, which is in green on the chart 
before you, and was developed by President Obama and the 
administration last year to address systematically global 
hunger and poverty. Twelve of the twenty focus countries of 
Feed the Future are in Africa, representing one-third of total 
funding commitments. With USAID as the agency responsible for 
the coordination and implementation of Feed the Future, I look 
forward to hearing from Deputy Assistant Administrator 
Jandhyala--not so good, OK--about agricultural development 
programs and food security, as well as the wide range of other 
areas of cooperation between AID and State with regard to 
African policy and planning.
    After the initiative funding, just 23 percent of the total 
budget, or about $1.8 billion, remains, the blue section in the 
chart above you, which must be carefully divided between the 
very wide range of other foreign assistance priorities overseen 
by State, strengthening democratic institutions, fostering 
sustainable economic growth, preventing and resolving armed 
conflict, and helping to address transnational threats, among 
other important issues. Assistant Secretary of State for 
African Affairs, Johnnie Carson, joins us here today to discuss 
these priorities as a whole and challenges, as well as current 
events in Africa such as the Nigerian elections and recent 
violence and transitions in Cote d'Ivoire.
    Finally, we will also hear from Patrick Fine, vice 
president for Compact Implementation for the Millennium 
Challenge Corporation about the MCC's work in Africa where it 
focuses 70 percent of its funding. The MCC in my view is a 
smart, potentially game-changing investment approach to 
development that has contributed to poverty reduction through 
economic growth in well-governed countries, and I look forward 
to hearing from Mr. Fine about his plans to sustain past 
successes in light of this challenging budget environment.
    So, gentleman and lady, I appreciate your being here today, 
look forward to your testimony, and I will now turn it over to 
my cochair, at least in my mind, Senator Isakson, for his 
opening statement.
    Senator.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman. I apologize 
for being a minute late, and I will be brief but to the point.
    This is a very important hearing, as those who are here to 
testify here today, as well as everybody in the audience, 
recognizes. Every part of the appropriations of the United 
States for the fiscal year 2012 year are going to be under 
tremendous scrutiny and under tremendous pressure because of 
the demands on us to reduce our deficit and our debt over time. 
And I think each appropriation and each budget unit in the U.S. 
Government will be looked upon more and more for a cost/benefit 
analysis rather than just a needs-and-wants analysis.
    I bring that up to point to Mr. Fine and the Millennium 
Challenge Corporation, because I have told him before and seen 
firsthand in Africa myself that investment has a tremendous 
payback for the United States of America in more than one way, 
but, in particular, to make it easier for American companies to 
go and have predictable investment opportunities and joint 
venture opportunities with African countries that have improved 
their democracy, their governance, and reduced their 
corruption, and worked toward being an effective member of the 
world economy. So that is an investment that has a huge benefit 
and payback directly to who we always should look to the 
taxpayers of the United States and the business community. 
Although that money is not in this particular discussion, and I 
realize it, I think it is important to point out that it is a 
perfect example of a positive cost-benefit analysis to the 
country, as I think certainly the PEPFAR program has, as well 
as the President's Malaria Initiative.
    I have traveled in Africa enough to have seen firsthand the 
tragedy of the disease of AIDS and the transmission of AIDS on 
that continent and the decimation it has done to the population 
of many of those countries. But equally, I have also seen the 
countries that have actually flattened the growth curve and, in 
some cases, lowered the curve of the infection rate and greatly 
educated the populace in how to prevent the infection from 
taking place in the first place and saving the lives of 
children yet to be born in the future.
    And there is a huge payback on that for this reason. 
Africa, I have said many times, I think, is the continent of 
the 21st century as far as the United States of America is 
concerned. And I think the way we are investing our money right 
now, although we are not in a state of competition with anybody 
and the results of how we invest that money will have a lot to 
do with the relationship our country has with the continent and 
the countries of Africa in the future. And when you compare 
U.S. investment and humanitarian efforts, such as the PEPFAR 
initiative and the antimalaria initiative, as well as economic 
development issues like MCC, then you see a much better example 
of being a partner with a country to solve problems and produce 
benefits versus those that invest a little money but extract 
the natural resources and take them back to their home country, 
as happens in Africa far too often.
    So I look forward to hearing the testimony today by all 
those that will be testifying, and in particular, that 23 
percent noninitiative money, which is kind of a catchall 
phrase. I would like for you all to talk a little bit about 
some of the programs that are in there that are important to 
the United States and to our foreign assistance program.
    With that said, I would just replicate what the chair said. 
I feel very honored to work with him and appreciate his 
addition to this committee and his leadership as chairman.
    Senator Coons. Thank you, Senator.
    Now I will turn it over to our witnesses starting, if I 
might, with Secretary Carson, followed by Mrs. Jandhyala, 
Ambassador Goosby, and Mr. Fine. Please, if you would, make 
your best efforts to limit your remarks to roughly 5 minutes, 
and your full testimony will be placed into the record of this 
hearing. Now I would like to begin, if we could, with Secretary 
Carson.

STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Carson. Mr. Chairman, I would like to thank you and 
Ranking Member Isakson for inviting me and my colleagues to 
participate in this budget hearing today.
    As this is my first appearance before this Congress I wish 
to congratulate you, Chairman Coons, on your election to the 
Senate and your assumption of leadership of the African Affairs 
Subcommittee.
    Senator Isakson, congratulations on your reelection and for 
remaining as the minority leader of the subcommittee. I greatly 
appreciate your passion for Africa and your commitment to 
realizing our Nation's goals and interests on that continent.
    The President's FY 2012 request for sub-Saharan Africa 
reflects our core U.S. priorities and interests in Africa. I 
would like to highlight those priorities, interests, and some 
of the major policy challenges and opportunities that we face 
in Africa today.
    We remain committed to five overarching policy priorities: 
strengthening democratic institutions and the rule of law; 
encouraging long-term development and growth, including food 
security; enhancing access to quality health care and 
education; assisting in the prevention, mitigation, and 
resolution of conflicts, and working with Africans to address 
transnational challenges, including terrorism, maritime 
security, climate change, and narcotrafficking.
    The FY 2012 request of $7.8 billion represents a 10-percent 
increase from the FY 2010 enacted total of $7 billion. This 
increase is due in large measure to increases requested by each 
of the Presidential initiatives. The request for Global Climate 
Change has increased by 140 percent, Feed the Future by 20 
percent, and Global Health by 12.6 percent. Our request for 
discretionary funds to support noninitiative programs is at 
$1.8 billion. They include programs focused on enhancing 
democracy and governance, economic growth, conflict resolution, 
and transnational issues.
    The United States has many challenges and commitments 
around the globe, but it is important for us not to lose sight 
of our growing national interests in sub-Saharan Africa. Sub-
Saharan Africa is a region where the United States has 
benefited from longstanding partnerships and friendships and 
enjoys some of the highest approval ratings in the world. The 
ties between Americans and Africans are deep and also historic. 
With few exceptions, Africa is not a place where we see anti-
American demonstrations and rhetoric. That is indicative of the 
prevailing appreciation for our country's longstanding 
commitment to democracy and human rights and for our steadfast 
support in addressing many of Africa's challenges. The spread 
of democracy in Africa over the past 2 decades and the vibrancy 
of prodemocracy activism across the continent is further 
evidence that most Africans share our political values.
    In the international arena, we might not see eye to eye 
with Africans on every issue, but overall, most governments 
there have been cooperative as we deal with a variety of global 
challenges. We saw one recent example of this when Gabon, 
Nigeria, and South Africa voted in support of the U.N. Security 
Council resolution authoring the use of force to avert a 
humanitarian crisis in Libya.
    Our economic interests in Africa are clear and compelling. 
Approximately 14 percent of all U.S. oil imports come from the 
region, making it a strategic part of our energy security 
portfolio. Imports from Nigeria alone are about 9 percent of 
our total oil imports and almost the same volume as we receive 
from Saudi Arabia. With promising exploration and development 
in countries such as Ghana, Uganda, Liberia, and Tanzania, sub-
Saharan Africa's significance for global oil and gas markets 
will only increase in the coming years. Africa's enormous share 
of the world's mineral reserves is also vitally important to 
the United States. And most importantly for the future, sub-
Saharan Africa's growing population makes it a market where 
U.S. firms will need to be players if they are going to remain 
globally competitive.
    Helping African countries, no matter how small and poor, 
realize their full potential and succeed economically as 
democracies is in our national interest. If fledgling 
democracies are allowed to fail and undemocratic regimes are 
allowed to endure unchallenged, then people will lose 
confidence in democracy and free market economic principles, 
and we will find ourselves on the defensive in the global 
competition for influence and ideas. Many sub-Saharan African 
countries face enormous challenges to their survival as 
functioning states and we must continue to help them meet those 
challenges so that they can better help us as we deal with our 
own. In the coming years, African cooperation will be 
increasingly essential in managing a wide range of global 
issues such as smuggling, piracy, climate change, infectious 
disease, and food production.
    With our limited resources and personnel, we are managing a 
long list of near- and long-term challenges that have a direct 
impact on United States security, political, economic, and 
humanitarian interests.
    Nigeria, where I was this past weekend, is in the middle of 
a tense election process that will have a serious repercussion 
for its near- and long-term stability.
    In Sudan, the 6-year-old north-south peace process is at an 
extremely delicate moment with independence for South Sudan 
just about 3 months away. Diplomatic efforts on Darfur are 
accelerating again, but a solution is still far away.
    The political crisis in Cote d'Ivoire has escalated into 
armed conflict and unleashed one of West Africa's worst 
humanitarian crises since the Liberian war.
    The eastern region of the Democratic Republic of the Congo 
remains highly insecure, especially for women and children.
That country is also scheduled to have national Presidential 
elections in November that will serve as a bellwether for its 
post-conflict transition.
    Beyond these fast-moving issues which dominate the 
headlines, our Government is trying to address a number of 
slower moving, but nonetheless very high impact challenges. The 
greatest of these is the prevalence of HIV/AIDS and other 
infectious diseases which have tragic consequences for the 
economic livelihoods and the social welfare of Africans across 
the continent. My colleague, Ambassador Dr. Eric Goosby, will 
address this in greater detail in his testimony. But it is 
estimated that some 22.5 million Africans are living with HIV/
AIDS, about two-thirds of the world's total. Millions more 
suffer and die regularly from malaria and other debilitating 
but preventable endemic diseases.
    Although a handful of African countries have demonstrated 
improved rates of macroeconomic growth compared to previous 
decades, the overall poverty and social indicators for much of 
the continent are sobering. Ethiopia's per capita GDP, for 
example, is only $344 a year. Life expectancy in oil-rich 
Nigeria is only 48 years. Basic infrastructure is lacking in 
many countries struggling to keep up with their growing 
populations, especially in urban areas.
    I have already alluded to some of the many security 
challenges in Africa. There are others such as the presence of 
terrorist groups and drug traffickers in the Sahara and the 
ascendancy of drug trafficking in countries such as Guinea 
Bissau and Mozambique. Our preferred approach to all of these 
challenges is to work through African security and judicial 
institutions and develop their capacity rather than rely on 
direct and potentially costly U.S. involvement. This approach 
may be slow and imperfect, but we believe it is the only truly 
sustainable one for the African context, and it is the most 
cost-effective approach for the United States. When Africans 
take ownership of their own security responsibilities, we are 
more likely to have the requisite trust and political buy-in 
from key leaders in those countries.
    Africa's complex challenges demand considerable time, 
attention, and resources, but we must also be attentive to the 
significant gains and progress that have occurred in many 
countries over the past decade and ensure that they continue. 
Liberia and Sierra Leone, for example, require our engagement 
and support to help sustain their largely successful post-
conflict transitions. Helping Africa's most democratic 
countries such as Senegal, Mali, Ghana, Benin, Botswana, Cape 
Verde, Mauritius, Tanzania, and South Africa, continue with 
their political and economic reforms is vital for demonstrating 
the sincerity of our commitment to democracy and encouraging 
other countries to follow their model. In recent years, 
regional organizations such as the African Union, the Economic 
Community of West African States, and the East African 
Community have demonstrated a growing commitment to censuring 
unconstitutional seizures of power, promoting economic 
integration, and addressing regional security problems. It is 
in our interest to see that those organizations continue to 
build their capacity and become more assertive across the 
continent.
    I have worked for nearly 4 decades in Africa. Whenever I 
review budgets, I am still amazed at how our Government manages 
to do so much with so little. Roughly speaking, one can easily 
fit the land masses of the United States, China, and all of 
Western Europe into sub-Saharan Africa. After Southern Sudan 
becomes independent in July 2011, sub-Saharan Africa will have 
49 states. We have 44 embassies, 5 consulates, and several 
regional platforms used by U.S. Government agencies. Those of 
you who have been out to the region know most of these missions 
are thinly staffed with an ambassador and a handful of 
reporting officers and support staff.
    In closing, I would like to state simply that every dollar 
we invest in helping Africans to address their problems and 
better capitalize on their opportunities may not satisfy our 
high expectations for economic growth, development, health, 
security, and political stability, but they can go a long way 
in preventing situations from getting worse and costing us even 
more down the road. And as Ambassador Goosby and my colleagues 
from USAID and the Millennium Challenge Corporation will detail 
in their testimonies, many of our efforts do, in fact, have a 
very positive and significant impact on the lives of Africans. 
It is through these programs and our vigorous diplomacy that 
the United States will remain a key player in Africa and 
protect and advance our most important national interests.
    Mr. Chairman and Ranking Member Isakson, thank you very 
much for this opportunity to testify before you, and I will be 
pleased to answer questions following the testimony of the 
others.
    Thank you very much.
    [The prepared statement of Mr. Carson follows:]

        Prepared Statement of Assistant Secretary Johnnie Carson

    I would like to thank you, Chairman Coons, Ranking Member Isakson, 
and all the members of the committee for inviting my colleagues and me 
to testify today on the President's budget request for sub-Saharan 
Africa. As this is my first appearance before this Congress, I wish to 
congratulate you, Chairman Coons, on your election to the Senate and 
for assuming the leadership of the African Affairs Subcommittee as a 
new member. Senator Isakson, congratulations on your reelection and for 
remaining as the minority leader of the subcommittee. I greatly 
appreciate your passion for Africa and commitment to realizing our 
Nation's goals and interests there.
    The President's FY 2012 request for sub-Saharan Africa reflects our 
core U.S. priorities and interests in Africa. I would like to highlight 
those priorities, interests, and some of the major policy challenges 
and opportunities we face on the continent.
    We remain committed to five overarching policy priorities: (1) 
strengthening democratic institutions and the rule of law; (2) 
encouraging long-term development and growth, including food security; 
(3) enhancing access to quality health care and education; (4) 
assisting in the prevention, mitigation, and resolution of conflicts; 
and (5) working with Africans to address transnational challenges, 
including terrorism, maritime security, climate change, narcotics 
trafficking, and trafficking in persons.
    The FY 2012 request of $7.8 billion represents a 10-percent ($732.7 
million) overall increase from the FY 2010 enacted total of $7.0 
billion. This increase is due in large measure to increases requested 
for each of the Presidential initiatives. The request for Global 
Climate Change has increased by 140.9 percent ($73.7 million), Feed the 
Future by 20 percent ($84.4 million), and Global Health by 12.6 percent 
($601.22 million). Our request for discretionary funds to support 
noninitiative programs is $1.8 billion. They include programs focused 
on enhancing democracy and governance, economic growth, conflict 
resolution, and transnational issues.
    The United States has many challenges and commitments around the 
globe, but it is important for us not to lose sight of our growing 
national interests in sub-Saharan Africa. sub-Saharan Africa is a 
region where the United States has benefited from longstanding 
partnerships and friendships and enjoys some of the highest approval 
ratings in the world. The ties between Americans and Africans are deep 
and historic. With few exceptions, Africa is not a place where we see 
anti-American demonstrations and rhetoric. That is indicative of the 
prevailing appreciation for our country's longstanding commitment to 
democracy and human rights, and for our steadfast support in addressing 
Africa's many challenges and during times of trouble. The spread of 
democracy in Africa over the past two decades and the vibrancy of 
prodemocracy activism across the continent is further evidence that 
most Africans share our political values.
    In the international arena, we might not see eye to eye with 
Africans on every issue, but, overall, most governments there have been 
cooperative as we deal with a variety of global challenges such as 
international terrorism, Iran, and piracy. We saw one recent example of 
this when Gabon, Nigeria, and South Africa voted in support of the U.N. 
Security Council resolution authorizing the use of force to avert a 
humanitarian catastrophe in Libya.
    Our economic interests in Africa are clear and compelling. 
Approximately 14 percent of U.S. oil imports come from the region, 
making it a strategic part of our energy security portfolio. Imports 
from Nigeria alone are about 9 percent of our total oil imports and 
almost the same volume as those from Saudi Arabia. With promising 
exploration and development in countries such as Ghana, Uganda, 
Liberia, and Tanzania, sub-Saharan Africa's significance for global oil 
and gas markets will only increase in the coming years. Africa's 
enormous share of the world's mineral reserves is vital for sustaining 
continued growth of the global economy. And, most importantly, sub-
Saharan Africa's growing population makes it a market where U.S. firms 
will need to be players if they are to remain globally competitive. The 
region's share of the world population today is approximately 12 
percent, and it is estimated to grow to 20 percent over the next two 
decades.
    Helping African countries, no matter how small and poor, realize 
their full potential and succeed as economically viable democracies is 
in our national interest. If fledgling democracies are allowed to fail 
and undemocratic regimes are allowed to endure unchallenged, then 
people will lose confidence in democracy and free market economic 
principles, and we will find ourselves on the defensive in the global 
competition for influence and ideas. Many sub-Saharan African countries 
face enormous challenges to their survival as functioning states, and 
we must continue to help them meet those challenges so they can better 
help us as we deal with our own. In the coming years, African 
cooperation will be increasingly essential in managing a wide range of 
global issues such as smuggling, piracy, migration, climate change, 
infectious disease, and food production.
    With our limited resources and personnel, we are managing a long 
list of near- and long-term challenges that have a direct impact on 
U.S. security, political, economic, and humanitarian interests. 
Nigeria, where I was this past weekend, is in the middle of a tense 
election process that will have serious repercussions for its near- and 
long-term stability. In Sudan, the 6-year-old North-South peace process 
is at an extremely delicate moment with independence for the South just 
about 3 months away. Diplomatic efforts on Darfur are accelerating 
again, but a solution is still far away. The situation in Somalia 
remains especially volatile and poses security threats throughout East 
Africa and in the Indian Ocean. We may also be on the precipice of a 
humanitarian catastrophe there as food supplies once again run low.
    The political crisis in Cote d'Ivoire has escalated into armed 
conflict and unleashed one of West Africa's worst humanitarian crises 
since the Liberian war. The eastern region of the Democratic Republic 
of Congo (DRC) remains highly insecure, especially for women and 
children. That country is scheduled to have elections in November that 
will serve as a bellwether for its post-conflict transition. Uganda and 
its neighbors are struggling to eliminate the Lord's Resistance Army, 
which still threaten civilian populations in northern DRC and the 
Central African Republic. In Zimbabwe, President Mugabe and his ruling 
ZANU-PF party continue to obstruct the democratic process and mismanage 
the economy, creating a persistent and long-term threat to the 
country's overall stability.
    Beyond these fast-moving issues which dominate the headlines, our 
government is trying to address a number of slower moving but 
nonetheless high-impact challenges. The greatest of these is the 
prevalence of HIV/AIDS and other infectious diseases which have tragic 
consequences for economic livelihoods and social welfare of Africans 
across the continent. My colleague, Ambassador Eric Goosby will address 
this in greater detail. It is estimated that some 22.5 million Africans 
are living with HIV/AIDS, about two-thirds of the world's total. 
Millions more suffer and die regularly from malaria and other 
debilitating but preventable endemic diseases. Women and children 
suffer disproportionately.
    Although a handful of African countries have demonstrated improved 
rates of macroeconomic growth compared to previous decades, the overall 
poverty and social indicators for much of the continent are sobering. 
Ethiopia's per capita GDP, for example, is $344. Life expectancy in 
Nigeria is 48. Basic infrastructure is lacking in many countries 
struggling to keep up with their growing populations, especially in 
urban areas. As of last year, Southern Sudan had only 50 kilometers of 
paved road. And food security remains an ongoing concern across much of 
the continent.
    I have already alluded to some of the many security challenges in 
Africa. There are others such as the presence of terrorist groups and 
drug traffickers in the Sahara, and the ascendance of drug trafficking 
in countries such as Guinea Bissau and Mozambique. Our preferred 
approach to all of these challenges is to work through African security 
and judicial institutions and develop their capacity rather than rely 
on direct and potentially costly U.S. involvement. This approach may be 
slow and imperfect, but we believe it is the only truly sustainable one 
for the African context, and it is the most cost-effective approach for 
the United States. When Africans take ownership of their own security 
responsibilities, we are more likely to have the requisite trust and 
political buy-in of key players than if quick-fix solutions are imposed 
by outsiders. And this buy-in is what can lead to more durable 
outcomes. To put it differently, the more proactive we are in 
encouraging and supporting African-led security initiatives, the less 
likely we will need to intervene directly down the road.
    Africa's complex challenges demand considerable time, attention, 
and resources, but we must also be attentive to the significant gains 
and progress that have occurred in many countries over the past decade, 
and ensure they continue. Liberia and Sierra Leone, for example, 
require our engagement and support to help sustain their largely 
successful post-conflict transitions. Helping Africa's most democratic 
countries--such as Senegal, Mali, Ghana, Benin, Botswana, Cape Verde, 
Mauritius, Tanzania, and South Africacontinue with political and 
economic reforms is vital for demonstrating the sincerity of our 
commitment to democracy and encouraging other countries to follow their 
model. In recent years, regional organizations such as the African 
Union, Economic Community of West African States, East African 
Community, and the Southern African Development Community have 
demonstrated a growing commitment to, for example, censuring 
unconstitutional seizures of power, promoting economic integration, and 
addressing regional security problems. It is in our interest to see 
that these organizations continue to build capacity and become more 
assertive across the continent.
    I have worked on Africa for my entire career of more than 40 years, 
yet, whenever I review the budget numbers, I am still amazed at how our 
Government manages to do so much with so little. Roughly speaking, one 
can easily fit the landmasses of the United States, China, and Western 
Europe in sub-Saharan Africa. After Southern Sudan becomes independent 
in July, sub-Saharan Africa will have 49 states. We have 44 embassies, 
5 consulates, and several regional platforms used by various U.S. 
Government agencies. Those of you who have been out to the region know 
most of these missions are thinly staffed with an ambassador and a 
handful of reporting officers and support personnel.
    In closing, I would like to state simply that every dollar we 
invest in helping Africans to address their problems and better 
capitalize on their opportunities may not satisfy our high expectations 
for economic growth, development, health, security, and political 
stability, but they sure can go a long way in preventing situations 
from getting worse and costing us even more money down the road. And, 
as Ambassador Goosby and my colleagues from USAID and the Millennium 
Challenge Corporation will detail in their testimonies, many of our 
efforts do in fact have a very positive and significant impact on the 
lives of Africans. It is through these programs and our vigorous 
diplomacy that the United States will remain a player in Africa and 
protect and advance our interests there.
    Mr. Chairman, Ranking Member, and distinguished committee members, 
thank you. I will be happy to address your more specific questions and 
concerns.

    Senator Coons. Thank you very much, Mr. Secretary, and 
thank you for making the effort to join us today. I know that 
your engagement in Nigeria was important for our Nation, and I 
appreciate your making the extra effort join us for this 
testimony here today.
    Next we will turn to Deputy Assistant Administrator Raja 
Jandhyala.

      STATEMENT OF RAJAKUMARI JANDHYALA, DEPUTY ASSISTANT 
   ADMINISTRATOR, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Ms. Jandhyala. Thank you very much. Good afternoon, 
Chairman Coons, Senator Isakson, members of the subcommittee. 
Thank you for inviting me to speak with you today and 
congratulations, Chairman Coons, in your support to Africa. And 
Senator Isakson, we are very glad that you remain a big 
supporter of our work and agency.
    Over the past century, the United States has played a 
critical role in the transformation of countries from war to 
peace and in establishing a clear, necessary path to prosperity 
and to keep countries at peace and engaged in global economy. 
Throughout the entirety of USAID's 50 years of existence, the 
agency has taken on some of the greatest development challenges 
in Africa, delivering lifesaving humanitarian assistance and 
crucial health interventions, and partnering with Africans to 
improve democracy, governance and education outcomes.
    Today I would like to add to Assistant Secretary Carson's 
statement with brief remarks and be open to the questions at 
the end.
    USAID celebrates 50 years of generosity from the American 
people who believe we can make the world a better, safer place 
if we use our wealth, expertise, and values to invest smartly.
    In the last 10 years, the United States has been 
instrumental in bringing many African conflicts to an end and 
laying the foundation for democratic transformations and 
economic growth. The United States partnership with Africa is 
based on our mutual desire to boost economic growth and 
prosperity for all, including not least American firms and 
American workers who stand to benefit in our engagement with 
the continent and the growth and the opportunities that they 
present. That same growth will be shared by African businesses 
and will generate the kinds of jobs necessary for real economic 
transformation and political stability.
    To get the kind of outcomes we are looking for, USAID now 
has several new tools at its disposal. The Obama 
administration's Policy Directive on Global Development is 
guiding the U.S. Government to take stock of its efforts in 
focusing and concentrating our resources on the continent. And 
combined with Secretary Clinton's leadership on the QDDR and 
Administrator Shah's efforts on USAID Forward, we are really 
looking forward to how do we as the U.S. Government, using our 
resources, maximize our impact and focus and concentrate our 
efforts on a few countries that allow us to meet their 
humanitarian needs, economic growth, and can be drivers of 
economic growth on the continent and benefit national security.
    The FY 2012 total budget, as Assistant Secretary Carson has 
mentioned, represents a 10-percent increase over the FY 2010 
enacted total. Roughly two-thirds of the request consists of 
bilateral assistance for 13 priority countries that are 
critical to national security and economic trade, and 
approximately three-quarters of the request would go toward 
President Obama's three major initiatives: Feed the Future, 
which aims to address hunger and unlock the enormous potential 
of African agriculture as a driver of prosperity on the 
continent. The Global Health Initiative aims to save millions 
of lives while building sustainable health systems and deal 
with huge transnational threats of infectious disease. The 
Global Climate Change Initiative aims to help mitigate the 
potential dire consequences of changing ecosystems on food 
production and economic development.
    These initiatives are integrated, focused, and led by each 
country's specific needs and opportunities. We have worked 
closely with countries to develop rigorous strategies and 
balance difficult tradeoffs with clear-eyed assessment of where 
we can effectively achieve meaningful results for developing 
countries.
    In addition, we are concentrating on supporting effective 
governments. A government that represents the interests of its 
people and is accountable and transparent is the best insurance 
of making development progress sustainable. In African 
countries, long-term improvements in health, education, and 
economic growth, and the environment will ultimately require 
responsive and representative governments. We truly believe 
that without the empowerment of the population, that the 
governments will not be held accountable. In contrast, weak 
governance dampens economic activity, increases the risk of 
civil unrest, and creates fertile ground for terrorism.
    We are also engaging heavily with the regional 
organizations like East African Community, the African Union, 
and SADC to work with their institutions to empower their 
leadership and their policies and strategies to impact the 
continent and leveraging our resources to benefit the 
population.
    And as we are expanding our work with local organizations 
in these countries to build capacity inside these institutions 
and make them a critical part of negotiations between the 
government and its people on determining priorities and 
enhancing their ability to be transparent to the population and 
have the ability--the population--to hold the government 
accountable.
    Africa is a priority for USAID. There is no denying 
Africa's importance to the United States, both for the moral 
imperative but also for helping solve the biggest development 
challenges on the planet which can create transnational 
threats.
    The United States, as we understand it--we are committed to 
the continent in many ways--political, security, and 
developmental--and we are hoping to work with our interagency 
partners to make this happen. We understand the importance of 
maximizing the impact of every tax dollar spent, and that is 
why we are making critical reforms and asking our partners to 
build the systems necessary and the institutions necessary with 
us to realize those impacts. USAID is partnering with other 
donors for greater impact. We are working with the United 
Kingdom in Nigerian elections. We are working with the United 
Kingdom and the Netherlands and other countries in rebuilding 
Southern Sudan post-July 9, and we are also very proud of our 
efforts working with our regional partners and nontraditional 
donors such as regional organizations to make our dollars work 
better.
    As we continue to work with our partners toward our shared 
goals over the coming months, I very much look forward to our 
continued conversation on USAID efforts in Africa.
    Thank you, Mr. Chairman, Senator Isakson, and members of 
the subcommittee. I look forward to responding to any of your 
questions.
    [The prepared statement of Ms. Jandhyala follows:]

               Prepared Statement of Rajakumari Jandhyala

    Good afternoon Chairman Coons, Senator Isakson, and members of the 
subcommittee. Thank you for inviting me to speak with you. 
Congratulations to Chairman Coons who is no stranger to Africa, and 
particularly east Africa which I have the great pleasure of working on 
regularly. Senator Isakson, we are glad that you remain the ranking 
member and a great supporter of the State Department and USAID in 
Africa.
    Over the past century, the United States has played a critical role 
in the transformation of countries from war to peace, and in 
establishing a clear and necessary path to prosperity to keep those 
countries at peace and engaged in the global economy. During the 1940s 
and 1950s, we helped Europe end its wars, rebuild its economies, and 
protected the continent from the inherent threats of the cold war. 
Throughout the 1960s and 1970s, we supported great economic growth in 
Asia--countries like Korea, Japan, the Philippines, India, Pakistan, 
and Indonesia. During the 1970s and 1980s, we advanced democracy and 
development in Latin America and Africa. Throughout the entirety of 
USAID's 50 years of existence, the Agency has taken on some of the 
greatest development challenges in Africa, delivering life-saving 
humanitarian assistance, crucial health interventions, and partnering 
with Africans to improve democracy, governance, and education outcomes.
    Today, USAID celebrates 50 years of generosity from the American 
people who believe that we can make the world a better and safer place 
if we use our wealth, expertise, and values to invest smartly. In the 
last 10 years, the United States has been instrumental in bringing many 
African conflicts to an end, laying the foundation for democratic 
transformations and economic growth. At USAID, we have worked closely 
with our State Department colleagues, many Congressmen, Senators, 
faith-based organizations, and NGOs to move beyond simply ending wars 
already raging out of control to understanding how to prevent the types 
of conflicts and political instability that threaten our own national 
security. Corruption, disease, environmental degradation, poverty, 
illicit trade, and extremism, combined with unemployment and a 
ballooning youth population require sustained and smart U.S. 
investments in development. The United States partnership with Africa 
is based on our mutual desire to boost economic growth and prosperity 
for all, including not least American firms and American workers who 
stand to benefit from the huge markets and growth opportunities present 
in Africa. That same growth will be shared by African businesses that 
will generate the kinds of jobs necessary for real economic 
transformation and political stability. While Africa's future is driven 
by Africans, the United States will continue to play a major role by 
investing in our African partners to make sure the kind of economic and 
democratic outcomes we know to be crucial factors for stability and 
prosperity are achieved.
    To get the kinds of outcomes we are looking for, USAID now has 
several new tools at its disposal. The Obama administration's Policy 
Directive on Global Development is guiding the U.S. Government to take 
stock of its efforts contributing to development outcomes, and to focus 
and improve the impacts of our interventions. Combined with Secretary 
Clinton's leadership in the Quadrennial Diplomacy and Development 
Review and Administrator Shah's own efforts to fundamentally change how 
USAID does business through USAID Forward, the United States is 
significantly improving the impact and efficiency of its work in 
Africa.
    USAID is focusing on President Obama's three major initiatives--
Feed the Future, which aims to address hunger and unlock the enormous 
potential of African agriculture as a driver of prosperity; the Global 
Health Initiative, will save millions of lives while building 
sustainable health systems; and Global Climate Change, which helps 
mitigate the potentially dire consequences of climate change on African 
ecosystems, food production, and economic development. In addition to 
our bilateral support to African countries, we are engaging heavily 
with regional organizations like the East African Community, which can 
work effectively across borders, easing the restrictions on trade and 
investment and encouraging growth throughout Africa. As part of USAID 
Forward, we are also expanding our work with local organizations to 
build home-grown capacity and institutionalize our efforts to 
strengthen relations between the people and their governments to 
support lasting, sustainable civil society organizations, government 
institutions, and educational and health providers that can exist long 
after USAID support has run its course.
    The total FY 2012 budget request for Africa is $7.797 billion, 
representing a 10-percent ($732.7 million) increase over the FY 2010 
enacted total. Roughly 65.9 percent ($5.1 billion) of that consists of 
bilateral assistance for 13 priority countries (the Democratic Republic 
of Congo, Ethiopia, Ghana, Kenya, Liberia, Mali, Mozambique, Nigeria, 
Somalia, South Africa, Sudan, Tanzania, and Zimbabwe) that are critical 
to national security and economic trade. The request for Sudan 
represents an increase of 21 percent ($90.5 million), which would go 
toward enhancing security, governance capacity and economic growth 
throughout Southern Sudan's transition to independence.
    Seventy-seven percent of the request would go toward the 
President's initiatives, in which we will build on substantial 
investments:

  <bullet> Feed the Future: $507.3 million;
  <bullet> Global Health Initiative: $5.4 billion;
  <bullet> Global Climate Change Initiative: $126 million.

    These initiatives are integrated, focused, and led by each 
country's specific needs and opportunities. We have worked closely with 
focus countries to develop rigorous strategies and balance difficult 
tradeoffs with a clear-eyed assessment of where we can most effectively 
achieve dramatic, meaningful results for the developing world.
    An effective government--one that represents the interests of the 
people and is accountable and transparent--is the best insurance for 
making development progress sustainable. In African countries, long-
term improvements in health, education, economic growth, and the 
environment ultimately require responsive and representative 
governments that can promote and consolidate gains. In contrast, weak 
governance dampens economic activity, increases the risk of civil 
unrest, and can create fertile ground for terrorists.
    A number of obstacles hinder the consolidation of democratic 
political systems in Africa: entrenched political leaders, a lack of 
systems that provide for checks and balances, the high incidence of 
conflict due to resources, endemic corruption, legal restrictions on 
civil society, ethnic grievances, and a lack of a democratic political 
culture. A recent spate of coups, ethnic conflict, suppression of civil 
society, and political stalemates between opposing factions suggest a 
trend of democratic backsliding across all regions of Africa. However, 
we also see 15 emerging markets which are attracting private capital, 
commercial investments and nascent bond markets. USAID has reached out 
to many private sector actors to assist our work and see it expanding 
in the coming years.
    Positive trends have emerged in countries such as Ghana, where 
democracy continues to grow stronger, enabling it to serve as a 
regional role model. In 2011, 18 countries in Africa are considered 
electoral democracies compared with four in 1991, reflecting the long-
term progress that has been achieved. An ongoing trend toward 
decentralization brings authority and service delivery decisions from 
central control to subnational and local levels. And civil society 
organizations continue to grow in numbers and strength, although the 
need to broaden constituency bases and create linkages between urban 
and rural communities exists.
    USAID's work to strengthen the principles and practices of 
democracy and good governance helps to create the conditions for peace 
and development in Africa. USAID helps advance democracy in Africa by 
promoting the rule of law, free and fair elections, a politically 
active civil society, and transparent, accountable, and participatory 
governance. Through technical assistance, training, and financial 
support, USAID's bilateral and regional offices focus on increasing 
access to and participation in the political system, empowering local 
organizations, supporting elections, and strengthening democratic 
institutions.
    Feed the Future affirms the United States commitment to advance 
global stability and prosperity by improving the most basic of human 
conditions: the need that families have for a reliable source of 
quality food and the means to purchase it. Agricultural growth is 
highly effective in reducing poverty--especially in Africa, where the 
majority of rural poor depend on agriculture for their livelihoods. To 
ensure our investments are effective, we are prioritizing and focusing 
our resources on a core set of countries where food security objectives 
can best be realized.
    Feed the Future has two key objectives: creating inclusive growth 
in the agricultural sector and improving nutrition. Women are the 
backbone of the economy in Africa, gender concerns are integrated in 
all our efforts, and we are helping partners strengthen their capacity 
to consider gender throughout all stages of the agricultural 
production, processing and marketing. Feed the Future's country-owned 
plans are within the continent-wide efforts known as the Comprehensive 
Africa Agriculture Development Program (CAADP).
    Feed the Future has identified up to 20 potential focus countries 
worldwide based on the level of need, opportunity for partnership, 
potential for agriculture-led growth, opportunity for regional 
collaboration, and resource availability. Twelve of these countries are 
in Africa (Ethiopia, Ghana, Kenya, Liberia, Mali, Malawi, Mozambique, 
Rwanda, Senegal, Tanzania, Uganda, and Zambia).
    To ensure the sustainability and impact of U.S. Government 
investments, Feed the Future is investing in focus countries in two 
phases: Phase I investments concentrate on foundational investments, 
which are designed to lay the groundwork for an expansion of core 
investments during phase II. To determine whether a focus country is 
ready for phase II investments, Feed the Future will look for evidence 
that countries are consulting and coordinating with key stakeholders, 
including affected communities, the private sector, civil society, and 
the donor community and determine which countries represent the best 
opportunities for rapid agricultural growth, poverty reduction, and 
nutrition.
    Feed the Future also invests in regional programs that encompass 
focus countries and where addressing the challenges to food security 
requires cooperation across national borders. Regional investments are 
guided by three main objectives: expanding access to regional markets; 
mitigating risks associated with drought, disaster, and disease; and 
building long-term capacity of regional organizations to address 
regional challenges.
    The U.S. Government's longstanding bipartisan efforts in global 
health are a signature of American leadership in the world. Investments 
in global health strengthen fragile or failing states, promote social 
and economic progress, and support the rise of capable partners who can 
help to solve regional and global problems. Through the Global Health 
Initiative (GHI), the United States in partnership with local 
governments and donors will accelerate progress toward ambitious health 
goals which will improve the lives of millions. Funding is targeted to 
the highest priorities--from infectious diseases to maternal and child 
health--while helping developing countries build their capacity to help 
their own people. In order to maximize the sustainable health impact of 
every U.S. dollar invested in global health, GHI will expand basic 
health services and strengthen national health systems to significantly 
improve public health especially that of women, children, and other 
vulnerable populations with effective, efficient country-led plans.
    Our health programs not only show America at her best, but also 
deliver results. In 2000 malaria killed nearly a million people each 
year in sub-Saharan Africa. The cost to the continent was $30 billion a 
year in lost productivity. By 2009, that number had dropped nearly 20 
percent. In all eight African countries where both baseline and 
followup nationwide surveys have been conducted by the President's 
Malaria Initiative, there has been reported substantial reductions in 
all-cause child mortality, and growing evidence suggests that malaria 
prevention and control measures have been a major factor in these 
reductions. In FY 2012, PMI will continue to strengthen the capacity of 
local partners to deliver highly effective malaria prevention and 
treatment measures. And we will expand malaria control into two 
critical countries, the Democratic Republic of Congo and Nigeria, which 
have a combined population of 200 million and where 50 percent of the 
African malaria burden lies. But despite these successes urgent 
challenges remain. This year, more than 350,000 women will die in 
pregnancy or childbirth and 8 million children will die of preventable 
diseases before their fifth birthday; approximately half of these 
deaths will occur in Africa.
    GHI provides a platform to increase the efficiency of our 
investments in global health. Rather than supporting separate lines of 
health delivery--focused on diseases--GHI focuses on improving service 
delivery in an integrated way--particularly for women. Doing so 
generates efficiencies, allowing far more comprehensive treatment 
during fewer patient interactions. But the real success will be 
measured in lives saved--today and in the future. Accelerated progress 
depends on our ability to develop, identify, adapt, and deliver the 
game changers. We cannot be satisfied with marginal improvements for 
those who are already served. That is why under GHI, we will make 
substantial investments in better ways to treat diarrhea and pneumonia 
in children to save lives and prioritize vaccines, like rotavirus or 
pneumococcus which are now available, to more effectively prevent 
disease so children don't have to be treated later. For FY 2012, we 
have prioritized funding in four areas that have maximum impact on the 
health of women and children: HIV/AIDS, maternal and child health, 
malaria, and family planning. We are concentrating our financial, 
technical, and human resources on these areas to achieve dramatic, 
meaningful results for the American people and the developing world. 
Bipartisan congressional support and the generosity of the American 
people have long defined U.S. Government global health work. We look 
forward to continued cooperation and consultation with Congress as we 
work together to implement this important initiative.
    The United States is resolute in its commitment to forge a truly 
global solution to climate change, and established the Global Climate 
Change (GCC) initiative to help countries assess their vulnerability to 
climate change and begin to adapt to these changes. Africa's share of 
global greenhouse gas emissions is currently small--sub-Saharan Africa 
has only about 6 percent of global emissions, while encompassing about 
12 percent of the world's population. In many parts of the continent, 
however, emissions are rising rapidly--and there is enormous untapped 
potential to control their growth. But if emissions are relatively 
modest, climate impacts on Africa are unfortunately not commensurately 
limited. Africa is one of the most vulnerable continents to global 
climate change and climate vulnerability. The FY 2012 request includes 
$126 million for GCC in Africa, which will focus on three areas--
adaptation, energy, and landscapes--while addressing each of the 
sectors where the effects of climate change will be the most 
pronounced: food security, health, and stability.
    Of the total request for FY 2012, $53 million is planned to go 
toward adaptation--helping countries increase their resilience to 
changing climatic conditions. Activities will include assisting 
countries in improving science, building government systems, and 
identifying activities that can make people, places, and livelihoods 
less vulnerable over the long term. USAID's priority is in Africa's 
least developed countries and small islands--those places most 
susceptible to the initial effects of climate change and least able to 
combat it. Funding will go toward USAID's three regional programs in 
Africa (east, west, southern Africa) and 10 bilateral programs (Angola, 
Ethiopia, Kenya, Malawi, Mali, Mozambique, Rwanda, Senegal, Tanzania, 
Uganda).
    The FY 2012 request for GCC in Africa also includes $25 million for 
clean energy programs. No country has developed without a parallel 
increase in the use of energy, which is why developing economies are 
projected to account for over 80 percent of the growth in emissions by 
2030. These countries can and should play a major role in reducing 
emissions of greenhouse gases while still continuing to develop 
robustly and sustainably. Funding will be dedicated to a mix of 
countries that are major greenhouse gas emitters, countries that are 
committed to energy efficiency and renewable energy, and countries 
where programs can exploit larger scale impacts due to regional 
interconnectedness (east, west, southern Africa; Kenya, South Africa).
    Finally, the FY 2012 request includes $48 million for sustainable 
landscapes, which mitigate emissions caused by land degradation, 
deforestation, and desertification. USAID is working to change the 
economic circumstances that drive emissions, improve land management, 
conserve important carbon ``sinks'' in forests, promote reforestation 
and afforestation, and promote improved agricultural and agroforestry 
methods to increase carbon sequestration. The priorities for this 
funding are the Congo basin (an area managed by USAID's Central Africa 
Regional Program for the Environment) and the west African region, as 
well as Ghana, Malawi, and Zambia. These key locations were chosen 
based on their potential for mitigation, their potential for carbon 
markets, local political will, multilateral coordination, and the 
extent to which efforts can produce best practices and scalable models 
for other areas.
    Our key priorities also require a cooperative approach, so regional 
integration will be key to achieving the objectives of each of these 
initiatives. USAID works closely with African regional institutions, 
which play a vital role in bringing together member states to address 
challenges that cross boundaries, such as food security, health, and 
climate change. The potential benefits are significant:

  <bullet> Market access and more efficient economies of scale as 
        firms, including U.S. businesses, are able to freely access a 
        much larger regional market.
  <bullet> Reduced transaction costs associated with doing business 
        through reduced paperwork required to open a business and trade 
        across borders. Integration would also dramatically reduce the 
        time and cost of transport and allow banks and insurers to draw 
        from a larger pool, reducing the cost of finance and expanding 
        access for African, U.S., and international businesses.
  <bullet> Foreign investment as the cost of doing business in the 
        region is reduced, and the potential benefits increase because 
        of the larger size of the market place.
  <bullet> Food security as food moves freely from areas of surplus 
        production to areas of deficit.
  <bullet> Stability as conflicting parties are united under a larger 
        union and as the economic benefits of integration lead to 
        greater regional prosperity.

    USAID, working with the Departments of State and Defense, has 
increased its support to regional integration efforts by closely 
working with the African Union, the East African Community, ECOWAS, and 
other regional groupings to ensure that common security and economic 
issues can be the platforms to creating peace and security in the 
region.
    USAID is serious about Africa. There is no denying Africa's 
importance to the United States, both for the moral imperative of 
helping to solve the biggest development challenges on the planet, and 
for the very real interests of the United States national security and 
economic opportunities. To accomplish our goals, we understand the 
importance of getting the most out of every taxpayer dollar spent--that 
is why we are committed to making crucial reforms that are already 
having an effect on our work in Africa. USAID is partnering with other 
donors for greater impact, as we are doing with the United Kingdom's 
Department for International Development in Nigeria to jointly program 
our resources to ensure the elections were free and credible. We are 
also proud of our joint efforts with the State Department toward the 
successful referendum on independence for southern Sudan last January. 
Smart USAID investments are paying off in Tanzania and Ghana as well, 
where Feed the Future is leveraging the private sector and working to 
truly transform food production and the economies of our African 
partners. As we continue to work with our partners toward our shared 
goals over the coming months, I very much look forward to a continued 
conversation on USAID in Africa.
    Thank you, Mr. Chairman, Senator Isakson, and members of the 
subcommittee. I look forward to responding to any questions you might 
have.

    Senator Coons. Thank you, Raja. Thank you very much for 
your testimony, and we look forward to the exchange of 
questions and answers later.
    If I could now turn to the U.S. Global AIDS Coordinator, 
Ambassador Eric Goosby.

STATEMENT OF HON. ERIC P. GOOSBY, U.S. GLOBAL AIDS COORDINATOR, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Goosby. Thank you, Mr. Chairman, Ranking Member 
Isakson. Thank you for this opportunity to discuss PEPFAR's 
work in Africa. You have my written testimony, so I will be 
brief.
    Let me begin by thanking this committee for its leadership 
in our 2003 and 2008 reauthorization. We are working hard to 
implement that vision, the vision you laid out in that landmark 
legislation. You conceived of PEPFAR as an interagency effort 
led by the Department of State and drawing on the full range of 
strengths of our U.S. agencies. In Washington, I am proud to 
have the opportunity and responsibility to lead this 
coordination. In-country, it is our Ambassadors who are 
coordinating the work of the agencies and ensure we are working 
as one U.S. Government with each country's government, civil 
society, multilateral organizations, and others. This unified 
PEPFAR approach offers us opportunities for synergies and 
increased impact and efficiency that we would miss if we were 
not working together as a team. Speaking with one voice at the 
country level strengthens our ability to highlight the shared 
responsibility of the global resources and to call on others to 
increase their efforts.
    This committee has a particular right to be proud of the 
investment you have made in saving lives and promoting 
security. As PEPFAR is demonstrating, your investments are 
working.
    In my travels to Africa, I have been repeatedly struck by 
the deep gratitude for PEPFAR. Simply put, America has brought 
hope back to countless people and helped ensure stability and 
security. As Secretary Clinton has noted, global health 
programs not only save the lives of mothers and children, they 
stabilize societies and halt the spread of deadly disease to 
our own country.
    On a personal level, I am humbled by the sheer number of 
people whose lives we have saved and whose families we have 
kept together. Last year, PEPFAR directly supported support for 
lifesaving treatment for more than 3.2 million people, women 
and children. We supported programs that helped nearly 3.8 
million orphans and vulnerable children move toward a better 
future.
    The President's FY 2012 request for PEPFAR reflects the 
fact that while much has been accomplished, much work remains. 
Now is the time to keep moving forward and build on these 
successes. We must continue our investments and make sure they 
are smart investments. This means using each dollar to save as 
many lives as we can from using less expensive generic drugs to 
moving these drugs by land and sea instead of by air.
    Getting smarter means achieving greater efficiency and 
impact on our programs. Our work to prevent mother-to-child 
transmission of HIV is an example. It has a triple benefit: 
saving the life of the mother, preventing the newborn from 
being born with HIV, and keeping her children from becoming 
orphans, thus keeping the family intact. In the last year 
alone, our investments through PEPFAR led to more than 114,000 
children being born HIV-free. America is truly leading the 
global effort to end pediatric AIDS worldwide and to lay the 
foundation for an AIDS-free generation.
    Since its inception, PEPFAR has used coordination as a tool 
to maximize our impact. As we are seeing with the President's 
Global Health initiative, the health systems we have 
established are now helping us combat other health threats 
while strengthening our focus on our own HIV/AIDS mission. We 
are at a pivotal moment in making a shared response to AIDS a 
reality. Partnership frameworks have helped to secure partner 
government commitments to heighten efforts. And we have used 
these frameworks to ensure participation of the full range of 
partners, including faith-based organizations who play critical 
roles, in-country health systems, and others members of civil 
society.
    To be clear, this work of country ownership is not yet 
complete, and the timeline for these efforts will vary from 
country to country. But it is well underway and we are on the 
precipice of securing these gains for the long term.
    Finally, shared responsibility also means that no one 
country alone can win the fight against AIDS. That is why we 
must support the Global Fund as an essential partner. Last 
year, the Obama administration pledged to request $4 billion 
for the fund over 3 years. Equally important, we issued a call 
to action for reform, launching a process to improve its 
operations, especially at the country level. We are also 
strengthening the fund's efforts to protect both U.S. 
taxpayers' investment and the people who rely upon these 
programs. Simply put, we must all support a strong Global Fund.
    To conclude, I say to you today that we cannot 
underestimate the power of the hope we are bringing to millions 
on the African Continent who once could only see despair. Hope 
is the power to save lives. Hope is building stronger families 
and stronger communities. It is the hope you made possible and 
for this we thank you.
    I look forward to your questions.
    [The prepared statement of Ambassador Goosby follows:]

           Prepared Statement of Ambassador Eric Goosby, M.D.

    Chairman Coons, Ranking Member Isakson, thank you for inviting me 
to discuss the President's Emergency Plan for AIDS Relief, or PEPFAR, 
and our activities on the African Continent.
    From the day it was first announced nearly 8 years ago, the story 
of PEPFAR has demonstrated the remarkable good will and generosity of 
the American people. Congress's ongoing bipartisan support for PEPFAR, 
and President Barack Obama's continuing stewardship of a landmark 
program launched by President George W. Bush, have shown the world that 
this is a vital, effective, and durable element of our foreign policy.
    All across Africa, I have been struck by the deep gratitude of 
governments and ordinary people for PEPFAR's lifesaving mission. This 
effort has provided a positive and powerful message in our public 
diplomacy. Actions speak louder than words, and the people of Africa 
clearly understand that this support comes from the American people, 
providing them with a window into who we are as a people.
    The Foreign Relations Committee has been a key partner in the 
success that we have been able to achieve through the years. You played 
a central role in both our 2003 authorization, and our 2008 
reauthorization. Pursuant to our reauthorization, despite challenging 
economic and budget times, President Obama's fiscal year (FY) 2012 
request for this program reflects the administration's strong, 
continuing commitment on HIV/AIDS. We are deeply appreciative of your 
partnership in this work.

                              SAVING LIVES

    When I talk about HIV/AIDS, I bring the perspective of one who has 
been involved in the response for 30 years. And I believe that 2010 was 
a crucial chapter in the global response, providing many reasons for 
hope about the future. As has been true throughout the past decade, the 
commitment of the American people was central to virtually all of the 
year's breakthroughs. America is truly leading the world in this 
effort.
    We must always remember that numbers are not the whole story of 
PEPFAR, but when those numbers represent children, women, and men whose 
lives are being saved, they are critical. The people implementing 
PEPFAR in the field continued to expand life-saving programs this year, 
as shown by our 2010 program results--the vast majority of which were 
achieved in Africa. At the end of the fiscal year, PEPFAR supported 
over 3.2 million people on treatment through bilateral programs 
worldwide, an increase of more than 700,000 over the previous year. 
PEPFAR and the U.S.-supported Global Fund to Fight AIDS, Tuberculosis 
and Malaria continue to be the leading engines of the dramatic increase 
in availability of treatment. UNAIDS estimates that at least 5.2 
million people in low- and middle-income countries are now receiving 
treatment, predominantly in Africa. Most of these people were already 
quite ill when they accessed treatment, and would have died in the near 
future without it. This is truly an extraordinary global achievement.
    PEPFAR programs provided more than 600,000 pregnant women with 
drugs to prevent motherto-child transmission of HIV (PMTCT), reflecting 
one of my top priorities. As a result, it is estimated that over 
114,000 babies were born free of HIV in 2010--representing continued 
sharp acceleration of PMTCT efforts relative to earlier years. PEPFAR 
also provided care and support for over 11 million people in FY 2010, 
including over 3.8 million orphans and vulnerable children.
    When I reflect that each of the numbers represents a real person--
with a story, a family, a community--the impact of this work is too 
vast to comprehend through numbers alone. I am fortunate to have 
frequent opportunities to hear the stories of our real people in Africa 
and around the world, which provide a window into the human impact of 
America's effort. In Nigeria, I heard from a man who told me of his 
fear that the U.S. Government would cut support for the drugs that kept 
him alive. In Mali, I met with a young woman who was born with HIV and 
has been facing stigma and discrimination for most of her life, but has 
not let that keep her from pursuing her dreams of becoming a writer.
    In short, much has been accomplished and much more remains to be 
done. With this in mind, we will push on toward the ambitious goals in 
our Five-Year Strategy--using all that we have learned, to do more and 
to do better.

                           SMART INVESTMENTS

    One encouraging aspect of these life-saving results is that they 
were achieved despite the difficult economic environment. A key element 
has been a heightened commitment to smart investments--that is, 
stretching each dollar as far as we can to save as many lives as we 
can. Let me briefly highlight areas we have identified for focus:

  <bullet> We are strengthening use of economic and financial data to 
        ensure efficient use of resources.
  <bullet> We are incorporating innovations that promote efficiency and 
        allocate resources based on impact.
  <bullet> We are increasing collaboration with governments, the Global 
        Fund and other stakeholders to align programs and target 
        investments.
  <bullet> We are reducing costs by streamlining our U.S. Government 
        operations and supporting increased country ownership.
  <bullet> We are achieving the best available, all-inclusive commodity 
        pricing.
  <bullet> We are leveraging creative mechanisms for health care 
        financing, in order to bring additional resources to bear.
  <bullet> And finally, we are developing an evaluation and research 
        agenda that will show all global health how to improve 
        efficiency and impact.

    Through all of these smart investments, we are supporting countries 
as they try to build an effective, durable continuum of care that meets 
the needs of their people. The more impactful and efficient our 
investments, the greater the country's ability to create a sustainable 
response. Here are just a few examples of the impact of this focus on 
smart investments to date.

Treatment and Care
    Antiretroviral treatment saves lives, but it is a significant 
component of our overall costs. In July, we reported on treatment 
costs, based on groundbreaking studies of PEPFAR-supported treatment 
sites across 12 countries. This data, indicating an estimated mean cost 
to PEPFAR of $436 for each patient supported, provides a baseline for 
efforts to identify treatment efficiencies.
    South Africa has the world's largest number of people living with 
HIV, and the world's largest treatment program. The South African 
Government identified the need for additional funding that would help 
to fill urgent short-terms gaps in drug availability and drive changes 
in procurement policies, while greater South African investments could 
be marshaled. I personally joined our country team in working with the 
Ministry of Health, and we concluded there was a need for an additional 
one-time $120 million dollar investment over 2 years. With this money, 
PEPFAR was able to buy drugs at 50 percent of their previous prices in 
South Africa. This investment, along with substantial work by the 
Government, led to a historic change in South Africa's policies that 
enabled the government to do what we had done, and purchase medicines 
at 50 percent of its previous costs. This allowed the country to save 
an estimated $600 million dollars over the next 2 years alone. In 
short, the PEPFAR investment had a remarkable multiplier effect. It 
will immediately allow hundreds of thousands to receive lifesaving 
treatment that they would not otherwise have received, preventing the 
vertical transmission of HIV to thousands of additional infants and 
keeping their mothers alive and their families intact, while remaining 
a South African Government investment.
    Other compelling examples drawn from the treatment program area 
reflect the work of the Supply Chain Management System, which PEPFAR 
created and manages through USAID. Antiretroviral drugs purchased 
through that mechanism are now over 98 percent generic--an amazing 
achievement that saved us over $380 million dollars in 2010 alone. Our 
progress toward reliance on generics was described in a recent paper in 
the Journal of the American Medical Association.
    And through our supply chain strengthening efforts, we're 
increasingly moving those drugs and other commodities in more cost-
effective ways. SCMS estimates we've saved almost $40 million dollars 
to date just by using sea rather than air freight, for example. Through 
SCMS, we've also set up three state-of-the art regional distribution 
centers in Ghana, Kenya, and South Africa, helping to make us more 
efficient in moving products. All of these commodity savings lead 
directly to being able to serve more people, and save more lives.

Prevention
    In HIV prevention, smart investments are equally essential, and 
this year brought much encouraging news. UNAIDS reported significant 
declines in new HIV infections in over 30 countries, including 22 in 
Africa--a remarkable turnaround from the trends of a few years ago. In 
the past, we've used the phrase ``combination treatment'' to suggest 
the need to rely on several antiretroviral drugs, not just one. Now we 
also talk about ``combination prevention'' to demonstrate the 
importance of relying on multiple prevention tools for a given 
population--including biomedical, behavioral, and structural 
approaches. It is essential for each country to know its epidemic, and 
PEPFAR is seeing the payoff from heavy investments in high-impact 
prevention activities tailored to the needs of specific countries. 
Evidence on the epidemiology of HIV within each country helps answer 
questions such as need for relative emphasis on youth or older 
population groups to find the right mix of programs that promote, for 
example, delay of sexual debut and partner reduction. Country 
epidemiology also helps us identify and focus on most-at-risk 
populations, where comprehensive prevention efforts play a critical 
role in halting the advance of the epidemic, including among men who 
have sex with men, sex workers, migrant workers, and those who inject 
drugs. We have also strengthened efforts to rigorously evaluate the 
impact of prevention activities, in order to target investments to save 
more lives. Two key examples of smart prevention investments I'd like 
to highlight are PMTCT and male circumcision.
    Prevention of mother-to-child transmission. Vertical transmission 
is a significant cause of new HIV infections worldwide--causing one in 
every seven new infections. Yet PMTCT interventions are extraordinarily 
effective. Without PMTCT, 25-40 percent of babies of HIV-positive 
mothers will be born infected; with PMTCT that number can be reduced to 
below 5 percent, as Botswana has demonstrated. PMTCT has a triple life-
saving benefit: saving the life of the woman, protecting her newborn 
from HIV infection, and protecting the family from orphanhood. Because 
it works so well and touches so many lives, PMTCT is a smart investment 
for PEPFAR--high-impact and cost-effective. In FY 2010 alone:

  <bullet> PEPFAR directly supported HIV counseling and testing for 
        nearly 8.4 million pregnant women;
  <bullet> More than 600,000 HIV-positive pregnant women received 
        antiretroviral prophylaxis to prevent mother-to-child 
        transmission; and
  <bullet> Through these PMTCT efforts in 2010, more than 114,000 
        children are estimated to have been born HIV-free (adding to 
        the nearly 340,000 from earlier years of PEPFAR).

    We are leading the global effort on PMTCT, and I'm proud to note 
these are the highest PMTCT results of any year in PEPFAR's 7-year 
history. We are working to ensure that every partner country affected 
by the HIV epidemic has at least 80 percent coverage of testing for 
pregnant women at the national level, and 85 percent coverage of 
antiretroviral drug prophylaxis and treatment, as indicated, of women 
found to be HIV-infected.
    In 2010, PEPFAR established ``PMTCT Acceleration Plans'' for six 
countries with high burdens of vertical transmission--all located in 
Africa. PMTCT Acceleration Plans provided $100 million in additional FY 
2010 PEPFAR funding--above the more than $956 million spent on PMTCT 
from FY 2004-09--to fund plans targeting bottlenecks to expanding 
services. Based on the encouraging early results of this effort, PEPFAR 
has continued this funding in FY 2011. With the help of Congress, I was 
proud to oversee the ``virtual elimination'' of pediatric AIDS here in 
America during my tenure at HHS, and I believe PEPFAR can be 
instrumental in helping to end pediatric AIDS worldwide and laying a 
foundation for an AIDS-free generation.
    These PMTCT efforts have benefits for overall health care for 
women. Linking HIV testing with antenatal care helps to identify women 
who are in need of care. In addition, counseling and testing can help 
women who are HIV-negative remain HIV-free. The availability of these 
additional services also provide an incentive for women to seek 
antenatal care. In Kenya, Uganda, South Africa, and other countries, 
strong linkages among PMTCT, maternal and child health and other 
programs dramatically increased program coverage, allowing programs to 
focus on the needs of each woman and family in a more holistic way.
    Male circumcision and other innovations in prevention. PEPFAR is 
leading the world in support for rapid scaleup of male circumcision, 
which was scientifically validated in recent years as a highly 
protective intervention against HIV infection. Studies show that if we 
rapidly scale up circumcision to 80 percent coverage over 5 years in 
Eastern and Southern Africa, we can prevent 20 percent of all new HIV 
infections in that region--an incredible 4 million infections averted. 
And doing so would save over $20 billion dollars over a 16-year period. 
Our experience shows that there is strong demand for this service when 
men are made aware of its prevention benefits. In Kenya's Nyanza 
province, PEPFAR supported the Government in an intensive effort that 
performed more than 30,000 male circumcisions in a 30 working days, 
coupling this effort with other prevention messaging and support.
    Looking to the future, we have new hope of adding much-needed new 
tools to the global prevention toolkit. Especially encouraging have 
been proof of concept of a woman-controlled microbicide, based on a 
study funded by PEPFAR through USAID, and highly positive research 
findings on pre-exposure prophylaxis, funded by the National Institutes 
of Health. As we previously did with male circumcision, PEPFAR will 
continue to aggressively pursue formative work that prepares for 
implementation of these new tools as they become available, based upon 
scientific and regulatory guidance. As the world seeks a vaccine 
against HIV infection, it is also important to note the significant 
U.S. Government support for the Global Alliance for Vaccines and 
Immunization.

Gender
    Across all programs, PEPFAR recognizes that gender inequalities 
fuel the spread of HIV and supports programs that respond to this 
challenge. Gender-based violence (GBV), in particular, limits women's 
ability to negotiate sexual practices, disclose HIV status, and access 
medical services and counseling. We have intensified our focus on GBV 
with a $30 million commitment that builds on PEPFAR platforms in all 
countries, with a particular focus on Mozambique, Tanzania, and the 
Democratic Republic of Congo--and with strong governmental and civil 
society engagement in all three countries. We have also created a 
Gender Challenge Fund to stimulate our country teams to identify and 
seize new opportunities. As part of a strong and growing portfolio of 
innovative partnerships with the private sector, PEPFAR also joined the 
Together for Girls public-private partnership to work with countries to 
inform and implement a coordinated approach to surveillance, policy and 
programs for ending sexual violence against girls.
Program Evaluation and Research
    After 7 years of implementation, PEPFAR is generating a growing 
body of evidence and lessons learned and redoubling its efforts to 
apply and disseminate these. We have reformed our Public Health 
Evaluation process to better allow for both U.S. Government and 
externally generated studies that will provide timely operations 
research on urgent questions, and instituted a Scientific Advisory 
Board to ensure that programs reflect the latest science. As described 
in a recent paper in the Journal of AIDS, PEPFAR has adopted an 
innovative framework for implementation science, defined as ``methods 
to improve the uptake, implementation, and translation of research 
findings into routine and common practices,'' to improve the 
development and effectiveness of our programs.

               BROADER CONTEXT OF HEALTH AND DEVELOPMENT

    Like all others engaged in this work, PEPFAR has encountered the 
reality that HIV/AIDS is linked to a wide range of global challenges. 
In her recent testimony before this subcommittee, Secretary Clinton 
noted that global health programs not only stabilize societies 
devastated by HIV, malaria, tuberculosis, and other illnesses, they 
save the lives of mothers and children and halt the spread of deadly 
disease toward our own country.
    In September, President Obama announced a new global development 
policy to raise the importance of development in our national security 
policy decisionmaking and generate greater coherence across the U.S. 
Government. The policy is the guiding framework for U.S. development 
initiatives including the Global Health Initiative, of which PEPFAR is 
the largest component.
    All of our global health efforts reflect a vision of better 
coordinated and linked U.S. development investments. This emphasis is 
great news for PEPFAR, because better coordination can save both money 
and lives, and help us expand the reach of our development dollars. 
Since its inception, PEPFAR has used coordination as a tool to maximize 
impact. Our implementers have long known that people affected by HIV 
face a range of broader health and development challenges, and have 
seen the opportunities to ensure that our other programs are meeting 
their needs. At the same time, the health systems platforms established 
under PEPFAR have much to contribute in meeting the broader health and 
development challenges of partner nations. By meeting the HIV 
challenge, we have naturally created significant health care systems 
improvements that are important in the struggle against other threats, 
and we have done so without diluting our focus on our own mission of 
combating HIV/AIDS.

                           COUNTRY OWNERSHIP

    An area of striking progress has been movement toward country 
ownership, with developing countries increasingly taking the lead in 
responding to HIV/AIDS, while the United States and other external 
partners play key supportive roles. We have used every opportunity to 
promote the centrality of country ownership principles, including both 
governments and civil society. PEPFAR country teams initiated processes 
to assess and support countries, across many sectors and functions, in 
defining their needs for health systems capacity development and 
targeted technical support. For governments, key areas of focus 
included surveillance, planning, analysis, management, monitoring and 
evaluation, and budgeting, at key national ministries as well as other 
levels of government.
    To address one central facet of the multifaceted health systems 
challenge--severe shortages of well-trained health workers recognized 
in the reauthorization--PEPFAR and NIH teamed up to launch Medical and 
Nursing Education Partnership Initiatives. Fostering partnerships 
between African and other universities to enhance the quality of 
training of health professionals and increase the numbers trained as we 
work to meet the goal Congress established, these initiatives are a key 
part of wide-ranging U.S. support for health systems prepared to meet 
the needs of their populations.
    In another example of support for African institutions, PEPFAR 
recently helped launch the African Society for Laboratory Medicine 
(ASLM), which will advance laboratory medicine practice, science, 
systems, and networks on the continent and foster South-to-South 
sharing of best practices. Laboratory services are vital to support 
quality medical care with correct diagnoses and monitoring, preventive 
medicine, surveillance and disease control. As part of our health 
systems strengthening work, PEPFAR is committed to supporting African 
leadership to build strong laboratories that perform to international 
standards and provide prompt diagnoses and clinical management support 
for patients.
    Through the mechanism of Partnership Frameworks, encouraged by 
Congress in our reauthorization to promote accountability, PEPFAR and 
21 partner governments have documented mutual commitments for the next 
5 years, with still more to follow. Our Framework with South Africa 
deserves special note in light of that nation's central role in the 
global HIV/AIDS challenge. Turning a decisive page, the South African 
Government has assumed increasing leadership, including a dramatically 
heightened financial contribution to HIV/AIDS and an intention to 
approach full financial responsibility for its program by 2016. 
Secretary Clinton personally signed PEPFAR Partnership Frameworks with 
South Africa, Angola, and Vietnam, signaling commitment to country 
ownership as part of U.S. foreign policy at the highest level.
    One thing we've tried to do with these frameworks is to secure 
commitments to ensure participation of the full range of civil society 
partners needed for countries to respond effectively--including faith-
based partners. In many countries, faith-based organizations play a 
critical role as part of national health systems, and it is vital for 
that role to be acknowledged and strengthened.

                         SHARED RESPONSIBILITY

    The global HIV challenge cannot be met by any one country alone--
nor should it be. In addressing this complex epidemic, all have a part 
to play. In addition to the contributions of the United States and 
partner nations, a truly global response requires commitment by other 
donor nations and the private sector.
    The Global Fund is a critical vehicle for this full range of 
stakeholders to contribute and heighten their commitment to the fight, 
as the United States has done over the past decade. Through our 
contribution to the Global Fund, the United States is able to support 
the delivery of significant and concrete health results; expand the 
geographic reach of and enhance bilateral efforts; catalyze 
international investment in AIDS, TB, and malaria; build capacity, 
country ownership, and sustainability; and demonstrate political 
commitment to international cooperation. The United States remains by 
far the largest contributor to the Fund, and last year, the Obama 
administration made its first-ever multiyear pledge to request $4 
billion for contribution to the Fund over 2011 to 2013. This strong 
U.S. support for the Fund's work is vital to generating increased 
commitments by others. Equally as important, we issued a Call to Action 
for reform, launching a process to improve the Fund's operations, 
especially at the country level. This statement has been embraced by 
the Global Fund Board, which has established a Reform Working Group, to 
push this reform agenda forward as a top priority. The United States is 
actively advancing this work through our seat on the Global Fund Board 
and leadership roles in its key committees and working groups. We are 
also working to support and strengthen the Fund's efforts to root out 
corruption in its grants, supporting a strong and independent Inspector 
General and working to protect both U.S. taxpayers and the people who 
rely upon the health programs financed through the Fund.
    The Global Fund is an essential partner in the fight against AIDS, 
TB, and malaria, supporting significant health results, building 
country capacity, and attracting continued investments from other 
donors. Simply put, the world needs a highly effective, efficient 
Global Fund.
    The United States has promoted the theme of shared global 
responsibility in its dialogues with other international partners. 
Through deepened participation in global fora, the United States has 
used its opportunities to leverage more engagement by others. PEPFAR is 
working with partners throughout the world to ensure that this message 
is featured prominently at the United Nations General Assembly High 
Level Meeting on HIV/AIDS in June.

                               CONCLUSION

    The driving force behind all of PEPFAR's efforts has been a desire 
to maximize the life-saving impact of each dollar entrusted to PEPFAR 
by Congress and the American people. As we move forward, I want this 
subcommittee to know that PEPFAR will maintain this focus on the people 
we serve, in Africa and around the world.
    Thank you very much. I look forward to our dialogue.

    Senator Coons. Thank you, Mr. Ambassador.
    And we now turn, last but not least, to the testimony of 
Mr. Patrick Fine who is the vice president for Compact 
Implementation of the Millennium Challenge Corporation.
    Mr. Fine.

   STATEMENT OF PATRICK C. FINE, VICE PRESIDENT FOR COMPACT 
 IMPLEMENTATION, MILLENNIUM CHALLENGE CORPORATION, WASHINGTON, 
                               DC

    Mr. Fine. Thank you. Chairman Coons, Ranking Member 
Isakson, thank you for bringing us together today. I am pleased 
to be here with my interagency colleagues and to have this 
opportunity to discuss the unique mission of the Millennium 
Challenge Corporation and our distinctive approach to 
development in Africa.
    As you have heard from my colleagues, today's hearing comes 
at a time when much is at stake in Africa. Africa is home to 
more impoverished countries than any other continent. 
Approximately 60 percent of MCC's partner countries are in 
Africa, where 70 percent of our funds are dedicated.
    Although countries in conflict grab the headlines, I have 
witnessed remarkable progress in the over 30 years that I have 
been living and working in Africa, and I have seen the vital 
role that United States assistance plays in increasing access 
to education, in combating disease, and in promoting market 
economies.
    President Obama has laid out a clear vision for 
development. It articulates the strategic, economic, and moral 
imperatives that make development vital to U.S. national 
security. The President's global development policy recognizes 
that protecting our interests and advancing our ideals requires 
economic and diplomatic tools like the MCC, USAID, and PEPFAR.
    The MCC is a specialized tool. It works with poor but well-
governed countries. Our programs build capacity and strengthen 
relationships with Africa's emerging economies. From Mali, 
where small holders are growing rice on thousands of acres of 
what was scrub land a year ago, to Mozambique, where thousands 
of people will gain access to clean water for drinking and 
agriculture, MCC financing is improving lives.
    MCC only works with countries selected using publicly 
available third-party indicators related to ruling justly, 
investing in people, and economic freedom. This creates an 
amazingly powerful set of incentives for good policy 
performance. We have seen these incentives cause governments to 
undertake reforms both to become eligible for MCC assistance, 
in other words, before we put any money on the table, and to 
retain programs already underway.
    We have a singular focus: poverty reduction through 
economic growth. By focusing on economic growth, MCC helps 
farmers, entrepreneurs, and small business people create new 
sources of wealth for themselves, their communities, and their 
nations.
    Increased prosperity creates new markets and strong allies 
for America. I saw an example of this 2 weeks ago when I 
visited a chicken hatchery financed by the MCC in Georgia. Not 
only did this enterprise create 45 jobs and reduce Georgia's 
reliance on importing eggs from Russia, but when we went to the 
building where tons of chicken food were mixed, we saw that the 
soybeans were imported from the United States.
    In Tanzania, MCC is financing expansion of the electrical 
grid, which is a basic prerequisite for modern business 
expansion. A U.S. consortium led by Symbion Power and Pike 
Energy won over $100 million in contracts for this work. 
Investing in the hope, prosperity, and security of others is 
both an investment in our own future and the representation of 
America leading with its values.
    Now, how we execute our model also matters. We quite 
deliberately treat aid as a business, investing in programs 
that yield an economic return. Diligent oversight ensures that 
U.S. companies can compete for foreign contracts with 
confidence that the procurement will be free of corruption and, 
if they win, that they will be paid on time. Once a contract is 
awarded, we are uncompromising in our enforcement of measures 
to prevent, detect, and punish fraud and corruption.
    Recently, after a procurement was canceled in Lesotho due 
to suspicions that the technical evaluation had been tainted, 
the Lesotho Times, an independent newspaper, ran the headline 
``MCA Ensures Transparency.'' That is our reputation and our 
partners understand it.
    President Obama has requested $1,125,000,000 for MCC for 
fiscal year 2012. Close to one-third of this would go to a 
compact in sub-Saharan Africa for Ghana. By supporting funding 
for MCC, Congress will reaffirm America's commitment to 
countries that are committed to their own development. Look at 
MCC's track record in terms of the results that benefit the 
poor and in terms of the incentives for good policy performance 
that create the business environment to allow countries to 
increasingly finance their own development and to become good 
trade partners for the United States, and you will see this 
taxpayer money is well spent.
    With that, Chairman Coons, Ranking Member Isakson, other 
members of the committee, Senator Lee, I would like to again 
state my appreciation for your continued support of results-
based foreign assistance, and we look forward to continuing our 
strong working relationship with you.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Fine follows:]

                 Prepared Statement of Patrick C. Fine

    Good morning, Chairman Coons, Ranking Member Isakson, and all the 
members of the subcommittee. I am pleased to be here to discuss the 
unique mission of the Millennium Challenge Corporation and our 
distinctive approach to development in Africa. If there are no 
objections, I will summarize my remarks and submit my full statement 
for the record.
    Today's hearing comes at a time when much is at stake on the 
continent of Africa.
    Africa is home to more impoverished countries than any other 
continent. Appropriately, nearly 60 percent of MCC's partner countries 
are in Africa--where 70 percent of our funds are dedicated. Although 
countries in conflict like Cote d'Ivoire grab the headlines, I have 
witnessed remarkable progress in the over 30 years that I have been 
living and working in Africa, and I've seen the vital role that U.S. 
assistance has played in increasing access to education, combating 
disease, and promoting market economies.
    President Obama has laid out a clear vision for development that 
articulates the strategic, economic, and moral imperatives that make 
development vital to U.S. national security. The President's Global 
Development Policy recognizes that protecting our interests and 
advancing our ideals requires economic and diplomatic tools such as the 
MCC, USAID, and PEPFAR.
    We take collaboration seriously. We colead the Partnership for 
Growth, along with State and USAID, and work with other U.S. Government 
agencies in the countries where we operate to ensure our programs are 
coherent and mutually reinforcing.
    The MCC is a specialized tool that works with poor but well-
governed countries in Africa and around the world. Our programs build 
capacity and strengthen relationships with Africa's emerging economies. 
From Morocco, where private small holders are expanding olive 
production; to Mozambique, where thousands of people will gain access 
to clean water for drinking and agriculture; through the MCC, U.S. 
assistance is improving lives.
    As you know, MCC only works with countries selected using credible, 
publicly available, third-party indicators related to ruling justly, 
investing in people and economic freedom. This creates an amazingly 
powerful set of incentives for good policy performance. We have seen 
these incentives cause governments to undertake reforms both to become 
eligible for MCC assistance--in other words, before we put any money on 
the table--and to retain programs already underway.
    A model with a singular focus--poverty reduction through economic 
growth, by which we mean raising incomes--makes the MCC distinct from 
other aid programs and has served us well. By focusing on economic 
growth, MCC helps entrepreneurs and small businesspeople create new 
sources of wealth for themselves, their communities, and their nations. 
Increased prosperity creates new markets and strong allies for America. 
I saw an example of this 2 weeks ago when I visited a chicken hatchery 
financed by the MCC in Georgia. Not only did this enterprise create 45 
jobs and reduce Georgia's reliance on importing eggs from Russia, but 
when we went to the building where tons of chicken food are mixed, we 
saw that the soybeans were imported from the United States. And in 
Tanzania, MCC is financing expansion of the electrical grid, one of the 
basic prerequisites for modern business expansion. A U.S. consortium 
led by Symbion Power and Pike Energy competed and won over $100 million 
in contracts for this work. And, of course, investing in the hope, 
prosperity, and security of others is both an investment in our own 
future and a representation of America leading with its values.
    How we execute our model also matters. Selectivity and rigor 
continue at this level. We only invest in areas that are binding 
constraints to growth and we only invest in programs that deliver an 
economic return. MCC is not your business-as-usual aid program. It is a 
program that quite deliberately treats aid as a business. And it's good 
for U.S. business. MCC financing and diligent oversight ensures that 
U.S. companies can compete for foreign contracts with the confidence 
that the procurement will be free of corruption, will be professionally 
administered, and if they win, that they will be paid on time. Once a 
contract is awarded, we are uncompromising in our enforcement of 
measures to prevent, detect, and punish fraud and corruption. After a 
procurement was cancelled in Lesotho last month due to suspicions the 
technical evaluation had been tainted, the Lesotho Times, an 
independent local newspaper, ran the headline, ``MCA Ensures 
Transparency.'' That is our reputation and our partners understand it.
    President Obama requested $1.125 billion for MCC for fiscal year 
2012. By supporting funding for MCC, Congress will reaffirm America's 
commitment to investing in countries that are committed to their own 
development. The American people will be making investments that will 
yield dividends for years to come, in the form of new export 
opportunities, more capable regional security partners, and reduced 
poverty. Look at MCC's track record in terms of results that benefit 
the poor, and in terms of the incentives for good policy performance 
that create the business environment to allow countries to increasingly 
finance their own development, and you'll see this taxpayer money is 
well spent.

               AMERICA'S INTEREST IN AFRICAN DEVELOPMENT

    Today's hearing comes at a time when much is at stake on the 
continent of Africa.
    Africa remains the world's poorest continent. Rising food prices 
have increased hardship for poor households and in some countries, such 
as Cote d'Ivoire, Zimbabwe, and the Democratic Republic of the Congo, 
armed conflict, bad leadership, and corruption deny millions of good, 
hardworking people the opportunity to build better lives.
    Meanwhile, Africa also is presented with unprecedented 
opportunities. Bill Gates noted in a recent speech that half of 
American exports go to developing markets. As the population and 
economy of these countries grow, so will that number. Mr. Gates calls 
development ``the smartest way our government spends money.''
    By investing in poor but well-governed countries in Africa and 
around the world, MCC is building capacity and strengthening 
relationships with these emerging economies. We must be mindful that we 
are not the only country with an interest in doing so. If we cut back 
on our development efforts, we will leave a vacuum in these nations 
that someone else will fill, ceding valuable opportunities to build 
trade relationships, create American jobs, and promote American 
interests.
    MCC also is helping to make Americans safer and more secure by 
promoting stability and developing strong partners in key regions 
around the world. Defense Secretary Robert Gates has been one of the 
most persuasive advocates for financing development work. In recent 
remarks, Secretary Gates stated:

        . . . [I]n military planning, what we call phase zero is, how 
        do you prevent conflict? How do you create conditions so we 
        don't have to send soldiers? And the way you do that is through 
        development. Development contributes to stability. It 
        contributes to better governance. And if you are able to do 
        those things and you're able to do them in a focused and 
        sustainable way, then it may be unnecessary for you to send 
        soldiers. . . . Development is a lot cheaper than sending 
        soldiers.

    That is one reason why President Obama, like President Bush, has 
made development--together with defense and diplomacy--a critical 
pillar of our national security.

                          MCC'S WORK IN AFRICA

    MCC works with the world's best-governed poor countries, and 
through our highly competitive country selection process, a large 
portion of our investment portfolio has been dedicated to Africa.
    Of the 22 MCC Compacts signed to date, 13 have been with African 
countries: Benin, Burkina Faso, Cape Verde, Ghana, Lesotho, Madagascar, 
Mali, Malawi, Mozambique, Morocco, Namibia, Senegal, and Tanzania. Of 
the 21 countries in MCC's Threshold Program, 12 have been in Africa: 
Burkina Faso, Guyana, Kenya, Liberia, Malawi, Mozambique, Niger, 
Rwanda, Sao Tome and Principe, Tanzania, Uganda, and Zambia.
    Sixty percent of our compact countries are located in Africa, and 
projects in those nations receive 70 percent of our funds.
     asking the tough questions in a budget-constrained environment
    President Obama has made MCC a key part of the U.S. Global 
Development Policy. When the President unveiled the new policy last 
year, he made clear that the United States is ``changing the way we do 
business'' in development. Laying out a set of principles and practices 
that are at the core of MCC's model, he called for all U.S. Government 
agencies to embrace a focus on results, selectivity, country ownership, 
and transparency.
    In his budget request for fiscal year 2012, President Obama 
requested $1.125 billion for MCC, signaling once again that the 
agency's distinctive model will continue to play an important role in 
the effort to cultivate opportunity and prosperity in poor countries 
around the world. President Obama's fiscal year 2012 budget request 
would enable MCC to sign compacts with Georgia and Ghana, as well as 
fully fund a compact with Indonesia.
    MCC, like other U.S. Government agencies, is operating in a 
constrained budget environment. MCC holds itself accountable to the 
American people to ensure that every taxpayer dollar generates the best 
possible return on investment. As good stewards of American taxpayer 
resources, every day we ask ourselves the tough, fundamental questions 
about the effectiveness and efficiency of our approach to development 
and our operations.
    For example, MCC recently took action to prohibit state-owned 
enterprises from bidding on MCC contracts. MCC's original procurement 
guidelines included no guidance on this matter, and many--including 
some members of this committee--rightly expressed concern. MCC's aim is 
to ensure a level playing field for commercial firms that bid on MCC-
funded contracts. Because state-owned enterprises have built-in 
advantages such as access to preferential credit terms, we took this 
step to ensure private companies--including American companies--get a 
fair opportunity to compete for MCC-funded contracts.
    MCC's estimated budget requirements for proposed compacts are based 
on several factors, including policy performance on MCC's indicators, 
total population, population living below national poverty lines, 
absorptive capacity, and, specific to Africa in the case of Ghana, 
performance in previous compact implementation. Final compact amounts 
will be based on funding availability and on the scope of agreed-upon 
projects.
    MCC requests $912 million of the total fiscal year 2012 request for 
compact programs, divided between a second tranche of funding for 
Indonesia and subsequent compacts for Georgia (est. $100-$150 million) 
and Ghana (est. $350-$400 million). Because of its proposed size, the 
Indonesian compact would be funded over fiscal years 2011 and 2012, for 
a total compact range of $700-$770 million.
    After 7 years of operations, MCC has committed $7.9 billion to 
reducing poverty in 22 countries, $4.2 billion of which has been 
contracted and $2.2 billion of which has been disbursed.
    For this investment of $7.9 billion in taxpayer money, we expect to 
generate $12.3 billion in increased incomes for 172 million people over 
the coming years.
    Two of the three countries selected as eligible for a second MCC 
compact are African countries, Cape Verde and Ghana. Ghana was selected 
as eligible for compact assistance in January 2011 by the MCC Board and 
has just begun the rigorous process of developing an MCC compact. It 
was selected because of its continued strong policy performance, status 
as an important emerging market, strategic importance both globally and 
regionally, and the successful implementation of its first compact.
    The Republic of Ghana consistently performs well on MCC's indicator 
criteria and is generally viewed as one of Africa's most stable policy 
performers. Since 2004, Ghana has scored among the top low-income 
countries on the Control of Corruption indicator. In a region where 
constitutional transfers of power are often disputed, Ghana has a 
record of peaceful democratic elections and the transfer of power to 
opposition parties. In 2009, Ghana ranked better than almost two-thirds 
of all countries on Transparency International's Corruption Perceptions 
Index, and is preparing for transparent management of potential oil 
revenues.

      MCC'S SELECTIVE, TARGETED APPROACH TO DEVELOPMENT ASSISTANCE

    One of the most distinctive features of MCC is our broad-based, 
bipartisan support. The MCC approach to development--with our focus on 
economic growth, sustainability, country ownership, transparency and 
accountability--has been embraced by Democrats and Republicans in 
Congress; Presidents Obama and Bush; Secretaries Clinton, Rice, and 
Powell; and leading voices from the right and the left, from the 
Heritage Foundation and the American Enterprise Institute to the 
Brookings Institution and the Center for American Progress.
    Why has MCC won the support of policymakers and analysts across the 
political spectrum? Because of our innovative, reform-minded mission 
and business model. MCC's mission is to reduce poverty through economic 
growth in a select number of well-governed countries. MCC selects 
country partners carefully to ensure the highest returns on our 
investments and creates strong incentives to advance democratic, 
market-based principles.
    Part of MCC's accountability model is the ability and willingness 
to say ``no''--no to countries that do not meet MCC's high standards 
for eligibility, and no to proposed investments that do not have 
promising returns for economic growth and poverty reduction.
    In determining eligibility for funding, MCC evaluates whether a 
country has created a policy environment for sustained economic growth 
through 17 independent, transparent policy indicators that measure a 
country's commitment to ruling justly, economic freedom, and investing 
in its own people. We believe that engaging with developing countries 
in a selective, targeted way is not only fiscally responsible in the 
short term, but also critical to poor countries interested in 
attracting private investment and ending their reliance on aid.
    Good governance is critical for economic growth. We look for 
opportunities for reform in areas that will ensure the sustainability 
of our investments. These reforms have included changes to national 
policies, laws, regulations, and even the traditional ways of doing 
business by government institutions. For example, before investing in 
Lesotho, we worked with the government to change a law that treated 
adult women as minors, so that women could be full participants in the 
economy. In most cases, these reforms, and the domestic capacity that 
MCC's country-led programs build, not only help unlock the full 
potential of U.S. taxpayer dollars, but also help improve the broader 
conditions for continued growth and investment in our partner 
countries.
    Signing up to work with MCC means a country is committing itself to 
tackle the tough policy reforms necessary to create an environment in 
which the private sector can thrive, citizens can hold their 
governments accountable, and U.S. taxpayers can see they are getting a 
good return on their investment. Our goal is to help poor countries 
rise out of poverty and achieve self-sufficiency, as well as to create 
stable trading and investment partners for the United States, which 
will strengthen the American economy and make our nation more secure.

                       MCC IS DELIVERING RESULTS

    MCC's focus on economic growth, sustainability, country ownership, 
transparency, and accountability is working. All development partners, 
both donors and host countries, are interested in achieving results. 
What distinguishes MCC is our commitment to technically rigorous, 
systematic, and transparent methods of projecting, tracking, and 
evaluating the impact of our programs. MCC's results exist along a 
continuum--from policy changes countries make to become compact 
eligible (``the MCC Effect''), to interim outputs and outcomes as 
compacts mature, to our ultimate goal: income increases over the long 
term.
    We expect MCC's current investments to benefit roughly 40 million 
people in our partner countries in Africa--and we expect incomes in 
those countries to rise by over $8.7 billion over the life of those 
investments.
    Even before these income gains are achieved, MCC and our country 
partners have tangible results to show. To date, MCC investments in new 
or improved irrigation and technical assistance have facilitated the 
adoption of new agricultural practices on 82,510 hectares of land. Our 
funded programs have trained over 150,000 farmers in techniques that 
help them produce higher quality, higher value crops. We have provided 
funding for $66 million in agricultural loans, and have financed 
assistance for over 3,800 private enterprises involved in agriculture-
related business. We have supported construction of more than 890 
kilometers of roads that link markets and encourage trade, and have 
another 2,400 kilometers under construction. These interventions aim to 
increase incomes though market-driven agriculture. MCC tracks these 
results closely because they are the drivers of the income gains we and 
our partners aim to achieve.
    While these results are important indicators of success, they do 
not tell the whole story. We are pleased that our program outputs are 
on track, but we hold ourselves to a higher standard: are MCC 
investments increasing incomes? That is why we use independent third-
party evaluators to track the results of MCC investments even after the 
compact ends. We are eagerly awaiting these results from our first 
compacts, but preliminary data from the field is promising.

   MCC'S SUBSEQUENT COMPACTS WILL FOCUS ON CONSTRAINTS TO INVESTMENTS

    Entering our 8th year, MCC is beginning a new phase of innovation 
and partnership. As first compacts strengthen the foundation for 
economic growth, subsequent compacts--new MCC investments with 
countries that have successfully concluded their first compacts--are 
expected to target constraints to private investment. MCC aims to help 
countries like Ghana, which was reselected as a candidate country for 
subsequent compacts, solidify an economic growth path that attracts 
private investment, reducing the need for aid.
    MCC's engagement with partner countries is not open-ended. MCC 
carefully considers the appropriate nature and duration of each country 
partnership based on the country's policy and implementation 
performance, as well as the opportunities for an impact on growth and 
poverty reduction. A defining characteristic of MCC's model of aid 
effectiveness is selectivity, both in the countries we work with and 
the investments we make. MCC's business model emphasizes selectivity 
and our mandate to partner with countries where investments will have 
the greatest potential returns in terms of poverty reduction and 
economic growth, and where U.S. taxpayer resources can be used most 
efficiently and effectively.
    While a single compact alone cannot address all binding constraints 
to a country's growth or transform an entire economy, a subsequent 
compact in a country that continues to perform well has the potential 
to help countries change their growth path away from aid dependence and 
toward greater reliance on private sector investment and internally 
generated revenue. For the poorest countries, even the ones with the 
right policies in place, it may take decades of sustained growth to 
lift citizens out of poverty. For low-income countries like Tanzania, 
where the annual per capita income is $500, economists estimate that it 
could take over 20 years to double per capita income even if the 
country sustains annual per capita growth of 4 percent (a historically 
high rate).
    This does not mean, however, that MCC engagement should last 
anywhere near that long. On the contrary, MCC's role is targeted and 
selective, and only the best performers will be eligible for continued, 
limited engagement. MCC's Board is particularly discerning when 
determining eligibility for follow-on partnerships. In addition to good 
policy performance, countries must show meaningful progress toward 
achieving first compact results before being considered for a 
subsequent compact. Of the 10 countries that will successfully conclude 
first compacts by the end of 2012, MCC's Board has thus far only 
selected three as eligible for a subsequent compact. Cape Verde was 
selected in fiscal year 2010 and Georgia and Ghana in fiscal year 2011.
    In our approach to subsequent compact design, MCC focuses 
increasingly on specific constraints to investment and private sector 
engagement; by removing such constraints, MCC helps to expand 
opportunities for U.S. businesses in emerging markets. This is in line 
with the President's Global Development Policy directive to foster the 
next generation of emerging markets by encouraging broad-based economic 
growth and democratic governance.
    MCC supports this effort by reaching out to the private sector, by 
grounding our investment choices in a constraints analysis that 
identifies specific obstacles to private sector-led growth, by 
introducing financial instruments designed to enhance access to 
capital, and by promoting innovative project content in areas of 
potential growth, such as alternative energy, applied technology and 
financial inclusiveness.
    The potential to leverage MCC funding with a direct impact on 
investment growth serves as one of the screens for evaluation of second 
compact programming, in addition to MCC's mandate to promote poverty 
reduction through economic growth. By helping these countries solidify 
the progress they have made and become better integrated in the global 
market system, the United States is opening new investment 
opportunities for American firms, as well.

          MCC BELIEVES CORRUPTION ERODES PRIVATE SECTOR GROWTH

    I would like to discuss another critical topic, which is how MCC 
deals with corruption in potential or current partner countries. 
Because corruption has the power to completely undermine private sector 
growth--as well as any investment MCC or other donors make in 
developing countries--we take this issue very seriously.
    MCC's approach to fighting corruption begins before we even select 
a country for eligibility. MCC's corruption indicator is a key part of 
country eligibility decisions. In fact, it is the only ``hard hurdle'' 
in the eligibility system. Our scrutiny does not stop after selection. 
Corruption is closely monitored as a country develops a compact and 
proceeds into compact implementation. MCC has a publicly available 
antifraud and corruption policy that outlines precautions that we take 
and describes ways of responding to any instances of corruption in a 
compact program. We are currently training our local Millennium 
Challenge Account accountable entities on how to apply this policy and 
develop risk assessments for their own work.
    In addition to protecting against corruption in our compacts, and 
assessing individual cases of corruption, MCC assesses broader patterns 
of government actions that undermine institutions of accountability: 
courts, anticorruption commissions, auditors, and the media. 
Governmental actions that undermine these institutions of 
accountability make individual instances of corruption more likely, 
enable corruption to flourish, and cultivate a culture of impunity. By 
emphasizing the institutional response, MCC incentivizes governments to 
take greater responsibility for rooting out corruption.
    For example, MCC and several other donors made clear to the 
Government of Senegal that recent changes to their procurement code and 
the regulatory entity responsible for its oversight, in part due to 
legitimate national security concerns, were an accountability concern 
to us. In response, the government entered into discussions with 
donors, including MCC specifically, to address our concerns as they 
further revised the procurement code. Consequently, they have taken 
steps to amend the objectionable changes--including a January 2011 
decree and a more recent draft decree under consideration by the 
Government of Senegal and various stakeholders. MCC is studying these 
amendments.
    Working with some of the poorest countries in the world means 
working with countries that struggle with policy performance including 
corruption. MCC's challenge is to find the right way to pursue poverty 
reduction while staying true to our model of selectivity and 
accountability, and this is particularly true in the case of 
corruption.

          MCC'S PROPOSED LEGISLATIVE CHANGES WOULD STRENGTHEN
                        AN ALREADY STRONG MODEL

    We hope to work with members of this subcommittee again this year 
on passage of a package of legislative changes to MCC's current 
authorities, including allowing for concurrent compact authority and 
longer compacts in certain circumstances.
    The proposed changes are based on lessons learned since MCC's 
creation in 2004 and will provide the flexibility needed to maximize 
the impact of MCC programs through more innovative approaches to 
development assistance.
    Concurrent compact authority would allow MCC to sign separate 
compacts with a country based on the specific timing requirements of 
individual projects rather than as part of a package driven on a single 
timeline. Concurrent compacts would improve MCC's ability to manage our 
compact pipeline with greater predictability and serve as an added 
incentive for policy reforms in partner countries.
    With concurrent compacts, the agency could move forward with 
projects that are investment-ready, instead of putting several projects 
at various stages of readiness into a single compact or delaying 
compact signing for a promising but less-developed project. As part of 
a larger, cohesive framework, concurrent compacts will allow for 
smaller, staggered agreements; speed implementation; improve project 
management by allowing countries to focus on managing fewer projects at 
a time; build management capacity with early projects; ease the current 
burden of managing large, complex compact programs; and foster 
innovation by allowing MCC to pursue new approaches and partnerships 
that could otherwise slow down the compact development process.
    Additionally, while having definite timeframes for MCC compacts is 
an important best practice for effective foreign assistance, in some 
cases projects face implementation challenges that mean they cannot be 
completed within the mandated 5-year period, particularly given MCC's 
emphasis on country-led implementation and MCC's high accountability 
standards. In these cases, MCC's options for responding to 
implementation challenges are limited by the 5-year timeframe. Allowing 
MCC, in exceptional circumstances, to extend the duration of our 5-year 
compact period for up to 2 additional years would allow MCC and our 
partner countries to pursue a fuller set of options for managing 
challenges and achieving compact objectives.
    MCC also has sought legislative changes aimed at ensuring that 
changes in countries' income categories do not necessarily prevent the 
agency from working with the best policy performing countries that also 
have populations living in extreme poverty. Each year, countries 
abruptly graduate from one income category to another with no 
transition period. Sudden shifts in income category, due in part to 
changes in exchange rates, pose serious issues for MCC. This impacts 
whether they can be candidates for MCC assistance at all, and changes 
both the policy performance standards against which they are measured 
and the levels of funding they can receive.

                               CONCLUSION

    With that, Chairman Coons, I would like to again state my 
appreciation for your continued support of results-based foreign 
assistance, and we look forward to continuing our strong working 
relationship with you, Senator Isakson, and other members of the 
subcommittee.
    I would be happy to answer any questions that you may have.

    Senator Coons. Thank you very much, Mr. Fine and to all the 
members of the panel for your testimony today. I know members 
of the committee will have access to your full statements which 
will be submitted for the record.
    I would like to now begin the questions, if I can, in 7-
minute rounds. My first question is literally to the whole 
panel, if I might, and it might take up my whole first 7 
minutes.
    In a recent dinner that I attended, Shimon Peres said that 
America is the first great nation that became great not by what 
it took from other nations, but by what it gave to other 
nations. And I am interested in and challenged by the comments 
across all four of you about what we have accomplished in 
recent years and yet what our challenges are to sustain 
America's engagement through development and assistance. So if 
you would, please identify areas of success that you would like 
to highlight for the American people when helping explain why 
they should support foreign aid to Africa, and why are the 
requested levels of funding here worth the investment for the 
United States taxpayer at a time when we are under many other 
pressures and concerns? And what are the metrics that you use 
to measure and demonstrate the impact and effectiveness of our 
bilateral aid and assistance?
    If you would, Secretary Carson.
    Mr. Carson. Thank you very much, Chairman Coons.
    Let me start by emphasizing the important role that we play 
in encouraging the development of strong democratic 
institutions across Africa. Our USAID aid dollars, our economic 
support fund dollars have helped to contribute to the spread 
and growth of democratic institutions and democracy across 
Africa. We have funded support for parliamentary institution-
building in countries across the continent. We have funded 
election monitoring and observation. We have supported 
countries to develop strong electoral commissions. We have 
helped to strengthen judiciary and judicial training. And I 
think all of these things have helped to strengthen democracy. 
We have also found that where we have democratic societies in 
Africa, strong democracies, we also have countries that respect 
the rights of their citizens, are generally observant of 
economic contractual agreements, and are generally partners 
with us in the international community.
    Our money has also gone to work on combating a whole host 
of transnational issues, global issues of concern to African 
countries, as well as us. These are in the areas of 
counterterrorism, narcotrafficking, and in the prevention of 
trafficking in people. When we work with African governments in 
these areas on these global issues, these are also things that 
help benefit us as well.
    So, yes. I do not want to monopolize this, but our dollars 
do help. They help us enormously promote democracy, improve 
economic development and prosperity, and every country that is 
economically viable and strong is a country that we do not have 
to come in to rescue with a humanitarian assistance or relief 
package. So our dollars are working and they are working 
effectively in many places across Africa.
    Senator Coons. Thank you, Mr. Secretary.
    Other members of the panel who would like to speak to that 
question, please, if you would.
    Mr. Fine. Yes; I would love to.
    MCC works with emerging markets, and the resources that we 
provide help to strengthen those markets so they can become 
trading partners for us and so they can become good, stable 
members of their regional community.
    Let me give an example of Honduras where we had a program 
that worked with farmers who were traditional farmers growing 
beans and corn. Through the financing of MCC, those farmers--
over 6,000 of them--shifted to high-value crops. They increased 
their incomes by 88 percent, going from an average of about 
$700 per hectare to over $2,000 per hectare per year. And they 
became exporters of vegetables to Wal-Mart. So if you are 
buying your vegetables at Wal-Mart, you may be buying 
vegetables that were produced as a result of MCC financing. It 
is a very clear example of how our resources are helping people 
lift themselves out of poverty through hard work and at the 
same time benefiting us.
    Senator Coons. Thank you.
    Ambassador Goosby.
    Ambassador Goosby. Thank you, Chairman.
    The HIV/AIDS epidemic, at 33 million people on the planet 
burdened by this disease, having extraordinary amounts of 
suffering and mortality, 22 million of these 33 million are in 
sub-Saharan Africa. The impact that this has had on the 
continent is hard to conceptualize. But coming back now over 
the last few weeks from Ethiopia, from Botswana, from South 
Africa, and from Haiti as a contrast, has been one of the most 
remarkable transformations that we have seen. Taking a disease 
that had saturated and burdened the medical delivery systems to 
the point where people were congested in waiting areas in the 
inpatient areas, three, four people per bed, people underneath 
the bed, people in hallways burdened by opportunistic 
infections that were essentially going to take their life 
eventually, only to return them to a trajectory that would 
inevitably 100 percent of the time end in their death. The 
chaos that that created in families, in communities, and in the 
societies both from a personal and economic perspective was 
extraordinary and was crescendoing.
    The PEPFAR intervention, beginning in 2004, created an 
emergency response that basically stopped the hemorrhaging. It 
developed, in partnership with country leadership and civil 
society, a response that put a clinical capability in play that 
identified, tested, and treated individuals who were HIV-
infected and moved the response that was predominantly 
inpatient to what is now moving into an outpatient-dominated 
response. That decompressed the medical delivery systems to 
allow them to open to others with other diseases that needed 
care and treatment and allowed doctors and nurses to shift 
toward a more holistic primary care response, not based in an 
inpatient setting but try to move it down to the village level 
in health centers and clinics.
    PEPFAR has been a remarkable catalyst in this and indeed 
has driven the shift in a way that no other country's 
contributions have put forth. Talk is cheap. Actions speak 
louder than words. The American people should be very proud of 
the ongoing and continuing contribution they have made to stop 
the death and dying and put people back to concerns around 
living and participating, going back to work, participating in 
economic growth, et cetera.
    I have been humbled by the number of lives we have touched 
because it is such a profound ripple by that individual, that 
family, that community, and the country.
    The big pivot that we are on now is soliciting engagement 
from our partner country leadership. It is the sustainability 
of these programs that we are now struggling to put in place 
and have begun an aggressive strategy to engage our partner 
countries in taking ownership of management, planning, and 
direction of these programs, allowing our resources to shift 
more from an implementing focus to that of technical 
assistance. We are now in a position to better ensure that 
these resources are increasing in their impact, hitting and 
impacting more lives, saving more lives, but also positioning 
the country to continue to manage, grow, and maintain these 
services into the future.
    Senator Coons. Thank you.
    Raja, we are into our next round, but I would appreciate a 
brief answer.
    Ms. Jandhyala. In terms of results, I think the issues that 
we see every day on TV that move us in many ways--two main 
issues that I would like to bring to your attention is the 
sexual and gender-based violence in Congo that I am asked 
routinely about what are we as the United States doing about 
this, about women and children who are caught in this conflict. 
And that is a constant question. That is the first question I 
always get about our assistance.
    And I would just like to give you a bit of brief on this. 
To this date, our money has helped 20,000 women access critical 
care and treatment. We have served 5,000 local doctors and 
health clinics to teach them how to do surgeries that repair 
the horrific violence that is undertaken on them.
    We are working with UNICEF to deal with child soldiers, 
young children who were recruited at the age of 6 or 7 and have 
been held in militias for over 5-10 years, who have not had any 
education, who had been potentially recruits for other people 
for criminal and violence and law and order problems.
    So it is a huge effort that we have made in the Congo 
regarding this issue.
    On the issue of water and health, I was recently in 
Zanzibar in support of the health care systems in Tanzania. I 
was really amazed that our malaria assistance--that means 
distributing bed nets, doing treatment of malaria--brought 
infant mortality rates down by 30 percent. And I was actually 
stunned that our malaria program had such a huge impact on 
infant mortality. And those kinds of connections that we had 
not even thought about in some ways had really stunned us.
    So there are many cases like this around the continent 
where we have had impact on jobs, on water, on sexual or 
gender-based violence, and really not only helping their basic 
needs today but actually supporting their aspirations of having 
jobs and living in a safe society.
    Senator Coons. Thank you. Thank you to the panel.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman, very much.
    Mr. Fine, I, in my opening remarks, commented on my 
tremendous support for the Millennium Challenge, and it is the 
right way to invest foreign assistance money because of the 
payback.
    And I want to ask you to do something for me. On page 6 of 
your prepared testimony, there is a statement that for the 
investment of $7.9 billion in taxpayer money, we expect to 
generate $12.3 billion in increased incomes for 172 million 
people. I would love for you to ask whoever came up with that 
result to call me and meet with me. I think it is probably 
higher, if you want to know the truth. But I would like to see 
how they did their economic modeling on that, because in your 
story, with regard to the soybeans--the chairman thinks they 
came from Delaware--I think they came from Georgia. [Laughter.]
    I will also comment that if we are successful in making the 
Republic of Georgia the poultry capital of the world, it will 
mean the two capitals of the world in poultry are Georgia in 
the United States of America and Georgia in the old Soviet 
Union.
    But I would appreciate your having whoever did that 
modeling call me, if you could.
    Mr. Fine. I will do that, and thank you for your support.
    Senator Isakson. Got you.
    Ms. Jandhyala. Is that correct?
    Ms. Jandhyala. That is correct.
    Senator Isakson. Close enough?
    Ms. Jandhyala. Close enough.
    Senator Isakson. I have got a name like Isakson.
    One of the things I said in my opening statement was that 
the whole budget is going to be under scrutiny and all the 
appropriations are, and we are going to evaluate them with 
cost-benefit analysis. In your remarks you talked on the 
climate change issue, and in Johnnie Carson's remarks, he 
talked about, I think, the largest increase by percent, not by 
dollars, but the largest increase is 140 percent increase in 
budgetary requests dealing with global climate change.
    I am wondering: Is that an appropriate increase in volume 
and in size for a thematic program that is not necessarily 
consistently agreed to around the world, in political 
philosophy as well as scientific philosophy?
    Ms. Jandhyala. The way we sort of approached this issue is 
what are the impacts on agricultural production in terms of 
water, ecosystems, livestock, and how does sort of ecosystems 
impact economic growth and production on a country. So in many 
ways, we are working in that economic framework at this stage 
in our support.
    Senator Isakson. The followup question I would make is 
this. The Food for the Future--I believe that is what it is 
called--which is an outstanding program because, as I 
understand it, we are teaching people to farm and develop their 
own food products and improve their quality of life. Is that 
not correct?
    Ms. Jandhyala. Yes.
    Senator Isakson. Food for the Future.
    Ms. Jandhyala. Feed the Future, yes, sir.
    Basically there are three main objectives. It is increasing 
production both at the small holder farmers but as well as 
scaling up with firms. Two is having those productions actually 
benefit in the economic trades of goods and services that 
increase income. And last, it is how it will reduce our food 
aid which in some ways might have taken away from local food 
production systems and added to the economic growth of the 
country.
    Senator Isakson. I guess my question would then be: If we 
are doing climate change primarily in its focus on agriculture 
and its effect on agriculture, why would that not be a part of 
the Food for the Future appropriation rather than being titled 
``climate change''?
    Ms. Jandhyala. Maybe I would like to also add that 
currently we have many programs on different aspects of climate 
change or how we are dealing with it. But at this stage, I 
think what we would like to kind of focus on is a different--we 
have a program called CARPE that covers eight countries in 
central Africa. And we are working with communities to maintain 
local forests that they would live off of to earn income on 
livestock. So we kind of see all our efforts about improving 
populations who have to manage their environment better and how 
they use that environment to improve their economic 
livelihoods.
    Senator Isakson. Mr. Goosby, I want to thank you for saying 
what you said at the very end of your remarks because your 
comments about sustainability in-country of the PEPFAR program, 
to me, is going to be probably the critical challenge, because, 
thanks to the initiative of President Bush and continued by 
President Obama, we have made a dramatic impact on the African 
Continent.
    But one of the things I have observed in being on the 
continent is that most of that delivery is U.S. NGOs and it is 
CDC--American people delivering the retrovirals--the testing 
mechanisms, et cetera. And that is very expensive to do. But 
there is a lot of equipment now that, if the African countries 
could begin to take over the management of the PEPFAR program, 
of the screening, and we can continue to be a partner, it could 
lessen some of the financial burden on the United States and 
yet sustain what has been a proven program of success.
    What are you doing to try and get the countries to buy in 
on a responsibility to help sustain that program within their 
own resources?
    Ambassador Goosby. Well, thank you, Senator. That was very 
nicely stated.
    It is the serious issue in front of us at this point, the 
sustainability. We are at a pivot moment in PEPFAR's maturation 
as a program. To now move our emergency response into, just as 
you said, a more sustained, lasting response that will be there 
for the duration of its need which will mean 20 to 30 years 
into the future already at the given burden of disease.
    In order to do that, we need to change the way we engage in 
a dialogue with country. Country, both government as well as 
civil society, is in a shared relationship in the response, in 
mounting and defining the response in-country. We have used a 
tool, the Partnership Framework instrument, to give our 
Ambassadors in-country a tool to engage in a dialogue with 
government around what specific issues should be addressed over 
the next 5 years, and in addressing these issues, what are you 
engaged with as the partner government and what are the United 
States responsibilities in respective areas of prevention, 
care, and treatment. This is something that was in the 
reauthorization language. It was something that this committee 
felt very strongly should be part of the new evolution of 
PEPFAR to ensure or better ensure that that sustainability was 
achieved.
    We are pivoting into that now in every country that we are 
in in sub-Saharan Africa. The dialogue is new for USG to engage 
in such an aggressive dialogue with country leadership, but we 
have been very gratified in every instance with the response 
that we have received.
    For example, Nigeria has gone and moved from a less than 5-
percent portion of their medical health dollar going toward HIV 
committing to, over the next 5 years, moving it up to 55 
percent. We have had similar but not quite as big, but the same 
type of jumps in Botswana and in Namibia and in South Africa.
    These dialogues have not been hostile or angry. They have 
been serious and there is a lot of tension in the dialogue 
because it has brought Foreign Ministers of Finance into the 
dialogue sometimes for the first time around projections that 
allow them to commit, such as South Africa has done in 2006 to 
increasing its contribution to care, prevention, and treatment 
services in South Africa to basically move into the 50- to 60-
percent range. These are extraordinary changes from prior 
commitment, and I would say through these partnership 
frameworks and the partnership implementation plans that 
follow, we should be able to actually move significantly in 
this direction over the next 5-year period.
    Senator Isakson. Thank you very much.
    Senator Coons. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. Thanks to each of you 
for joining us today. I appreciate your testimony.
    Mr. Carson, I appreciate what you wrote in your written 
remarks. You have your opening statement regarding the 
sustainability of United States involvement in Africa when you 
said when Africans take ownership of their own security 
responsibilities, we are more likely to have the requisite 
trust and political buy-in of key players than if quick-fix 
solutions are imposed by outsiders. I think this idea of buy-in 
has been a consistent theme that several of you have mentioned, 
and I agree that that is important.
    But my question is: With over 75 percent of the 
administration's budget request going toward the Global Health 
Initiative, $5.4 billion, or 70 percent; Feed the Future, $500 
million, about 6 percent of the request; and the Global Climate 
Change Initiative, $100 million, or about 1 percent of the 
request, have you seen similar buy-in of key players or African 
nations into these programs?
    Mr. Carson. Senator Lee, thank you very much for your 
question. The answer is ``Yes,'' and in many ways. We see 
African countries stepping up and engaging increasingly more 
frequently in peacekeeping programs, peacekeeping programs in 
very difficult places like Sudan, both north and south, in 
Darfur. We see them engaging in Somalia. We see them engaging 
in Cote d'Ivoire. We see Africans willing to be peacekeepers 
and to help mitigate conflicts. That is a clear example of this 
sort of a buy-in.
    We also have recorded increases in the amount of money that 
we have spent on democracy and governance issues, and while the 
amount is not nearly as large as it is for the Global Health 
Initiative, we have seen increasing amounts of money go to 
strengthening democratic institutions, enabling Parliaments to 
do their work better, helping African judiciaries become more 
independent and professionally strong, helping to strengthen 
the independent media, working with civil society spending 
money as we have done recently in support of the Nigerian 
election commission, helping to create strong independent 
election commissions capable of administering and carrying out 
free and impartial elections. All of these are part of the 
effort to help empower African countries, and as we spend money 
on these issues, we also find that Africans are willing to 
spend more money on these institutions and efforts themselves.
    Senator Lee. So the buy-in is something you are seeing not 
just in the security area but also in other areas of health, 
climate change, and so forth?
    Mr. Carson. Yes. No; absolutely. We recognize that our 
funds are frequently catalytic in nature. They are force 
multipliers. They not only incentivize African governments to 
make contributions, but they also incentivize our partners in 
the global community to make contributions as well. We work 
very closely with any number of the Western European and 
international donor agencies, and when we engage in activities 
and put our money on the table, it frequently brings in 
additional moneys from our partners, our democratic partners 
around the world, and it also incentivizes and brings in money 
from African countries too.
    Senator Lee. OK. I think that is important.
    There is a divergence of viewpoint, especially as we are 
going through difficult economic times. A lot of Americans feel 
differently about foreign aid than others. In other words, 
there is a wide spectrum of viewpoint. There are some who say 
when we are $15 trillion in debt and acquiring new debt at a 
rate of $1.7 trillion a year, we should not be doing that. On 
the other hand, you can point to some clear constitutional 
responsibilities, including providing for our national defense. 
Many of our foreign aid expenditures are security-related, 
directly tied to security, and in one way or another affect our 
national security.
    So it seems to me whether you are very much in the 
proforeign aid camp or in the antiforeign aid camp, I think 
most or all people would agree with you that buy-in is good, 
and that it is also a good thing to have foreign aid directed 
in such a manner that it, in time, obviates the need for 
itself; in other words, teach the people on the ground to do 
that which you are trying to do. And I think everyone would 
agree with that.
    Do you see any way of measuring, any kind of metric or 
standard for the success in Africa in any of these programs 
that we could use to measure the buy-in for the security 
programs or for the President's three main initiatives? Do you 
have a way of measuring that or gauging it?
    Ms. Jandhyala. We are working with each of the governments 
in terms of the initiatives to really work on, first, the 
strategies and getting policy right, getting the regulatory 
framework and the legislative framework. So we are able to 
influence very early on the legal and the regulatory frameworks 
for these initiatives to work with. So that becomes the 
fundamental basis for us having the tools necessary to monitor 
our support. If we have agreed with them on the strategy, if we 
have agreed with them on the legal framework, and we have 
agreed with them on the regulatory, on the broad, sort of at 
the higher level, then what we do is kind of spend time with 
our partners who are helping them, who are financing, to say 
where are the weaknesses in the system. If we are going to 
build a car and we do not put fuel to run it, then let us find 
those weaknesses because we know they are there in those 
systems.
    So we have spent an enormous amount of time saying if this 
is going to be sustainable, we need to understand their systems 
better, acknowledge their tremendous weaknesses in some areas, 
and how do we mitigate that and how do we deal with that risk 
that we are dealing with, and really have sort of a monitoring 
and evaluation system that is very consistent, regular, and it 
is a mutual compact between the government and ourselves that 
we are in this together and that we can hold each other 
accountable. And we want the broader population participating 
in it so we are not the only ones holding them accountable. We 
want the population to hold that government accountable for 
these initiatives.
    Senator Lee. Thank you.
    Senator Coons. I will continue in the same vein, if I 
might, perhaps just to continue along the same question.
    Secretary Carson, you talked about how in the global 
competition for influence and ideas we are making progress in 
terms of the development of democratic institutions in the 
continent. You are making investments, continuing to make 
investments in democracy and governance.
    I see that Mr. Fine would like to add, as well as 
Ambassador Goosby. If I could just suggest in continuing 
answers to this question, how you have struck the balance 
between regional institutions that contribute to civil society, 
democracy. I note a modest reduction in the funding to the 
African Union, for example, and regional institutions like 
ECOWAS or SADC I think are critical. But you have also got 
nations where is real positive and sustained progress 
democracy, Botswana, Ghana; others where there is real 
challenges in front of us, Mozambique or Zimbabwe--excuse me--
Angola.
    Help me understand how you strike the balance between, 
given that it is a relatively modest percentage of the total 
funding, individual countries, regional structures and how we 
can report back or expect some sort of positive progress or 
measurable outcomes, if I can suggest that, in the democracy 
and governance field. If you would, Secretary Carson, and then 
Mr. Fine, you would have a chance to extend.
    Mr. Carson. If I could, we have focused our efforts 
primarily on 13 countries in Africa and these are countries 
where we pay particular attention in our efforts. These 
countries are countries that are democratic--some of them are 
countries that are democratic and are making great strides, and 
we want to help accelerate that development, countries like 
Tanzania, Ghana fall in this category. And we put our democracy 
and governance money into these countries, but we also focus 
the entire range of U.S. Government assistance here.
    Tanzania, for example, is a country that is benefiting from 
a large MCC grant. It is a recipient of a Feed the Future 
grant. It is a participant in our Global Health Initiative, and 
it is also a participant in our Climate Change. The desire in 
providing this kind of assistance to a country like Tanzania 
and a country like Ghana, both of whom are similar, is to help 
them accelerate their growth and development, to be models for 
the neighboring states in their development, their economic 
development, the strength of their democracies, and their 
contribution both to regional stability and their own growth. 
So we are putting our resources into countries like this to 
jump start them and to move them along.
    We are also focusing on a number of countries that are 
coming out of conflict, countries that have been torn apart for 
many years by internal civil strife, countries like this would 
be--Liberia would be a classic case in which we are spending a 
great deal of money and time--Sierra Leone and the Congo. There 
our efforts are designed to prevent those countries from 
falling back into instability, helping them to strengthen their 
democratic institutions by putting money into parliamentary 
strengthening and to judicial strengthening so that they will 
be more effective democracies.
    But equally we are putting development assistance moneys 
into these countries to help them deal with their social and 
economic systems that have largely fallen into disarray as a 
result of years of conflict. We believe that if we can move 
these countries forward both economically and socially, they 
will probably not fall back into instability and conflict.
    We can, in effect, strategically measure what our resources 
do. I think over the last 2 decades, if you look at where 
Africa is today and where it was 20 years ago, there is, in 
fact, a larger number of African countries that are clearly 
democratic. Those countries have been assisted by the United 
States, and we are not just talking about one or two countries. 
All too frequently the discussion falls on the difficult cases 
of Somalia and Sudan and Cote d'Ivoire. But what has happened 
in Africa is a rising number of countries that have turned to 
democracy, have embraced free market and economic reforms. 
These are the South Africas, the Botswanas, the Mauritiuses, 
the Malawis, the Namibias, the Ugandas, the Kenyas, the Malis, 
the Senegals, the Cape Verdes. They are the Benins. They are 
out there. And so frequently we dismiss them or forget them as 
we look at the major problems that exist in some African 
countries, but progress is being made.
    If we see successful democratic elections in the second and 
third rounds of the Presidential and gubernatorial elections in 
Nigeria, Africa's most populous country, over the next 2 weeks, 
if those elections go as well as the elections a week ago for 
their Senators and House of Representatives Members, we will 
see a major change in that country in strengthening its 
democratic performance and activities. A lot of that will have 
been driven by resources put in by the United States and the 
United Kingdom and the European Union. We have put our 
democracy dollars into strengthening that country's independent 
electoral commission. These are the way our dollars benefit. If 
Nigeria is strong and democratic, it is a source of stability 
in West Africa and a potential source of greater growth and 
progress.
    So I think that there are ways at the strategic level to 
look at this, and I think that over the last 20 years, not 
measuring year by year but increments of 4 or 5 years, we have 
seen progress. A lot of that progress is due to our consistent 
support for institutions of democracy and our support for 
promoting economic policy change that has been embraced by 
these governments.
    Senator Coons. Thank you, Mr. Secretary.
    Mr. Fine, I am going to give you, if I might, with your 
dispensation an opportunity to answer the question of some time 
ago.
    Mr. Fine. Thank you so much. I just wanted to say a word 
about buy-in because it is such a critical factor.
    One of MCC's principles is country ownership. And the way 
we pursue that is we make countries responsible for the success 
of these programs themselves. They implement the programs. They 
are on the hook to deliver these programs. And it is not just 
an administrative hook or diplomatic hook. It is a political 
hook with their own constituents, and it is a powerful 
motivating force.
    You asked about how do you measure that. One way to measure 
it is what Raja was talking about. Do they take policy actions? 
Do they reform their institutions in a way that demonstrates 
that they are really serious about achieving long-term 
sustainable objectives?
    So in some of our programs, for example, in Malawi, they 
are raising tariffs toward a more economic rate so that they 
can have a sustainable electrical system.
    In other countries where we financed roads, countries have 
taken decisions to overhaul the way their maintenance works, 
their policies around maintenance of roads. And we see them 
allocating more funds to road maintenance than they ever have 
in the history of their nations.
    So those are very clear examples of a real commitment.
    The other thing that I see that signals real commitment 
that you can measure is what the countries put into the 
programs themselves. In the case of MCC, countries expend 
significant amounts of money in designing the programs that 
they eventually submit to us for financing. In the case of 
Zambia, for example, the Zambians have spent more than $4 
million designing a compact that we hope to present later this 
fiscal year. That shows a real commitment. It shows real 
ownership.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. I was going to ask Secretary Carson. 
Senator Leahy made a point which has been illustrated to me 
graphically with regard to our national security. I think I am 
correct in this. Correct me if I am not. But, because of our 
engagement and the special envoy to the Sudan and the people of 
Darfur and because of the end of the civil war and ultimately 
the successful referendum in the south, the successful 
completion without violence, a by-product of that investment 
has been a tremendous help in terms of thwarting any terrorism 
flow into southern Egypt and ultimately into Gaza, if I am not 
mistaken. Is that not correct?
    Mr. Carson. That is indeed correct. And we think that by 
pressing for the changes that we are seeing between north and 
south Sudan and the ultimate independence of the south, we have 
been able to effectively engage the government in the north on 
issues related to counterterrorism issues. This has been a by-
product of this; yes.
    Senator Isakson. Well, I want to commend you and Secretary 
Clinton because the leverage of our support in those critical 
days leading up to that referendum and for what you did vis-a-
vis the offers on their help with terrorism and other things 
has been instrumental for our country and very successful, and 
I appreciate it and commend you for what you have done on it.
    Mr. Carson. Thank you very much, Senator Isakson.
    I think that a great deal of the progress that has been 
made to date in the completion of the comprehensive peace 
agreement between north and south Sudan is a result of active 
and sustained U.S. diplomacy. And if in fact we are successful 
in seeing Southern Sudan independent in July of this year, we 
will have brought to an end a conflict that has lasted on and 
off for the better part of 40 years, most recently 20 years up 
until the CPA was signed in Naivasha in January 2005. That will 
end suffering. It will end the need for sustained humanitarian 
support and will help to, we hope, move a country and an area 
which has been dependent on international support to a country 
which can, in fact, begin to become self-sufficient and 
increasingly less dependent on international assistance for its 
survival.
    Senator Isakson. I think the end result is that we gain two 
friends in one part of the world with all our effort.
    Ms. Jandhyala, in your testimony you talked about women are 
the backbone of Africa. I think that was the word you used. In 
talking about the food program, Feed the Future, you are trying 
to ensure the African countries consider gender in all those 
programs. From my visits, it is the women that are doing the 
work in a lot of cases and the most responsible in economic 
development.
    When you say ``gender,'' you are referring to get the guys 
to do as good as the women are already doing. Is that what you 
meant?
    Ms. Jandhyala. I say that to my husband every day. Yes. 
[Laughter.]
    Senator Isakson. That is what I thought you meant. But I 
have been there and seen it with my own eyes. I think we have 
got an NGO based out of Atlanta, GA, CARE, that has the village 
savings and loan concept that they are doing in a number of 
countries in Africa. And, it is the women that are the key ones 
to pull off not only the economics of developing a savings 
account and making loans and creating microbusinesses but in 
fact also starting the businesses themselves. So the more of 
that we can do and include the guys to get them concentrating 
on that as well, the better economic development I think we 
will see in that part of the world.
    I just want to thank all of you for what you do because I 
do think this is a critical part of the Department of State, 
and I think Africa is a critical continent to our country in 
the future. And all of your leadership is most well noted and 
most appreciated.
    Senator Coons. Senator Lee.
    Senator Lee. Dr. Goosby, I understand that bilateral aid to 
sub-Saharan Africa has had quite a significant bump over the 
last decade. In fiscal year 2002, I think we were spending 
about $1.1 billion on that, and in fiscal year 2010, I think it 
had bumped up to $8.1 billion, if I am not mistaken, largely I 
think because of increased spending in health assistance 
predominantly HIV/AIDS. This started under the Bush 
administration and has continued in the last few years.
    Do you see this as sort of a one-time bump that has 
produced some short-term results that are substantial and can 
be measured, or is it a funding trend that will continue? In 
other words, is the graph likely to continue on the same angle 
or are we likely to see that go back down as a result of the 
success of these efforts?
    Ambassador Goosby. Thank you, Senator Lee. I think that is 
an astute question.
    PEPFAR's response and the Global Health Initiative more 
recently is building on the successes of programs that have 
already moved into early implementation, have set themselves 
up, built the infrastructure, deployed, and now are looking to 
take those structures that we have put in place and move them 
to sustainable delivery systems and move the management, 
operational, defining the unmet need, prioritizing the unmet 
need, making the allocation decisions to country leadership, 
country leadership to include both government and, very 
importantly, civil society. We are at that moment in most of 
our Global Health Initiative activities and specifically in 
PEPFAR's activities.
    That transition through these partnership framework 
discussions is moving--that steep trajectory of resource 
allocation will begin to flatten out as we shift into a shared 
responsibility, ``shared'' meaning ourselves continuing to 
contribute, country governments continuing to increase their 
contribution relative, and governments outside of the partner 
government, USG, European governments, other foundations.
    But the most significant contributor to our effort really 
is the Global Fund. This is the most effective conduit through 
which other countries that do not have bilateral programs can 
contribute resources that address unmet needs in these 
countries. Our ability to partner with the Global Fund's 
resource infusion into country, strategize around planning and 
implementation issues is the most significant factor that will 
start to flatten out the need and demand on USG resources. We 
are well along the road to that flattening.
    Senator Lee. When you say ``well along the road,'' do you 
have any particular timeframe in mind? I understand if you just 
cannot--obviously, you cannot read the future. But do you see 
that flattening within any particular horizon?
    Ambassador Goosby. Well, I think that is a fair question. I 
think it is different, as you have alluded to, for each 
country. But we are looking at Botswana, Namibia, South Africa, 
Angola, possibly Nigeria in the 5- to 10-year timeframe who 
will move very strongly into being able to sustain and support 
these efforts. Middle-income countries, those countries with 
higher HIV burdens, TB burdens will come in later, but I think 
that the convergence of the global economic picture, activities 
such as the MCC giving and infusing resources to stimulate 
economic investment and growth--we all reap the benefits from 
that--will move this in the right direction.
    I believe it is truly a difficult dialogue to get our 
partner country leadership to play that orchestrating role with 
all these divergent funding lines that come into their country, 
for them to organize themselves so they can effectively define 
that unmet need and make those allocation decisions, even with 
divergent resources coming in. Part of our technical assistance 
strategy and MCC's strategy, if I might add, is focused on 
developing that capacity in-country to manage large sums of 
money, divergent resources.
    Senator Lee. Thank you.
    I have also got a question for Mr. Fine. In your written 
statement, you indicated that if the United States cuts back on 
some of our development efforts and our aid in Africa, we will 
leave a vacuum of the particularly dangerous sort that other 
nations or other entities might fill, ceding valuable 
opportunities to build trade relationships, create American 
jobs, and promote American interests.
    Can you give any specific examples of where that has 
happened, or is this more of a predictive statement?
    Mr. Fine. Thank you. I do believe the extent to which we 
reduce our engagement with these countries, that we are going 
to see our geopolitical competitors come in, and in particular, 
China. I have been living and working in Africa for 30 years. 
One of the big differences that I see today as compared to, 
say, in the 1980s or the 1990s is when you are in a country--I 
was in Malawi last week, and the number of signs that you see 
in Chinese and when you are in restaurants or hotels, the 
number of Chinese business people that you see there is just a 
completely new phenomenon compared to, say, 10 or 12 years ago.
    Senator Lee. Are they good Chinese restaurants, just out of 
curiosity? [Laughter.]
    Mr. Fine. These were British restaurants.
    I believe that there is a real competition. I believe that 
we play a critical role, a positive role in terms of 
development, in terms of promoting ideals of respect for human 
rights, for example. So I do not want to see us stepping away.
    Senator Lee. Have you seen some benefits from the 
investment that you have seen from China? Has that assisted in 
the development in some of these countries?
    Mr. Fine. You know, I think it is a mixed picture. One of 
the things that we see is that the Chinese way of doing 
business is often at odds with the efforts by other members of 
the international community to promote good governance. And so 
things like combating corruption and respect for human rights 
and democratic ideals does not seem to be at the top of their 
agenda.
    Senator Lee. Not exactly the same way we would want to do 
business.
    Mr. Fine. Not the way we would want to do it.
    So there are some examples where their engagement has not 
been supportive of what other members of the international 
community have been doing to try to promote good governance.
    Ultimately, we believe that in order for a country to 
become prosperous, it requires good governance. If a country is 
corrupt, if a country does not respect human rights, if a 
country does not respect democratic rights, it is not 
ultimately going to be able to create sustainable prosperity. 
That is why it matters, and that is why having other actors who 
do not support that is problematic.
    Senator Lee. Thank you very much.
    Senator Coons. I would like to follow up, Mr. Fine, if I 
might, on the question of corruption. You have got about 20 
countries, I think, where you have got threshold programs, and 
I am just interested. I have a few questions for the whole 
panel, if we can focus briefly. I am just interested in how you 
see the MCC going forward. You are facing a fairly significant 
cut in the continuing resolution vote we are, I think, going to 
take in about an hour here. I think it was about $380 million, 
if I am not mistaken.
    What sort of challenges does MCC face? I support and see 
real value in your work to build capacity to fight corruption 
across dozens of countries in the world. Are you raising 
expectations of the possibility of future grants, given the 
budget environment may not materialize? And what are the most 
effective tools in fighting corruption?
    Mr. Fine. I am really worried about the budget situation in 
part because of the commitments that our partner countries make 
themselves, and I think that it can be very damaging to U.S. 
credibility if we are in a position of having to step back.
    In terms of corruption, the most effective tool that I see 
are the sets of incentives that MCC creates that says you are 
not going to qualify for one of our investments unless you 
demonstrate that you are serious about combating corruption. 
And that incentive is taken very seriously by countries, and we 
see it really modifying their behavior, or once they have a 
program with us, that if we see evidence that there is a 
pattern of actions that is corrupt, that can lead to the 
suspension and termination of the compacts. And we are serious 
about that and we have done it.
    Senator Coons. Talk about Senegal for a moment.
    Mr. Fine. So I was going to mention Senegal as a specific 
example. In Senegal last year, there was a decree. They have an 
institution which oversees public procurements, and it has been 
seen as a powerful or as an effective institution for cleaning 
up public procurements which was a major source of corruption. 
Last year, there was a decree to weaken the authorities of that 
institution and to put in less capable people. The U.S. 
Government, not just the MCC, but the State Department was a 
major spokesman. Ambassador Bernicat, our Ambassador, got right 
out on this. But also MCC took a stance. The U.S. Government 
took a very hard stance about this.
    And what we have seen is that the Government of Senegal has 
amended that decree to take out those sections of their 
modification that weakened the authority. They have appointed a 
U.S.-trained CEO of this agency, who is a person that we 
believe really does have fighting corruption at heart. So they 
have stepped back in a very public, politically difficult, way, 
because they had to backtrack publicly from a stance that they 
took, instead reempowering this agency that oversees public 
procurements. And I think it is a good example of where U.S. 
influence and leverage played a very positive role.
    Senator Coons. Thank you. That is an area I am interested 
in pursuing further in the future, the tension between growing 
Chinese influence, our commercial competition, and then our 
multilateral efforts to combat corruption.
    Ambassador Goosby, I am interested in how your efforts have 
been adapted to or challenged in failed or failing states, some 
of the places where there also happen to be fairly high 
infection rates. And briefly, if you would, I would be 
interested in hearing about blood supply and things that have 
been done. This country has done a great deal in the last few 
decades to ensure that our blood supply is secure. What sorts 
of work have you been able to be a part of on the continent of 
Africa around a safe blood supply?
    Ambassador Goosby. Thank you, Senator. That is an excellent 
question, the failing state question.
    Cote d'Ivoire is a good example of a recent situation that 
has been in the news that put a challenge in front of us to 
address the continuation of treatment specifically with 
antiretroviral therapy for 147 different sites in the country. 
We, with the help of Phil Carter, the Ambassador in Cote 
d'Ivoire, were able to put a plan of action in place that 
allowed us to avoid stock-outs completely, no interrupted 
therapy, and cover the needs of orphans and vulnerable children 
that we also have many programs in Cote d'Ivoire focused on in 
a way that was respectful of the changing security issues that 
happened daily, hourly indeed, did not put our people, USG and 
Foreign Service nationals, in undue threat of violence, gave 
that decisionmaking to the sites themselves, but at the same 
time anticipated the need to store antiretrovirals and some 
antibiotics, cotrimoxazole, for the continuation in the 
populations that we had already committed to. That took an 
orchestration of many individuals, including NGO's in the 
country that was really quite extraordinary and is still going 
on as we speak. But I would highlight that as an example of us 
avoiding what could have been a disaster because of a whole-of-
government approach really orchestrated by the Ambassador in-
country.
    Your second question with the blood supply issue. We have 
seen blood supply since the beginning of PEPFAR as a central 
foundation of our prevention interventions in-country. The 
ability to stop HIV through the blood supply and indeed the 
hepatitis A, B, and C, as well as syphilis, have been a focus 
really since day one. We are in 14 different efforts. We have 
completed this in 13. We also have this activity in terms of 
blood bank restoration and technical assistance to them in at 
least double that amount. So we have completed it in 14 
countries in sub-Saharan Africa and are engaged in most of the 
countries in a blood bank reform effort. So a high priority 
pretty much in every country we are engaged with.
    Senator Coons. Thank you. There is a Delaware group, Safe 
Blood International, that has been historically engaged.
    Secretary Carson, if I might, the Lord's Resistance Army 
was one other topic I wanted to get to before I am going to 
have to leave. The LRA has terrorized a wide range of 
communities over many, many years, and I am just interested in 
what your implementation plans are for the Lord's Resistance 
Army disarmament and Northern Uganda Recovery Act, in 
particular, the appointment of a Great Lakes Coordinator, sort 
of what you see as the best and most likely to be successful 
path forward in dealing with the enduring challenge to the 
region and to human rights and security of the LRA.
    Mr. Carson. Mr. Chairman, thank you. We have worked very 
closely with the Ugandan Government to do as much as we 
possibly can to disable the LRA and to capture Joseph Kony. We 
have provided the Government of Uganda substantial millions of 
dollars to provide them with logistical support to travel into 
northern Uganda, into the eastern part of the Congo, and into 
the Central African Republic. We have shared information and 
intelligence with them as we have acquired it, and we have 
provided them with additional communications and logistical and 
administrative support in their efforts.
    We have encouraged them to work closely with the 
governments and militaries in the DRC and also in the Central 
African Republic.
    As a part of our renewed efforts to assist them, we are in 
the process of providing them with some U.S. personnel who will 
provide them with additional training and technical support.
    Our efforts, in conjunction with the Ugandans, have not 
resulted in the capture of Joseph Kony, but we believe that we 
have done an effective job of reducing the size of his militia, 
capturing a number of the senior leadership, and reducing their 
threat to the communities in which they are operating. But we 
are committed to working with the Ugandans on this effort 
because we believe that Joseph Kony remains one of the most 
serious threats to stability in the central African region.
    Senator Coons. Thank you, Mr. Secretary.
    I would like to welcome Senator Inhofe and encourage you to 
ask a round of questions.
    Senator Inhofe. Well, I do not really have a round of 
questions, but since you were talking about Joseph Kony when I 
came in--nice to see you, Mr. Secretary. I hope we will have a 
chance to have a personal visit at the conclusion of this.
    It has been going on for a long time, the problem with the 
LRA. And I have had occasion to be up in Gulu and actually see 
the results, the mutilation of these kids and all the things 
that are going on.
    Also, we came very close to being there at the same time in 
east Congo in Goma, just a matter of maybe 2 days before he 
left, and he left a trail of blood behind him.
    I authored the bill that would give us, I think for lack of 
a better term, a policy of this country to try to eradicate 
this monster, and I know that we are working with you folks, as 
well as the Department of Defense and others that have an 
interest. For a long time, it seemed like President Museveni 
and President Kagame and President Kabila were not really 
working together. It is the very nature sometimes of people, 
particularly Presidents who come in from the bush, that they do 
not want people to think that they need help to do it. Now they 
are all working together. We have this as a policy of the 
United States.
    So I join the chairman in being most interested in any kind 
of progress, and what we will do is share information because 
mine mostly is from what we are doing through the military. So 
I appreciate you are the right guy to be at the head of this 
thing, and I am glad you have that as a priority. It is well 
placed.
    Mr. Carson. Thank you very much, Senator Inhofe.
    Senator Coons. If I might, forgive me for checking my 
electronic device. I am getting notice of some impending votes.
    I am grateful to the whole panel for your testimony today, 
for your participation. I look forward to working together in 
the 112th Congress. I am grateful to the other members of the 
committee who came and asked great questions, and I just want 
to join the other members of the committee who have offered our 
thanks for your service to our Nation over so many years. I am 
facing a particularly highly qualified and expert panel, and we 
are grateful for the great work that you are doing on behalf of 
our Nation, its security, and the human rights and interests 
and development of the people of Africa. Thank you very much.
    I will keep the record of this hearing open until, I 
believe, April 15 for members of the committee who might wish 
to submit questions for the record. I am grateful for your 
testimony before us.
    This hearing is adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Assistant Secretary Johnnie Carson to Questions Submitted
                      by Senator Richard G. Lugar

    Question. The relatively peaceful and apparently successful 
Referendum on Unity for Southern Sudan has provided an end date for CPA 
activities.

  <bullet> What are the resource plans for a post-CPA (July 2011) U.S. 
        assistance strategy for the Republic of Southern Sudan that 
        Secretary Clinton indicated the United States would recognize?

    Answer. Since the Comprehensive Peace Agreement (CPA) was signed in 
2005, U.S. assistance has focused on helping the CPA parties to support 
the implementation of the agreement and mitigate potential threats to 
it. This has included providing assistance to critical power-sharing 
milestones, helping to stand up the new Government of Southern Sudan, 
as well as providing the visible dividends of peace to the conflict 
affected communities, including delivery of basic services and 
infrastructure.
    As Southern Sudan approaches statehood in July 2011, USAID is 
finalizing a new transition strategy for South Sudan, with the overall 
goal of helping to make South Sudan increasingly stable in the post-CPA 
era. This transition strategy is based on the premise that increasing 
stability in South Sudan depends on three things:

    a. Strengthening of core governance institutions and increasing the 
inclusiveness, accountability, and transparency of governance 
processes.
    b. Government of Southern Sudan (GoSS) capacity to respond to 
expectations of citizens for essential services and improved 
livelihoods.
    c. Ability of the GoSS to contain conflicts that may erupt, and 
addressing the grievances that drive them.

    The transition strategy addresses critical local drivers of 
conflict through flexible and quick-impact conflict mitigation 
interventions in flashpoint areas that will be implemented in 
partnership with local officials and traditional authorities. USAID 
will support broad initiatives to strengthen effective, accountable, 
and inclusive governance, the lack of which underpins and deepens 
grievances that can be mobilized for conflict in South Sudan. Citizens' 
grievances against the state will be addressed through support to both 
the ``supply'' (government-provided) and ``demand'' (citizen-demanded) 
sides of governance. USAID assistance will target specific 
institutions, processes, and actors to build effective and transparent 
institutions at the executive level, reduce corruption, and foster a 
stable macroeconomic and legal framework that encourages investment. 
USAID also will strengthen the capacity of citizens, civil society, 
media, and other nongovernmental actors to hold the GoSS accountable 
and ensure that it is responsive to its citizens.
    GoSS and private sector efforts to address citizens' high 
expectations for delivery of essential services will be strengthened at 
the state and local levels, in coordination with ongoing humanitarian 
programming, and with an aim to transition from relief to recovery to 
development and from aid dependency to GoSS self-sustainability. USAID 
will support, with other donors, the oil sector and oil revenue 
management since South Sudan will likely remain primarily an oil-based 
economy for some time to come. At the same time, USAID will support 
sustained and inclusive agriculture sector-led growth to develop this 
sector of the economcy, enhance economic resiliency and reinforce 
stability. Economic interdependence will be reinforced through 
increasing household productivity and linking communities to markets, 
providing access to credit for agribusinesses and small-scale farmers, 
and building strategic partnerships to better enable south Sudanese to 
capture market opportunities and enhance stability in targeted areas 
where lack of economic opportunity is part of the conflict dynamic.

    Question. What priority does the stability of Southern Sudan have 
in our global interests?

    Answer. Bringing lasting peace to Sudan is a key foreign policy 
priority for the U.S. Government. We are committed to full and timely 
Comprehensive Peace Agreement (CPA) implementation, a definitive end to 
the conflict in Darfur, and making sure Sudan does not support 
terrorism. We look forward to working with southern leaders as they 
undertake the tremendous amount of work necessary to prepare for 
independence in July and as they collaborate with northern leaders to 
ensure a peaceful transition. The United States will maintain a strong 
national interest in Southern Sudan and its transition to an 
independent state that is stable, democratic, economically viable, and 
at peace internally and with its neighbors, both now and beyond the 
expiration of the CPA. The United States is the largest single 
international donor to Sudan.

    Question. What impact would instability in Southern Sudan have on 
our interests in the region?

    Answer. Although the South will become independent July 9, the 
futures of both north and south are delicately intertwined with each 
depending on the political and economic stability of the other. 
Southern Sudan will face a number of external and internal threats to 
its stability including: relations with its northern neighbor, armed 
movements within its borders, and ongoing power struggles and ethnic 
division. The United States continues to press for full implementation 
of the CPA and resolution of post-CPA issues including: security, 
natural resource management, currency, and citizenship issues. A 
failure to solidify arrangements or create continuing mechanisms to 
manage interstate relations could perpetuate a vicious cycle of support 
to proxies and violent conflict, economic disruptions and opportunities 
for a return to war.

    Question. The President named long-time diplomat, Princeton Lyman, 
as his next Special Envoy for Sudan. The current SE for Darfur falls 
under SE Lyman as I understand it. While the significant diplomatic and 
President's emphasis had a profound effect on the conduct of the 
Referendum on Unity, there is no indication that this will be sustained 
for Darfur or continue for the Sudans.

  <bullet> What resources have been made available to SE Lyman for his 
        work on the Sudan portfolio, including Darfur?

    Answer. The Special Envoy has the same resources at his disposal as 
his predecessors, because the commitment of the United States has not 
wavered. The situation in Darfur and in all of Sudan remains a U.S. 
Government foreign policy priority. Special Envoy Lyman has the full 
support of the administration in both the achievement of a peaceful 
resolution in Darfur and the full implementation of the Comprehensive 
Peace Agreement (CPA) along with the peaceful transition to an 
independent Republic of South Sudan.
    On the issue of Darfur, Senior Advisor for Darfur Dane Smith 
actively engages with the African Union/United Nations Hybrid Operation 
in Darfur (UNAMID), the African Union, the Government of Sudan, local 
officials, armed movements, humanitarian aid agencies, the diaspora, 
and Darfuri civil society (including displaced persons) about what is 
needed to achieve a lasting peace in Darfur.

    Question. What diplomatic and resource commitment will be made to 
help facilitate the conclusion of a political resolution to Darfur?

    Answer. Senior Advisor for Darfur Dane Smith has been engaging 
actively with the African Union/United Nations Hybrid Operation in 
Darfur (UNAMID), African Union, the Government of Sudan, local 
officials, armed movements, humanitarian aid agencies, the diaspora, 
and Darfuri civil society (including displaced persons) about what is 
needed to achieve a lasting peace in Darfur.
    The United States is committed to ensuring that as comprehensive an 
outcome document as possible is produced in Doha between the Government 
of Sudan and the armed movements that are currently engaging in the 
process. To that end, the Office of the Special Envoy to Sudan 
maintains a presence to monitor the progress in the negotiations and to 
pressure the parties to negotiate directly and in good faith. 
Additionally, the United States is encouraging armed movements not 
currently participating in the Doha negotiations to participate in or 
associate themselves with the process. The resulting agreement of the 
Doha meetings could serve as a framework for stability, civil society, 
and peace in Darfur.
    Furthermore, the U.N. and the African Union are launching a Darfur-
based popular consultation process called the Darfur Political Process 
(DPP). While the United States is not opposed in principle to such a 
process, it remains concerned that a sufficiently secure and permissive 
environment for such consultations does not yet exist. The United 
States is engaging in conversations with UNAMID, the African Union High 
Level Implementation Panel (AUHIP), and international partners about 
what would be needed to create a permissive environment for a Darfur-
based process.
    In concert with international partners, the United States continues 
to focus on efforts to improve UNAMID and humanitarian access in 
Darfur, as well as the protection of civilians.

    Question. Somalia: The new Ambassador to Kenya will no longer be 
responsible for the Somalia portfolio aside from administrative 
support.

  <bullet> Who is the U.S. Charge d'Affaires for Somalia?

    Answer. There is not a U.S. Charge d'Affaires for Somalia. The U.S. 
Ambassador to Kenya oversees U.S. Government activities relating to 
Somalia. He is assisted in this responsibility by two senior Foreign 
Service officers and a small Somalia unit in the Embassy's political 
section.

  <bullet> What role will the office for Somalia in Nairobi play? What 
        is the staffing level and what resources are available for 
        FY10, FY11, and requested for FY12?

    Answer. The Embassy Nairobi Somalia Unit will remain, on behalf of 
the U.S. Government, the overall coordinator in the field for 
reporting, outreach, discussions and diplomatic initiatives for U.S. 
engagement on Somalia. As called for under the Dual Track approach to 
Somalia, we will maintain a U.S. diplomat of ambassadorial rank within 
Embassy Nairobi to oversee pursuit of our policy objectives in Somalia, 
working actively with partners throughout the region, including in 
Ethiopia, Djibouti, and other capitals. The Somalia Unit maintains a 
staff of approximately 15 officers and locally employed staff.
    In FY 2010, the enacted bilateral assistance level for Somalia was 
$133.8 million. State and USAID's central budget offices are currently 
reviewing the FY 2011 appropriation language and funding levels, and 
have not yet made country-specific allocation recommendations. In FY 
2012, $82.4 million was requested for Somalia in the Congressional 
Budget Justification, in addition to the $91.8 million request within 
the Contributions for International Peacekeeping Activities (CIPA) 
account.

  <bullet> Who is responsible for the regional integration and 
        coherence of Somalia policy with other U.S. missions and 
        policies?

    Answer. In general, the development of U.S. policy resides with the 
Secretary of State and her representatives in Washington, DC.
    In the case of Somalia, Embassy Nairobi remains, on behalf of the 
U.S. Government, the overall coordinator for reporting, outreach, 
discussions and diplomatic initiatives for U.S. engagement on Somalia 
in the field. As called for under the Dual Track approach to Somalia, 
we will maintain a U.S. diplomat of ambassadorial rank within Embassy 
Nairobi to oversee pursuit of our policy objectives in Somalia, working 
actively with partners throughout the region, including in Ethiopia, 
Djibouti, and other capitals.

    Question. AFRICOM is now seized with planning and coordination for 
U.S. military activity and other responses to the political instability 
and revolutions in North Africa.

  <bullet> How have recent events and tasking influenced AFRICOM 
        cooperation and coordination with our missions in sub-Sahara 
        Africa?

    Answer. AFRICOM's participation in the NATO efforts in Libya has 
not deterred the cooperation and coordination between U.S. Africa 
Command (AFRICOM) and our missions. Congressional appropriations levels 
for the Department of Defense provide AFRICOM the resources to cover 
its personnel and program costs in both North Africa and sub-Saharan 
Africa. AFRICOM has been able to continue funding its personnel who are 
integrated into many of our embassies across the continent and are 
valuable members of our country teams. As such, they are a permanent 
presence within each mission. They have not been reassigned for 
operations such as Libya. These permanent positions provide direct and 
sustained support to both State Department and Defense Department-
funded activities.

    Question. What are the priorities, from a State Department 
perspective, for AFRICOM in sub-Sahara Africa?

    Answer. President Obama's speech in Accra in July 2009 laid out a 
clear set of priorities for our policy in Africa, and we believe that 
AFRICOM plays an important role in supporting our broader policy 
framework. AFRICOM does this by building professional, capable 
militaries that respect human rights and civilian control, which in 
turn supports efforts to resolve armed conflicts, address transnational 
challenges, and safeguard democratic institutions. Given the important 
role militaries play in the region, Africa Command's work is critical 
to the success of our broader efforts to build a peaceful, prosperous, 
and democratic Africa.

    Question. What are State Department expectations of the AFRICOM 
role and how have they measured up to those expectations to date?

    Answer. State Department's expectation is that a unified military 
command for Africa would simplify our coordination with the Department 
of Defense; it has indeed been easier to coordinate with the one 
command instead of three separate commands. We expected that AFRICOM 
would facilitate capacity-building programs on the African Continent, 
and they are starting to fulfill that role. AFRICOM and the Department 
of State collaborate across Africa on an array of military 
professionalization, capacity-building and security sector reform 
programs.

    Question. What challenges exist between the individual embassies 
and AFRICOM? Please provide a range of examples both positive and 
negative.

    Answer. The biggest challenge that has emerged between our missions 
in Africa and AFRICOM is our ability to support the increased DOD 
presence. Many of our facilities are now above their capacity to 
support an increased DOD presence that requires housing and 
administrative/logistical support on both a temporary and permanent 
basis. The Department of State often does not have the amount of 
personnel necessary to support the increasing amount of DOD activities 
on the continent. It is imperative that we carefully calibrate the 
growth of DOD programs and personnel on the continent, in order to 
ensure that our embassies can provide proper support, policy guidance, 
and oversight.

    Question. USAID Administrator Raj Shah recently testified that 
sharp cuts in U.S. Assistance would bring about death of tens of 
thousands of Africans.

  <bullet> Is the United States responsible for all preventable deaths 
        across Africa?

    Answer. The United States has made a substantial commitment to 
addressing Africa's humanitarian needs and to lowering mortality rates. 
Our efforts to respond to famine in the Horn of Africa, address long-
term food security through the Feed the Future Initiative, and 
continuing efforts to combat HIV/AIDS in Africa illustrate three ways 
in which we are striving toward these goals.
    The current drought in the eastern Horn of Africa demonstrates the 
need for the United States and other donors to work with African 
countries to respond to the humanitarian crisis. We are moving 
aggressively on a number of fronts to respond to this situation and to 
provide life-saving food and other humanitarian assistance. In FY 2011, 
the United States has provided approximately $459 million in 
humanitarian assistance to the eastern Horn of Africa to date.
    Additionally, the United States, through the President's Emergency 
Plan for AIDS Relief (PEPFAR),directly supported life-saving 
antiretroviral treatment for more than 3.2 million men, women, and 
children worldwide as of September 30, 2010, up from less than 2.5 
million in 2009. Through its partnerships worldwide, PEPFAR directly 
supported 11 million people with care and support, including nearly 3.8 
million orphans and vulnerable children, in fiscal year 2010 alone. The 
United States is also the largest donor to the Global Fund to Fight 
AIDS, TB, and Malaria, a key vehicle for shared responsibility. To 
date, the Global Fund has disbursed about $7.8 billion to combat HIV/
AIDS, tuberculosis (TB), and malaria in Africa.

    Question. Who or what are the top 10 donors, annually over the last 
10 years, to sub-Saharan Africa? Please include multilateral 
institution funding?

    Answer. According to the OECD--Development Assistance Committee 
(OECD/DAC) the top 10 ODA donors in USD million, net disbursements 
between 2000-09 are provided below.

                             ODA: TOTAL NET
                             [USD millions]
------------------------------------------------------------------------
                                                               Percent
                     Donor                       2000-2009  distribution
------------------------------------------------------------------------
United States.................................   41,412.27           15
IDA...........................................   33,965.01           12
EU Institutions...............................   30,475.06           11
France........................................   27,121.23            9
United Kingdom................................   23,329.93            8
Germany.......................................   16,772.40            6
Japan.........................................   11,496.16            4
Netherlands...................................   11,229.47            4
AfDF (African Dev. Fund)......................    9,555.42            3
Sweden........................................    6,541.58            2
Other Donors..................................   73,694.14           26
                                               -------------------------
    Total net ODA.............................  285,592.67          100
------------------------------------------------------------------------


    Question. Are these countries responsible for all preventable 
deaths across Africa?

    Answer. No; donor countries are not responsible for all preventable 
deaths across Africa.
                                 ______
                                 

     Responses of Assistant Secretary Carson to Questions Submitted
                    by Senator Christopher A. Coons

    Question #1. FOREIGN AID: Why are the requested levels of funding 
worth the investment for the U.S. taxpayer, and what metrics do you use 
to measure aid impact and effectiveness?

    Answer. Helping African countries realize their full potential and 
succeed as economically viable democracies is in our national interest. 
If fledgling democracies are allowed to fail and undemocratic regimes 
are allowed to endure unchallenged, then people will lose confidence in 
democracy and free market economic principles, and we will find 
ourselves on the defensive in the global competition for influence and 
ideas. Many sub-Saharan African countries face enormous challenges to 
their survival as functioning states, and we must continue to help them 
meet those challenges so they can better help us as we deal with our 
own. In the coming years, African cooperation will be increasingly 
essential in managing a wide range of global issues such as 
international terrorism, smuggling, piracy, migration, climate change, 
infectious disease, and food production.
    The ties between Americans and Africans are deep and historic. With 
few exceptions, Africa is not a place where we see anti-American 
demonstrations and rhetoric. That is indicative of the prevailing 
appreciation for our country's longstanding commitment to democracy and 
human rights, and for our steadfast support in addressing Africa's many 
challenges during times of trouble. The spread of democracy in Africa 
over the past two decades and the vibrancy of pro-democracy activism 
across the continent is further evidence that most Africans share our 
political values. In the international arena, most governments in sub-
Saharan Africa have been cooperative as we deal with a variety of 
global challenges. One recent example of this occurred when Gabon, 
Nigeria, and South Africa voted in support of the U.N. Security Council 
resolution authorizing the use of force to avert a humanitarian 
catastrophe in Libya.
    Our economic interests in Africa are clear and compelling. 
Approximately 14 percent of U.S. oil imports come from the region, 
making it a strategic part of our energy security portfolio. Imports 
from Nigeria alone are about 9 percent of our total oil imports and 
almost the same volume as those from Saudi Arabia. With promising 
exploration and development in countries such as Ghana, Uganda, 
Liberia, and Tanzania, sub-Saharan Africa's significance for global oil 
and gas markets will only increase in the coming years. Africa's 
enormous share of the world's mineral reserves is vital for sustaining 
continued growth of the global economy. Most importantly, sub-Saharan 
Africa's growing population makes it a market where U.S. firms will 
need to be players if they are to remain globally competitive. The 
region's share of the world's population today is approximately 12 
percent, and it is estimated to grow to 20 percent over the next two 
decades.
    We are managing a long list of near and long-term challenges that 
have a direct impact on U.S. security, political, economic, and 
humanitarian interests. Every dollar we invest in helping Africans 
build the capacity to address their problems and better capitalize on 
their opportunities goes a long way in preventing situations from 
getting worse and costing us even more money down the road. Many of our 
efforts have a very positive and significant impact on the lives of 
Africans. It is through our vigorous diplomacy and our targeted 
assistance programs that the United States will remain a player in 
Africa and protect and advance our interest there.
    We are also able to leverage our assistance with other key U.S. 
Government and in-country stakeholders (including civil society, the 
private sector, foundations, other development partners, multilateral 
institutions, host governments, and regional institutions--particularly 
the African Union and the regional economic communities). This internal 
and in-country coordination helps prevent duplication of effort, 
maximizes the impact of U.S. taxpayers' foreign assistance dollars, and 
heightens the effectiveness of programs. It also helps to ensure that 
U.S. assistance is aligned with countries' national priorities and 
supports country ownership. In addition, where feasible, we work 
together with other partners on mutually reinforcing goals, to reduce 
the number of separate, duplicative missions and diagnostic reviews, 
while building on best practices and joint training.
    We rely on a variety of metrics to measure aid impact and 
effectiveness. For example, Freedom House's ``Freedom in the World'' 
survey is the most commonly referenced indicator for measuring 
democratic progress in African countries. We rely on this data to track 
progress in Africa from year to year and over time (since 1972). 
Freedom House's ``Countries at the Crossroads'' country reports provide 
scholarly detail on government performance in African countries, 
allowing us to examine at a deeper level the democratic governance 
issues in the countries where we work.
    To assess progress toward reducing conflict in sub-Saharan Africa, 
we track the percentage of U.S.-trained African units deployed to peace 
support and humanitarian response operations, along with the number of 
African armed conflicts resolved and peace support missions concluded. 
To measure the effectiveness of efforts to promote agricultural 
development and enhance food security in sub-Saharan Africa we look for 
increases in rural household incomes, and increases in the number of 
farmers adopting new technologies and improved agronomic practices. In-
depth analyses of the level of two-way trade between the United States 
and sub-Saharan Africa, excluding U.S. energy-related imports, offer 
insights on our goal of increasing Africa's share of trade in the 
global market place.
    To assess the effectiveness of our efforts to improve health and 
social development indicators in sub-Saharan Africa, we: (1) track the 
number of adults and children in the region diagnosed with new HIV 
infections each year; and (2) track the number of people protected 
against malaria with a prevention measure--Insecticide Treated Net and/
or Indoor Residual Spraying in countries included in the President's 
Malaria Initiative.
    In sum--Africa matters. The history and culture of the United 
States and Africa are inextricably linked. Our partnership with Africa 
is based on our mutual desire to promote democracy, good governance, 
and respect for human rights; to achieve peace and security throughout 
the continent; and to promote economic growth and prosperity for all. 
While Africa's future is up to Africans, the United States will 
continue to play a major role with its African partners in shaping that 
future.

    Question #2. CR CUTS: How will proposed budget cuts in the 
continuing resolution, or CR, impact the administration's ability to 
implement its policy agenda and priorities in Africa this fiscal year?

    Answer. The President's FY 2011 request for Africa was robust, and 
we acknowledge that actual levels may be less than the request. State 
and USAID's central budget offices are currently reviewing the FY 2011 
appropriation language and funding levels, and have not yet made bureau 
or country-specific allocation recommendations. As levels are 
developed, the focus will be to ensure that the President's priorities 
in food security, health, and climate change are addressed, as well as 
ensuring that joint State/USAID priority countries receive appropriate 
funding.
    We look forward to discussing our specific funding levels and 
allocation rationale as part of the 653(a) consultation process.

    Question #3. INTERAGENCY: Describe levels of interagency 
coordination in developing the budget request for Africa.

  <bullet> a. To what degree have you embraced a whole of government 
        approach when implementing an Africa strategy?
  <bullet> b. Secretary Carson and Deputy Assistant Administrator 
        Jandhyala, please detail areas of cooperation between State and 
        the Department of Defense--specifically, AFRICOM.

    Answer (a). Active engagement in sub-Saharan Africa advances 
stability and U.S. strategic interests. Our close collaboration within 
the interagency community centers on a set of jointly agreed upon 
priorities for Africa. Together we remain committed to: (1) 
strengthening democratic institutions and the rule of law; (2) 
encouraging long-term development and growth, including food security; 
(3) enhancing access to quality health care and education; (4) 
assisting in the prevention, mitigation, and resolution of conflicts; 
and (5) working with Africans to address transnational challenges, 
including terrorism, maritime safety and security, climate change, 
narcotics trafficking, and trafficking in persons.
    The initial input for developing the budget request for Africa 
comes from the Chiefs of Mission at each sub-Saharan post in response 
to these overarching policy goals through the submission of a Mission 
Strategic and Resource Plan (MSRP). The MSRP reflects the input of all 
U.S. Government partners at post, and lays out an integrated approach 
for meeting the diplomatic and development challenges in each country. 
In-depth reviews of the MSRPs are conducted by the interagency 
community in Washington, program and funding decisions are made, and a 
joint State/USAID Africa Budget submission is prepared. The Africa 
Bureaus at both State and USAID work hand in hand throughout all phases 
of the budget development process--from the initiation of the request 
in the field to the development of final requests for the President.
    Other U.S. Government partners are included throughout the planning 
and budget development process as appropriate for their areas of focus. 
For example, through the President's Emergency Plan for HIV/AIDS Relief 
(PEPFAR), the cornerstone of the Global Health Initiative, State's 
Office of the Global AIDS Coordinator leads an interagency process--
including USAID, the Department of Health and Human Services, the 
Department of Defense, and the U.S. Peace Corps--in planning and 
implementing the comprehensive U.S. Government response to the HIV/AIDS 
pandemic.
    This collaboration continues throughout the implementation of 
programs, with the submission of a joint State/USAID Operational Plan 
to detail programming of current year appropriations, and a joint 
State/USAID Performance Report on results achieved in the previous 
fiscal year. These efforts are reflected in the joint State/USAID 
Annual Performance Report covering activities worldwide.
    The Secretary of State is the chairwoman of the Millennium 
Challenge Corporation (MCC) and the USAID Administrator along with 
other principals from the interagency community, including the 
Secretary of the Treasury, the U.S. Trade Representative, and others, 
serve as MCC board members. This participation ensures that our 
respective resources are brought to bear on common objectives that both 
increase the impact of developmental objectives and optimize 
stewardship of U.S. resources.

    Answer (b). As Africa Command (AFRICOM) has developed since its 
establishment in 2008, it has brought greater depth and understanding 
to many issues we must address in a coordinated manner. This is a 
process that requires constant communication to make sure that 
AFRICOM's activities support our broader foreign policy goals and 
objectives. Areas on which we cooperate include: military 
professionalization in Africa; counterterrorism capacity-building of 
key militaries in West and East Africa; enhancement of disaster 
management capacity; peacekeeping capacity-building; humanitarian 
operations coordinated with USAID; counter piracy off the Somalia 
coast; capacity-building for maritime safety and security; and civil-
military cooperation in medical and other areas. The Department of 
Defense elements in our missions in Africa implement Department of 
State Foreign Military Financing (FMF) and International Military 
Education and Training (IMET) programs, which further U.S. interests in 
Africa by ensuring that coalition partners and friendly foreign 
governments are equipped and trained to work toward common security 
goals and share burdens in joint missions.

    Question #4. CHINA: Describe the extent and nature of China's 
influence in sub-Saharan Africa, and the degree to which it impacts 
America's role in the region.

    Answer. China enjoys a degree of influence which one might expect 
from a major trading nation with significant economic ties to most of 
sub-Saharan Africa. China is an aggressive and determined commercial 
competitor, but we do not assess that the United States is in strategic 
competition with China in sub-Saharan Africa.

  <bullet> a. Are there areas of cooperation we have not fully explored 
        with China that may allow us to better meet shared regional 
        goals?

    Answer. During our annual bilateral talks focused on sub-Saharan 
Africa, we have proposed cooperation with the Chinese Government in the 
areas of health and food security. China has agreed to explore 
cooperative projects in these areas, and we have begun the preparatory 
steps which will allow these projects to start. China is also an active 
participant in the international effort to counter piracy off the coast 
of Somalia.

  <bullet> b. What steps are we taking to mitigate areas of tension 
        with China in Africa?

    Answer. Currently, there is very little tension between the United 
States and China on the African Continent. While we disagree on policy 
in a few African countries, for the most part our relations with China 
around sub-Saharan Africa are very cordial. In order to address the few 
areas of tension which do exist, our two governments meet formally at 
least once a year for bilateral consultations on Africa. In addition, 
we often meet informally with Chinese officials responsible for Africa 
policy on the margins of international meetings like the U.N. General 
Assembly or African Union summits.

  <bullet> c. How are U.S. businesses faring in Africa given the 
        economic competition with China?

    Answer. China's total trade with Africa is larger and increasing 
more rapidly than United States-Africa trade. While there are many 
reasons for this, one factor is China's investment and competition 
across all sectors of African economies--from consumer goods to large 
infrastructure projects to oil and gas exploitation. Some American 
companies have found success in Africa, but China is indeed a fierce 
economic competitor. Although it is often difficult for American 
companies to compete on price or offer comparable financing terms to 
African purchasers, in many cases our companies are stymied by their 
perception of the risks associated with operating in sub-Saharan Africa 
and do not compete for the business. The Department of State, both in 
Washington, and on the continent at our embassies and consulates, 
considers assisting American companies to be a top priority. The 
African Growth and Opportunities Act (AGOA) also serves as a useful 
tool for promoting U.S. business opportunities by providing a mechanism 
to focus dialogue on improving the investment climate and facilitating 
two-way trade.

    Question #5. PRIORITIES: I am struck by the fact that more than 75 
percent of our budget for Africa goes toward the three initiatives--
global health, food security, and global climate change. These are 
critically important programs, but the allocation of resources involves 
difficult choices, and only 23 percent of the total budget remains for 
noninitiative spending such as security assistance, democracy and 
governance, peacekeeping, and other programs.

  <bullet> a. Explain the rationale for emphasizing health and food 
        security in Africa at the expense of other priorities.

    Answer. Africa continues to have the highest poverty rates in the 
world. In the United Nations' Human Development Index, 25 of the bottom 
26 countries designated in the ``low human development'' category are 
in Africa. Additionally, sub-Saharan Africa is more heavily affected by 
HIV/AIDS than any other region--around two-thirds of the global total. 
The ongoing degradation of Africa's soil, water, and biodiversity 
resources is also a significant threat to the economic well-being of 
future generations.
    The President's Initiatives--Feed the Future (FTF), Global Health 
(GHI), and Global Climate Change (GCC)--are responsive to these 
challenges in Africa. These initiatives are core elements of the 
President's development policy--the Presidential Policy Directive on 
Global Development. The directive recognizes that development is vital 
to U.S. national security and is a strategic, economic, and moral 
imperative for the United States. It calls for the elevation of 
development as a core pillar of American power and charts a course for 
development, diplomacy, and defense to mutually reinforce and 
complement one another in an integrated comprehensive approach to 
national security. As reflected in the Quadrennial Diplomacy and 
Development Review, these initiatives pioneer an unprecedented 
integration of efforts between the Department of State and the U.S. 
Agency for International Development.
    Decisions regarding the selection of key countries that benefit 
from the initiatives, and the determination of overall initiative 
funding levels, are made through interagency working groups with 
participation of all key partners, including the National Security 
Staff as well as through working groups that include sector specialists 
from the Africa bureaus and relevant functional bureaus at the 
Department of State and USAID, in coordination with the Office of the 
Director of U.S. Foreign Assistance.
    FTF dedicates resources to addressing the root causes of hunger and 
poverty through agriculture development in select countries in Africa. 
In FY 2012, our efforts will continue to help farmers grow and sell 
more of their produce, and reduce under nutrition, as well as foster 
thriving rural economies in countries that offer strong opportunities 
for improvement in food security, and in the regional economic 
communities (the Common Market for Eastern and Southern Africa, the 
Economic Community of West African States, the East African Community, 
and the Southern African Development Community). We also will promote 
reforms and build the capacity of African institutions to support broad 
economic growth through agricultural development in the future.
    GHI builds on the foundation laid by the previous administration 
through the creation of the President's Emergency Program for AIDS 
Relief (PEPFAR). Taking into account the lessons learned over the last 
decade, and with an eye toward achieving greater and more sustainable 
impact, the GHI expands the administration's global health effort and 
impact by improving disease treatment, integrating interventions, and 
expanding investments to strengthen health systems, improve maternal 
child health, address neglected tropical diseases, and foster increased 
research and development.
    Africa is the largest recipient of PEPFAR program resources, with 
12 of the 15 original focus countries, and the program has made major 
strides in the fight against the deadly HIV/AIDS pandemic. Since its 
inception, over two million Africans have received life-saving 
antiretroviral treatment. The President's Malaria Initiative mobilizes 
global efforts to combat a major killer, especially of Africa's 
children. Malaria kills over 800,000 people annually, the vast majority 
being African children under the age of 5, and causes an estimated $12 
billion per year in economic losses in Africa. Through GHI, major 
efforts continue to address other critical health needs in sub-Saharan 
Africa, including polio eradication, control of tuberculosis, reduction 
of maternal and child mortality, access to voluntary family planning 
services and information, elimination of neglected diseases, 
strengthening disease surveillance systems for the prevention of and 
rapid response to epidemics, and strengthening of African health 
systems.
    U.S. assistance will also promote the productive and sustainable 
management of natural resources, while helping to reduce long-term 
threats to the environment. Africa is one of the most vulnerable 
continents to global climate change and climate variability, and there 
is enormous untapped potential to control emissions growth on the 
continent. Through GCC, programs will focus on helping countries assess 
their vulnerability to climate change, and on building the information 
systems and governance mechanisms to adapt to these expected changes. 
These programs also will help African countries reduce greenhouse gas 
emissions through improved land management and greater use of clean 
energy. In addition, they will build the capacity of countries to enter 
international carbon markets, thereby capturing and sequestering carbon 
from global greenhouse gas emissions while preserving economically and 
ecologically important African landscapes.

  <bullet> b. How do you prioritize and direct the remaining 23% of the 
        budget left for everything else?

    Answer. The FY 2012 budget request for Africa includes $1.8 billion 
(23 percent) in noninitiative funding requests. Roughly $878 million in 
noninitiative funding is for the Bureau's two highest priorities: (1) 
strengthening democratic institutions and the rule of law and (2) the 
promotion of long-term development and economic growth.
    The biggest governance challenge in Africa in FY 2012 will be the 
peaceful establishment of an independent and democratic nation for the 
people of Southern Sudan. We will continue to build the capacity of 
government institutions in Southern Sudan, and support the resolution 
of disputes in and around the Abyei border region. We will also support 
election officials, civil society, political parties, and the media to 
prepare for, monitor, and conduct credible elections in the Democratic 
Republic of the Congo and Liberia, just as we have recently supported 
elections in Nigeria and Uganda. Our democracy and governance 
assistance will also support reforms in Kenya and Zimbabwe to lead 
those countries out of their current transitional governments through a 
series of constitutional and legal reforms toward peaceful and credible 
elections. Investments in this sector will bolster our initiative 
efforts by strengthening democratic institutions and promoting 
accountable governance.
    African countries need rapid, sustainable, and broad-based growth 
to reduce hunger and poverty, create jobs, and expand health and 
education services. We will support African countries' efforts to 
achieve this growth, in coordination with FTF, by supporting measures 
that increase agricultural productivity in a sustainable way, 
strengthen markets, improve the management of renewable and 
nonrenewable natural resources, support small and medium business 
growth, promote trade, and strengthen the institutions of economic and 
political governance. Trade and investment programs will improve sub-
Saharan Africa's capacity for trade and its export competitiveness. We 
also will continue to expand African trade with the United States and 
other trading partners under the African Growth and Opportunity Act.
    Roughly $430 million (24 percent) of our noninitiative funding 
request would be used to support programs and activities to prevent, 
mitigate, and resolve conflicts in the region, including those focused 
on strengthening stabilization operations, security sector reform, 
peacekeeping operations, targeted counterterrorism and counternarcotics 
initiatives, and maritime safety and security.
    The FY 2012 noninitiative request also seeks $267 million (15 
percent of the noninitiative request) for basic education activities 
that will assist Africa in meeting the Millennium Development Goals for 
education, including increasing transparency and accountability, and 
improving management of the education system. Programs will focus on 
improving the quality of education through professional development for 
teachers and administrators. Supporting community involvement in 
education will continue in FY 2012, to increase access to educational 
opportunities for girls and other marginalized populations.
    The remaining $220 million (12 percent) in noninitiative funding 
would be used to support Food for Peace, Title II (P.L. 480) programs; 
efforts to improve access to high quality water and sanitation 
services; humanitarian assistance programs; higher education programs; 
and other social services programs.
    Sixty-six percent ($5.1 billion) of the total FY 2012 request for 
Africa consists of bilateral assistance for 13 priority countries. They 
include six African states facing major humanitarian problems or 
recovering from serious conflict--Sudan, Liberia, the Democratic 
Republic of the Congo, Kenya, Zimbabwe, and Somalia; and three 
countries--Ethiopia, Nigeria, and South Africa--because of the 
important roles they play in advancing regional security and economic 
growth. These nine countries play a major role in determining the 
prospects for conflict or stability and development in their regions.
    In addition, we have a special focus on strengthening elected 
municipal-level officials and their civil society counterparts in 
relatively well-performing African countries--specifically Ghana, Mali, 
Mozambique, and Tanzania. These countries have adopted progressive 
policies and are building democratic institutions that promote economic 
development and improve the lives of their citizens. They serve as 
models for their neighbors and voices for reform in regional bodies 
such as the African Union.

  <bullet> c. What is the process by which these decisions are made?

    Answer. The initial input for developing the budget request for 
Africa comes from the Chiefs of Mission at each sub-Saharan post 
through the submission of Mission Strategic and Resource Plans (MSRPs) 
that incorporate overarching policy goals established by the Assistant 
Secretary of State. The MSRP reflects the input of all U.S. Government 
partners at post, and lays out an integrated approach for meeting the 
diplomatic and development challenges in each country. In-depth reviews 
of the MSRPs are conducted by the interagency community in Washington, 
program and funding decisions are made, and a joint State/USAID Africa 
Budget submission is prepared. The Africa Bureaus at both State and 
USAID work hand in hand throughout all phases of the budget development 
process--from the initiation of requests in the field to the 
development of a final request for the President.

    Question #6. ESF CUTS: We all recognize that budget cuts are 
necessary in these difficult financial times, but we also need to 
understand the impact of the cuts to foreign aid. In the FY11 CR, 
Economic Support Funds, or ESF, will be cut by $1.8 billion below the 
President's request.

  <bullet> a. Please describe the objective and impact of ESF programs 
        in Africa, highlighting areas where we have seen sustained 
        measures of success.

    Answer. Economic Support Funds (ESF) are programmed bilaterally in 
rebuilding countries; i.e., those that are in or coming out of 
conflict, such as the Democratic Republic of the Congo, Liberia, Sierra 
Leone, Somalia, Sudan, and Zimbabwe. ESF programming in these countries 
focuses on efforts to strengthen stabilization operations and security 
sector reform initiatives; conflict mitigation and reconciliation 
programs; good governance practices, including the rule of law and 
respect for human rights; political competition and consensus-building 
strategies; civil society organizations; and social and economic 
services and protection for vulnerable populations. ESF-supported 
programming in the rebuilding countries also includes projects that 
address a variety of transnational crime issues such as trafficking in 
persons and narcotics smuggling, as well as efforts to strengthen basic 
education systems and to promote economic growth.
    The Africa Bureau also uses regional ESF primarily to support 
programs in African countries that do not typically receive bilateral 
assistance and programs that cross geographic boundaries to address 
regional issues. Examples of regional programs supported with ESF 
include the Trans-Sahara Counterterrorism Partnership Program (TSCTP) 
and the Partnership for Regional East Africa Counterterrorism (PREACT, 
formerly known as the East Africa Regional Strategic Initiative or 
EARSI). Through TSCTP and PREACT, regional funds are being used to 
promote security sector capacity-building and cross-border cooperation 
in West and East Africa. Mali, for example, cooperates closely with the 
United States in counterterrorism primarily through the interagency 
(Department of State, USAID, and Department of Defense) TSCTP program. 
The United States supports Malian counterterrorism planning and 
accelerated training, and equipping of specialized Malian task forces 
responsible for counterterrorism operations in northern Mali.
    In January 2011, millions of Southern Sudanese citizens voted 
overwhelmingly in favor of the peaceful separation of their region from 
the rest of Sudan. Supporting the environment in which the Sudanese 
people were able to conduct a free and fair referendum on the issue 
represented a key achievement of bipartisan U.S. foreign policy since 
the signature of the Comprehensive Peace Agreement (CPA) in 2005. Just 
as U.S. assistance played a critical supporting role in the 
implementation of the CPA and the referendum, continued U.S. support 
through ESF is essential to the success of the world's newest nation 
when full independence is achieved later this year.
    Security-sector reform efforts supported with ESF in Somalia and 
the Democratic Republic of the Congo incorporate training in human 
rights and gender-based violence. In FY 2010, regional ESF resources 
were used to advance a constitution-drafting process in Somalia 
organized by the United Nations Development Program. The United States 
supported the work of the Independent Federal Constitution Commission 
in its efforts to develop and enhance the skills necessary to support 
the transitional process. As a direct result of program-related 
workshops, training events, and consensus-building activities, members 
of all 72 parliamentary committees were trained on consensus-building 
techniques and were subsequently able to develop the draft constitution 
law.
    In Tanzania, FY 2010 regional ESF resources supported civic 
education activities conducted to help address the lack of 
understanding of electoral processes in rural areas of the country. 
Focus groups included women, youth, and people with disabilities, and 
topics covered important key issues associated with understanding 
constitutional rights and duties in the electoral process. More than a 
million people now have a better understanding and appreciation of 
their role in the electoral process as a consequence.

  <bullet> b. How will the CR impact levels of ESF for Africa, and will 
        a lower bottom line for FY11 decrease the expected amount of 
        ESF allocated for FY12?

    Answer. The President's FY 2011 request for Africa was robust, and 
we acknowledge that actual levels may be less than the request. State 
and USAID's central budget offices are currently reviewing the FY 2011 
appropriation language and funding levels for all accounts, including 
ESF, and have not yet made bureau or country-specific allocation 
recommendations. As levels are developed, the focus will be to ensure 
that the President's priorities in food security, health, and climate 
change are addressed, as well as ensuring that joint State/USAID 
priority focus countries receive appropriate funding.
     We look forward to discussing our specific funding levels and 
allocation rationale as part of the 653(a) consultation process.

    Question #7. DEMOCRACY: Sub-Saharan Africa has had a mixed record 
when it comes to democratic institution-building. While there are some 
models for success--such as Botswana and Ghana--there are also some 
areas of concern--such as Uganda, Angola, and Zimbabwe, among others. 
Unlike health programs, it can be difficult to measure success in 
democracy and governance, or D&G, programs.

  <bullet> What are examples of countries on both upward and downward 
        trajectories, and how to you prioritize D&G resources when they 
        are so scarce?

    Answer. The fact that there are 13 elections this year shows how 
much our investments of money and time have paid off. It was not that 
long ago that an entire year could pass in Africa without any 
democratic elections whatsoever. Indeed, our assistance has resulted in 
positive returns in helping institutionalizing key democratic 
institution such as electoral commissions in countries in Africa 
including Mali, Benin, Ghana, Sierra Leone, and Liberia, among others. 
USG assistance has helped each of these countries consolidate 
democratic gains over several electoral cycles. At the same time 
challenges for democracy remain in countries like Ethiopia, Zimbabwe, 
Rwanda, and Gambia.
    The USG's approach to supporting democracy and political processes 
has evolved based on the belief that elections are a critical component 
of the democratic process worth prioritizing. As a result, election 
support programs are best suited if they cover the entire election 
cycle, from technical assistance in drafting election laws and 
political party finance reforms, through preelection voter registration 
and education, to the administration and monitoring of elections 
themselves, and increasingly, to the resolution of post-election 
disputes.
    We agree that elections alone do not make a democracy or even 
assure democratic transformation. That is why the USG also focuses its 
scarce resources on programs which bolster the rule of law, improve 
governance, support a dynamic civil society, protect human rights, and 
promote a free and independent media--all critical elements that create 
the foundation for long-term democratic change and stability.
    Going forward, we hope to amplify and further refine our democracy 
and governance assistance activities in Africa. Accountability at the 
local level is often the key to public confidence in democracy. In 
addition, we believe that it is critical to move beyond technical 
support to election commissions and international observation to focus 
equally on increasing societal demand for democracy in general.
    In that context, we are prioritizing work with local civil society 
groups to assist in their advocacy. We have seen that support for civic 
education and election commissions in the few months prior to elections 
is insufficient to build the strong democratic states needed in Africa. 
Rather, we must expand assistance activities to maintain a consistent, 
holistic approach on this issue.

    Question #8. You just returned from Nigeria, where you witnessed 
the parliamentary elections and preparations for Saturday's 
Presidential election. What is your view of the steps taken by the 
Nigerian Government to ensure these elections are free and fair--
especially compared to their flawed elections in 2007--and what are 
potential regional implications of positive elections in Africa's most 
populated country in light of disturbing events surrounding elections 
elsewhere, such as Cote d'Ivoire?

    Answer. Nigeria has just completed its most successful elections 
since its return to multiparty democracy in 1999. Despite some 
technical imperfections and isolated incidents of violence, those 
elections represent a substantial improvement over the flawed 2007 
electoral process and reverses Nigeria's downward democratic 
trajectory. It also provides the country a solid foundation for 
strengthening its electoral procedures and democratic institutions in 
the years to come.
     The appointment last June of Attahiru Jega as Chair of the 
Independent National Electoral Commission (INEC) raised expectations 
that this year's elections would meet minimum standards of credibility. 
Dr. Jega--a respected civil society activist--brought well-needed 
integrity and competence to the position and inspired many Nigerians to 
insist on greater transparency to combat fraud. Dr. Jega gave domestic 
and international observers greater access to INEC and the voting 
process, and encouraged observers to utilize technology, such as mobile 
phones, to inform authorities of irregularities. While the elections 
were far from perfect, INEC and the security services performed 
admirably and should be applauded for addressing challenges and 
improving efforts with each progressive election. We will urge INEC 
leaders to continue steps to further improve the electoral process and 
strengthen Nigeria's democratic institutions.
    The success of the Nigerian elections sends a strong signal on the 
importance of credible elections and democratic transition across 
Africa. The people of Nigeria have clearly demonstrated aspirations to 
have a democratic government and participate in democratically run 
elections, a desire of many people across Africa. If Nigeria, with its 
troubled electoral history, large size, and large and diverse 
population, can run and manage successful democratic elections, it is 
possible for other African states to do so as well. We will continue to 
work with our African partners to ensure similar success in upcoming 
elections on the continent.

    Question #9. Kenya is preparing for elections in 2012, and is 
currently undertaking the process of implementing a new constitution 
approved by an overwhelming majority of the population last year. Given 
the difficult history of Kenya's last election and subsequent violence, 
what are your expectations for the upcoming elections? Describe our 
democracy and governance assistance programs in Kenya and the extent to 
which we are assisting Kenyans lay the groundwork for elections that 
are free and fair.

    Answer. The 2012 election in Kenya will be an important test of the 
progress the country has made on its ambitious political and 
institutional reform agenda set out as part of the Kofi Annan mediated 
power-sharing agreement that brought the 2007-08 post-election violence 
to an end. Some progress has been made, in particular the adoption of a 
new constitution in August 2010 that, if robustly implemented, will 
provide a solid foundation for a peaceful, democratic future in Kenya.
    To assure a fair and credible election in 2012, it is important 
that reforms move forward. Kenyan leaders must work together to put in 
place legislation necessary for constitutional implementation, appoint 
the best qualified people to key positions in the judiciary, and 
support efforts to hold accountable those responsible for the 2007-08 
post-election violence.
    In support of implementing the reform agenda, including the new 
constitution, U.S. democracy and governance programs support a range of 
government and nongovernment actors with responsibility for, and a 
stake in, implementing the reform agenda.
    To help ensure that electoral mechanisms and procedures are 
transparent and credible--and have the confidence of the Kenyan 
people--we are building on the effective work with the Interim 
Independent Electoral Commission (IIEC) on voter registration, results 
management, monitoring, and civic education carried out in advance of 
the August 2010 constitutional referendum. We will continue to help 
strengthen Kenya's electoral institutions, including the permanent 
Electoral and Boundary Commission once it is established. We also are 
supporting the professionalization of political parties, civic and 
media education on elections and electoral processes, and civil society 
monitoring and observation capacity.
    We are continuing support to parliamentary capacity-building, which 
is especially important in light of the need to pass more than 50 
pieces of legislation to implement the new constitution and its 
expanded responsibilities under it. U.S. programs focus on support to 
committees, including oversight committees. We also will support 
provision of technical expertise on legislative drafting if requested 
by the Government of Kenya.
    U.S. democracy and governance programs support a broad array of 
programs with civil society, including youth, to support their efforts 
to effectively promote reform, reconciliation, and conflict mitigation. 
We also partner with the media on activities to educate citizens about 
the reform process and are increasing our collaboration with the 
National Commission for Integration and Cohesion, which is responsible 
for monitoring and combating hate speech.

    Question #10. CONTINGENCY PLANNING: Obviously, there are a range of 
contingencies which arise in a given fiscal year, some of which are 
foreseen by the State Department as it drafts its budget request--such 
as the creation of a new state in Southern Sudan--and some of which are 
unforeseen--such as the unrest on Cote d'Ivoire and subsequent flow of 
Ivorian refugees across borders.

  <bullet> What is the process by which the State Department prepares 
        for these contingencies and what is the funding mechanism by 
        which we will assist the people of South Sudan and Cote 
        d'Ivoire this fiscal year?

    Answer. We rely on in-depth analyses and ongoing reporting on 
political, economic, and humanitarian issues in Cote d'Ivoire and 
Sudan, submitted by the Chiefs of Mission and reporting officers in 
both countries, to guide policy and programming decisions, including 
those related to contingency planning.
    U.S. strategy and assistance in Cote d'Ivoire for the foreseeable 
future will focus on political reconciliation, economic recovery, and 
security sector reform initiatives, as well as the continuation of 
humanitarian response activities, as part of the international effort 
to support President Ouattara's outlined plan for governing and as is 
permitted with the section 7008 sanctions that are in place. We are 
exploring the process for lifting those sanctions in order to broaden 
the types of assistance we can provide. Our strategy and assistance in 
Sudan is focused on achieving a lasting peace throughout Sudan by 
ending the conflict and abuses in Darfur, fully implementing the 
Comprehensive Peace Agreement (CPA) and all post-CPA arrangements 
negotiated between the North and South, supporting the establishment of 
two states, and ensuring that terrorists do not find safe haven in 
either Sudan or South Sudan.
    The United States will work to mitigate conflict in both Sudan and 
the new state of South Sudan upon its independence in July 2011, as 
they both face significant challenges in adjusting to the results of 
separation and internal and external challenges to their stability. The 
capacity of the Government of South Sudan has improved, but it will 
require continued assistance to build capacity to govern effectively, 
deliver basic services, and broaden its economic base beyond petroleum. 
In Darfur, the United States remains very concerned about the 
humanitarian and security situation. We continue to work with the 
United Nations, the African Union, and others to find a comprehensive 
resolution to the Darfur conflict and improve local security.
    State and USAID's central budget offices are currently reviewing 
the FY 2011 appropriation language and funding levels, and have not yet 
made bureau or country-specific allocation recommendations. We look 
forward to discussing our specific funding levels and allocation 
rationale as part of the 653(a) consultation process.

    Question #11. Although Gbagbo has been arrested, there is a long 
road ahead for Cote d'Ivoire.

  <bullet> a. What comes next in terms of reconciliation and 
        accountability?Q02
    Answer. President Ouattara has pledged to make national 
reconciliation a primary focus of his presidency. He recently created a 
Dialogue, Truth, and Reconciliation Commission (DTRC), and named former 
Prime Minister Charles Konan Banny as chairman. While its specific plan 
of action has not been finalized, President Ouattara has indicated that 
the DTRC will also include two religious leaders (a Christian and a 
Muslim). The DTRC will serve as a vehicle for a national dialogue and 
reconciliation process.
    In terms of accountability, President Ouattara has called for an 
independent investigation into all alleged human rights abuses carried 
out since November 28, to include allegations against both sides, and 
has pledged to hold perpetrators from both sides accountable. A 
Commission of Inquiry from the United Nations Human Rights Council is 
currently in Cote d'Ivoire carrying out its own independent 
investigation; the United States supports the work of the Commission of 
Inquiry and looks forward to reading a comprehensive report.

  <bullet> b. Describe levels of U.S. support for President Ouattara 
        and his military.

    Answer. Due to restrictions, some of which have been in place since 
1999, U.S. assistance to Cote d'Ivoire is currently limited to 
humanitarian programs including disaster relief and the President's 
Emergency Plan for Aids Relief. We are exploring the process for 
lifting those restrictions in order to broaden the types of assistance 
we can provide. U.S. strategy and assistance in Cote d'Ivoire for the 
foreseeable future will focus on political reconciliation, economic 
recovery, and security sector reform initiatives, as well as the 
continuation of humanitarian response activities, as part of the 
international effort to support President Ouattara's outlined plan for 
governing.

  <bullet> c. What is the status of the cocoa industry exports?

    Answer. Following the European Union's lifting of sanctions against 
the Port of Abidjan, several companies have begun exporting cocoa again 
in recent days. The resumption of cocoa exports is an important element 
of Cote d'Ivoire's overall economic recovery.

  <bullet> d. What comes next for Mr. Gbagbo?

    Answer. Former President Gbagbo remains under house arrest in 
northern Cote d'Ivoire under the protection of UNOCI. President 
Ouattara's government is conducting an investigation to determine what 
charges can be brought against Gbagbo and his coterie domestically, and 
also has indicated that it supports the ICC's role in investigating 
alleged abuses since the November elections.

    Question #12. LRA: The Lord's Resistance Army, or LRA, has 
terrorized remote communities in central Africa since 1986 and 
continues to do so, undermining U.S. investments in peace and stability 
in South Sudan and the DRC. Last year, the administration released its 
strategy to support the disarmament of the LRA, as mandated by the 
Lord's Resistance Army Disarmament and Northern Uganda Recovery Act.

  <bullet> a. What are the State Department's priorities for 
        implementing this strategy and how are these priorities 
        reflected in the budget request?

    Answer. The administration's LRA strategy is focused on 
simultaneously supporting regional and multilateral partners to 
maintain pressure on the LRA, both militarily and diplomatically; 
increasing options for LRA fighters and associated persons to 
surrender; increasing the protection of civilians; and providing 
humanitarian assistance to affected communities. Strategy 
implementation priorities include strengthening our diplomatic efforts, 
including at the U.N., the AU, regionally and bilaterally, to draw 
international attention to the LRA crisis; developing broad support and 
capacity for counter-LRA actions; supporting organizations responding 
to the urgent humanitarian needs of civilian populations in LRA-
affected areas; providing recovery, transition, and livelihood support 
for LRA-affected populations; and encouraging contributions by our 
partners, particularly the European Union and member states.
    To support efforts to apprehend or remove from the battlefield 
Joseph Kony and senior commanders, the Department of State intends to 
continue funding logistical and operational assistance to regional and 
multilateral partners through the Peacekeeping Operations (PKO) 
account. Our FY 2012 request includes $7.15 million in PKO funds as 
part of the Africa Conflict Stabilization and Border Security (ACSBS) 
program, a portion of which could be used to support counter-LRA 
efforts, as needed.
    Our conflict mitigation and reconciliation activities in Uganda, 
much of which target former LRA-affected areas in northern Uganda, are 
funded through bilateral Development Assistance. Our FY 2012 request 
includes $4.4 million for these activities.
    Our FY 2012 request for Contributions for International 
Peacekeeping Activities (CIPA) includes $408 million in assessed 
contributions for the U.N. Stabilization Mission in the DRC (MONUSCO) 
and $298 million in assessed contributions for the U.N. Mission in 
Sudan (UNMIS), a portion of which will continue to support these 
peacekeeping operations' activities, including the protection of 
civilians in LRA-affected areas.
    The FY 2012 budget includes support for humanitarian operations in 
the DRC, Central African Republic (CAR), and Southern Sudan within the 
Migration and Refugee Assistance (MRA) and the International Disaster 
Assistance (IDA) accounts. PRM and USAID will continue to monitor the 
humanitarian needs of LRA-affected communities in the DRC, CAR, and 
Southern Sudan and will continue to promote civilian protection and 
deliver humanitarian assistance throughout the region.

  <bullet> b. What is your view of the appointment of a Great Lakes 
        Coordinator or Advisor, as I have advocated for along with 
        Senator Kerry?

    Answer. We have considered the recommendation to name a special 
envoy or adviser for the Great Lakes Region. At this time, based on 
extensive discussions with NGO groups, regional states, donors, and 
others with interest in the Great Lakes Region, we believe the 
appointment of such an envoy or representative would not be the most 
effective means to advance U.S. interests or to utilize limited 
resources. We have found that the regional leaders have not been 
particularly receptive to Great Lakes special envoys--either from the 
United States or from other governments and have been reluctant to 
engage with them. Instead, each government has sought the support of 
bilateral ambassadors who could also address other problems and 
challenges specific to the country. Engagement through our resident 
ambassadors, with support from senior U.S. Government officials, has 
proven significantly more effective from both diplomatic and resource 
perspectives. My team and I are actively managing the Great Lakes 
regional portfolio in close coordination with the Chiefs of Mission in 
relevant capitals, as well as with the concerned governments and 
regional organizations.

  <bullet> c. What steps is the administration taking to protect 
        civilians in LRA-affected areas and remove Joseph Kony from the 
        battlefield?

    Answer. The Department of State has been working with the 
Department of Defense to provide enhanced integrated logistical, 
operational, and intelligence assistance in support of regional and 
multilateral partners in an effort to apprehend or remove from the 
battlefield Joseph Kony and senior commanders. Since the launch of 
Operation Lightning Thunder (OLT) in 2008, we have obligated $29.1 
million in PKO resources to provide non-lethal equipment, logistics 
support, and supplies to the Uganda People's Defense Force (UPDF) in 
support of its effort to defeat the LRA. This includes $6 million of FY 
2011 PKO funds to support the efforts of Uganda and CAR to defeat the 
LRA through early May 2011.
    To support the protection of civilians, the Department of State and 
USAID are installing high-frequency radio networks to expand 
communication and providing support to U.N. peacekeeping missions and 
humanitarian agencies in LRA-affected areas. In FY 2010, the United 
States provided $387.7 million in assessed contributions for MONUSCO's 
overall budget, a portion of which supported LRA-affected populations. 
In FY 2010, the United States provided $361.1 million in assessed 
contributions for UNMIS' overall budget.

    Question #13. DRC: The FY12 budget request includes $19 million for 
peacekeeping operations in the Democratic Republic of Congo, or DRC. 
Despite an effort by the United States to highlight human rights 
violations and gender-based violence, mass violence and rapes continue 
in alarming numbers. What is the U.S. strategy for addressing this 
deeply troubling issue in the DRC?

    Answer. We remained deeply concerned by the ongoing violence and 
human rights abuses against innocent civilians in the DRC. The United 
States works in partnership with the DRC government in its efforts to 
foster peace and provide security throughout the country, build 
functional and accountable government institutions, and deliver public 
services. Our strategy to address sexual and gender-based violence 
(SGBV) and other human rights violations falls under the umbrella of 
our overall DRC strategy.
    Our overall human rights strategy includes the following 
objectives: (1) build Congolese capacity to address the root causes of 
insecurity and protect civilians; (2) support justice sector 
development to combat impunity, enhance judicial independence, and 
increase access to justice, including through the establishment of 
mobile courts to bring essential judicial services to remote areas; and 
(3) build the capacity of civil society to promote and protect human 
rights, including those of the most vulnerable groups.
    Our strategy to address SGBV specifically includes four key 
objectives: (1) reduce impunity for perpetrators of SGBV; (2) increase 
prevention of and protection against SGBV for vulnerable populations; 
(3) improve the capacity of the security sector to address SGBV; and 
(4) increase access to quality services for survivors of SGBV. Our 
holistic approach focuses on strengthening the prevention of and 
response to SGBV throughout the country. We fund programs that: improve 
access to care and treatment services for survivors, fight impunity for 
perpetrators through support for legal reform--possibly including 
support for specialized mixed courts, assist legal aid clinics that 
facilitate prosecutions, build capacity of the civilian and military 
judicial systems, and promote community awareness of the response to 
SGBV. The United States also recognizes that effective prevention of 
SGBV requires efforts to address women's and girls' low status in 
society. The DRC cannot move ahead without the full inclusion of 
women--including politically, economically (through agriculture and 
beyond), and socially, through a robust civil society movement.
    In instances when the DRC Government has failed to take actions to 
prevent human rights abuses, we have taken strategic actions in the 
past year, such as removing the DRC from the list of eligible countries 
to receive benefits under the African Growth and Opportunity Act (AGOA) 
in January 2011. This action has created an opportunity to work with 
the Government of the DRC to improve the human rights situation, 
including reducing sexual and gender-based violence. Further, as a 
result of pressure from the United States and others in the 
international community, the GDRC recently convicted high-profile 
perpetrators of a mass rape attack that occurred on New Year's Day. To 
reiterate, our strategy is to help the DRC Government build its 
capacity so that it will establish the government institutions 
necessary to eventually take control of these deeply troubling issues.

    Question #14. QDDR: Late last year, Secretary Clinton and 
Administrator Shah released the results of the first Quadrennial 
Diplomacy and Development Review (QDDR), which examined the need for 
enhanced interagency cooperation and additional staffing to address the 
numerous emerging global issues. Many of these emerging issues exist in 
Africa, including food security, transitions in governance, terrorism, 
and narcotrafficking.

  <bullet> How does the administration's FY12 budget request for Africa 
        reflect and implement the objectives of the QDDR?

    Answer. Although the QDDR was finalized and distributed after the 
submission of the FY 2012 budget request, the Bureau incorporated many 
of the report's initial objectives and findings into its budget 
submission. These included concerted efforts to strengthen the links 
between diplomacy and development, and to better align policy 
priorities, strategic responses, budget planning, and performance 
management. As noted in the QDDR, Chiefs of Mission at sub-Saharan 
African posts function as chief executive officers of multiagency, 
whole of government efforts.
    The initial input for developing budget planning and performance 
management strategies in sub-Saharan Africa stems from the Chiefs of 
Mission through the submission of Mission Strategic and Resource Plans 
(MSRPs) that incorporate overarching policy goals established by the 
Assistant Secretary of State. The MSRP reflects the input of all U.S. 
Government partners at post, and lays out an integrated approach for 
meeting the diplomatic and development challenges in each country. In-
depth reviews of the MSRPs are conducted by the interagency community 
in Washington, program and funding decisions are made, and a joint 
State/USAID Africa Bureau submission is prepared. In keeping with QDDR 
objectives, the Africa Bureaus at both State and USAID work hand in 
hand throughout all phases of the budget development process.
    The Africa Bureau's FY 2012 budget includes funding requests to 
address several of the emerging global issues referenced in the QDDR. 
For example, a total of $507.3 million is requested for the Feed the 
Future (FTF) Presidential Initiative which dedicates resources to 
addressing the root causes of hunger and poverty through agricultural 
development in select countries in Africa. This represents a 20-percent 
increase ($84.94 million) over the FY 2010 enacted level for FTF 
programming. The FY 2012 request also includes a total of $371.2 
million in funding to support the Bureau's highest policy priority of 
strengthening democratic institutions and the rule of law. This is 19 
percent higher than the FY 2010 enacted level of $311.7 million. 
Additionally, the Bureau's FY 2012 request for $185.8 million in 
funding to address transnational challenges such as counterterrorism, 
narcotics trafficking, and trafficking in persons is nearly 28 percent 
higher than the FY 2010 enacted level of $145.7 million.
    We are able to leverage our assistance with other key U.S. 
Government and in-country stakeholders (including civil society, the 
private sector, foundations, other development partners, multilateral 
institutions, host governments, and regional institutions--particularly 
the African Union and the regional economic communities). This internal 
and in-country coordination complies with QDDR directives and helps 
prevent duplication of effort, maximizes the impact of U.S. taxpayers' 
foreign assistance dollars, and heightens the effectiveness of 
programs. It also helps to ensure that U.S. assistance is aligned with 
national priorities and supports country ownership. In addition, where 
feasible, we work together with other partners with mutually 
reinforcing goals, to reduce the number of separate, duplicative 
missions and diagnostic reviews, while building a community of best 
practice and joint training.

    Question #15. On the issue of Somalia, the Transitional Federal 
Government (TFG) has demonstrated a lack of capacity to expand its 
institutional presence beyond Mogadishu.

  <bullet> How can we reach the governments and district 
        administrations in Somaliland and Puntland given the severe 
        restrictions on U.S. diplomatic personnel?

    Answer. Under the Dual Track approach to Somalia announced in 
September 2010, the United States will broaden our approach by taking 
into account the complex nature of Somali society and politics. On 
Track One, we continue support for the Djibouti Peace Process, the 
Transitional Federal Government (TFG), and the African Union Mission in 
Somalia (AMISOM) as a first line of effort to stabilize Somalia, as 
well as to blunt al-Shabaab's efforts in Mogadishu. On Track Two, we 
are deepening our engagement with the regional Governments of 
Somaliland and Puntland, as well as with local and regional 
administrations throughout southcentral Somalia who are opposed to al-
Shabaab, but who are not affiliated with the TFG.
    State Department and USAID officials have made three brief trips to 
Hargeisa since August 2010. While the United States must work to 
overcome strategic disadvantages inherent in the absence of a sustained 
diplomatic presence inside Somalia, our absence from Somalia is driven 
by concerns for the safety and security of U.S. personnel as dictated 
by local conditions. Nevertheless, we plan to provide Somaliland and 
TFG police with Anti-Terrorism Assistance training before the end of 
the calendar year and support several community-based income 
generation, vocational training, and healthcare projects in northern 
Somalia and in southern and central Somalia.
    USAID has been engaged for several years with the Somaliland and 
Puntland central administrations in a range of governance activities, 
including parliamentary reform and elections administration. Moreover, 
the majority of USAID's programs in Somalia target these two regions. 
USAID implements extensive youth outreach, vocational training and 
livelihoods programs, as well as teacher training and basic education 
through an innovative radio-based program. We are further engaged in 
conflict mitigation through assistance to local community groups for 
dialogue and mediation (with a particular emphasis on women and youth). 
For several years, we have supported the multi-donor Joint Program on 
Local Governance operated by the United Nations Development Program 
nationwide. In addition, USAID has launched two new development 
programs in early 2011that will be primarily implemented in Somaliland 
and Puntland.
    In April of this year, as part of the ongoing political process and 
continued efforts to encourage greater reconciliation and stability in 
Somalia, we worked with U.N. and AU partners to convene a High Level 
Consultative meeting in Nairobi. This meeting brought together 
representatives from several administrations and Somali political 
entities, including the Transitional Federal Parliament, Puntland, 
Ahlu-Suna Wal Jama (ASWJ), and regional administration representatives 
from Galmuduug, for dialogue on the political way forward in Somalia.
    Long-term efforts on Somalia will continue to focus on security, 
governance, humanitarian, and development assistance as we deepen our 
engagement outside of Mogadishu and, security permitting, find it 
possible to operate from inside Somalia on a more regular basis. As 
security permits, we will seek to expand possibilities for U.S. 
personnel to travel into Somalia, including Mogadishu, Boosaaso, and 
Gaalkacyo, in order to more easily and effectively identify and 
establish working relationships with key players on the ground.

    Question #16. African Union: The FY12 budget request includes a 
$500,000 decrease in funding for the African Union (AU). The AU 
continues to play a significant strategic role in conflicts across the 
region, including the Sudan, Cote d'Ivoire, and Libya. Please discuss 
the decision to decrease funding to the AU and how the administration 
anticipates the AU will move to absorb the funding reduction.

    Answer. Funding for the African Union in FY12 was determined in the 
context of the overall spending levels established in the budget for 
sub-Saharan Africa. Having fewer resources available for foreign 
assistance meant that we had to make difficult choices for programs 
worldwide. Our appropriated funds for the African Union are provided to 
support election monitoring and other democracy and governance 
programming under the Governing Justly and Democratically objective. 
The United States has been a major donor to the African Union's 
Democracy and Electoral Assistance Unit for several years. We believe 
that the funding levels requested by the Administration are sufficient 
to achieve U.S. objectives during FY12.

    Question #17. ELECTIONS: The administration has declared democracy 
and governance programs its top noninitiative priority in Africa, but 
the budget request proposes decreasing funding to transitioning 
governments in Niger and Guinea. There are 27 African countries which 
are holding, or have already held, elections in 2011, including 
Nigeria, Rwanda, South Sudan, Uganda, and the DRC. How does State 
intend to maximize the impact of limited funding for democracy and 
governance, and how will the decreased funding affect programming in 
countries such as Niger and Guinea?

    Answer. We are pleased that our assistance has helped build 
electoral systems and to consolidate democratic gains in key democratic 
countries in Africa including Mali, Benin, Guinea, Niger, Ghana, Sierra 
Leone, South Sudan, and Liberia.
    Going forward, we plan to amplify and further refine our electoral 
assistance activities in Africa. We will continue to work closely with 
African governments and civil societies to strengthen the 
infrastructure for credible elections not only at the national but also 
at the provincial and local government levels? Accountability at the 
local level is often the key to public confidence in democracy. In 
addition to election observation, we will focus on increasing societal 
demand for credible elections. In that context, we to expand work with 
local civil society groups to assist in their advocacy for election 
reforms and to enable them to carry out their own domestic monitoring 
of elections. We have seen that support for voter education and 
election commissions in the few months prior to elections is 
insufficient to build the strong democratic states needed in Africa. 
Rather, we must more be more creative and efficient in accomplishing a 
consistent, holistic approach on this issue.
    USAID recently mobilized assessment teams to Guinea and Niger to 
survey the post-transition landscape and develop recommendations for 
democracy and governance programming. These recommendations are 
informing our budget discussions, including on necessary steps to adapt 
to constrained budgets and design programs that will strengthen 
democratic institutions and assist civil society in both countries.

    Question #18. According to recent reports, the police have 
arbitrarily arrested dozens of protesters, journalists, and community 
leaders in Swaziland. Please explain what the State Department is doing 
to respond to this issue.

    Answer. During the April 12-13 demonstrations, police detained 
leaders of labor unions, political activists, journalists, and members 
of civil society, largely in order to halt the protest, deemed 
``illegal'' by Prime Minister Barnabas Sibusiso Dlamini. Police 
released all individuals detained during the protests. In the days 
following the demonstrations, police arrested and charged two people 
for offenses related to the possession of explosive devices.
    On April 12, Embassy Mbabane released a widely distributed press 
statement calling on the Swazi Government to uphold the freedom of 
association and expression as guaranteed by the Swazi Constitution and 
expressed our concern over the detentions. U.S. Ambassador to Swaziland 
Earl Irving contacted the Foreign Minister and met with the Prime 
Minister, Commerce Minister, and representatives from the Ministry of 
Labor to express U.S. Government concerns over violations of the 
freedom of association, speech, and universally recognized human 
rights. Embassy Mbabane continues to meet with host government 
officials regarding these issues.
    Many of the activists detained by police participate in Embassy 
Mbabane's human rights working group, which meets monthly. This working 
group initiative aims to provide union leaders, political party 
members, government representatives, academics, and members of civil 
society with an impartial forum to discuss human rights challenges in 
Swaziland.
                                 ______
                                 

     Responses of Ambassador Eric P. Goosby to Questions Submitted
                    by Senator Christopher A. Coons

    Question. SHARED RESPONSIBILITY: How does the U.S. commitment to 
preventing and treating HIV/AIDS compare to other international donors? 
Describe the model of ``shared responsibility'' used by the Global 
Fund, whereby the U.S. commitment may represent no more than one-third 
of the total funding, and each dollar we spend is matched by more than 
$2 from international donors.

  <bullet> Is this model working well and can we emulate it elsewhere 
        in global health programs and aid to Africa in general?
  <bullet> How have other donor countries adjusted their contributions 
        to the Global Fund as a result of the global economic crisis?

    Answer. The U.S. Government (USG) commitment to HIV/AIDS is the 
largest international health initiative any country has ever focused on 
a single disease. The USG commitment on HIV/AIDS far outpaces that of 
any other country, with the USG providing an estimated 58 percent of 
donor resources for global HIV/AIDS. There is a strong need for other 
donors to increase their commitment as the USG has done, and the Global 
Fund is the key vehicle for them to do so.
    Overall, the USG believes the Global Fund model is an effective 
mechanism for mobilizing resources from a diverse array of public and 
private donors and leveraging USG investments in combating HIV/AIDS, 
TB, and malaria to support country-owned responses to the three 
diseases. The Global Fund is the world's largest multilateral financing 
mechanism for global health, and has a strong track record in saving 
and improving lives.
    The Global Fund is a key vehicle for promoting shared 
responsibility for global health efforts and has successfully attracted 
contributions of $19.1 billion from public and private donors, 
including more than $5.1 billion from the USG. The USG's financial 
contributions and political commitment to the Global Fund, along with 
the congressional requirement that the USG can provide no more than 33 
percent of all contributions to the Global Fund, have played a vital 
role in mobilizing financial contributions from other donors. 
Importantly, the Global Fund provides a mechanism through which 
countries and organizations that do not have the ability or in-country 
presence to support major bilateral health programs can contribute in a 
meaningful way to the fight against the three diseases. Since the 
inception of the Fund, non-G8 donors have contributed $5.4 billion to 
the Global Fund, or 29 percent of all contributions. In addition to 
mobilizing donor resources, the Global Fund is actively seeking to 
ensure the additionality of its investments, including through 
strengthened cofinancing requirements that require recipient countries 
to contribute.
    The Global Fund has proven an effective mechanism for promoting 
shared responsibility and supporting country-owned health responses. A 
critical element of the Global Fund's success is its focus on results. 
The Global Fund's ability to mobilize international resources depends 
heavily on its ability to demonstrate clearly the results achieved 
through its grants in terms of services delivered and lives saved. The 
Fund's track record of success has enabled it to generate continued 
international support despite the global economic crisis.
    At the Third Voluntary Replenishment Meeting in October 2010, 
donors pledged $11.7 billion to the Global Fund over 2011-13, including 
a pledge from the USG to seek $4 billion. The USG pledge was tied to a 
Call for Action for reform to improve the efficient and strategic 
disbursement of resources and to maximize the impact of Global Fund 
resources. In total, the pledges represent the largest ever financial 
pledge for the international effort to fight the three pandemics. 
Several donors decreased their pledges and/or contributions to the 
Global Fund based on their domestic budget environments, including 
Italy and Ireland, but overall, international commitment to the Global 
Fund remains strong. This is a significant achievement, especially in 
light of the economic climate.

    Question. COUNTRY OWNERSHIP: One of the focuses of PEPFAR is 
``country ownership,'' or partnering with NGOs to build the 
institutions, infrastructure, and health systems so countries may run 
the programs themselves.

  <bullet> Describe the challenges of pursuing a ``country ownership'' 
        model of bilateral assistance, especially in countries that are 
        not financially strong enough to assume control.
  <bullet> What steps can be taken to advance efforts to build African 
        countries' capacity to sustain U.S. health programs in the near 
        and long term?

    Answer. A central focus of PEPFAR's strategy is promotion of 
country-led sustainable programs. Strong government leadership of the 
health system is integral to long-term success, and health systems are 
strongest where governments have leadership and technical skills to 
address health system weaknesses. Civil society at the country level 
also plays an important role in providing feedback on service delivery. 
PEPFAR's NGO partners are playing key roles in building country-level 
capacity, both in governments and in civil society, to respond to the 
epidemic. Unfortunately, in many countries both government health 
systems and civil society are extremely fragile, and underresourced in 
human resources and infrastructure.
    We have defined country ownership around the themes of political 
ownership and stewardship, intuitional ownership, capabilities and 
mutual accountability, in order to promote a common understanding with 
our partners. We have seen some early wins using the partnership 
framework process around country ownership. There are nonetheless 
challenges already identified in resource constrained countries such as 
Tanzania, Mozambique, and Malawi where the economic growth rate is 
still nascent and it may be years before some recipients of bilateral 
U.S. assistance can directly fund the majority of programs. It will 
also be a challenge to maintain commitments made to finance health 
programs in environments where there is political instability. 
Significant challenges to capacity-building include --lack of budget or 
operational planning; limited infrastructure for service delivery; 
inadequate skills for programmatic oversight. However, we are taking 
deliberate steps to direct country teams to inventory required 
capabilities, and prioritize the interventions that will help partner 
countries overcome these obstacles.
    As encouraged by Congress in its reauthorization, PEPFAR is 
promoting steps
to build country-capacity through Partnership Framework agreements. 
Each is a
5-year joint strategic framework for cooperation between the USG, the 
partner government, and other partners to combat HIV/AIDS in the host 
country through service delivery, policy reform, and coordinated 
financial commitments. Frameworks have provided the basis for 
discussions with governments on long-term planning and alignment 
between PEPFAR and national strategies. They provide the mechanism for 
dialogue around investments in capacity by both the partner-country 
government and PEPFAR, which both have roles to play.
    Through the Partnership Framework mechanism, we have seen many 
countries taking ownership of their health programs. Financing is not 
the only element in country ownership, but it is part of the discussion 
in each country, based on the available resources in the country. For 
example, as part of the Partnership Framework on HIV/AIDS between 
Nigeria and the USG, the Government of Nigeria is committed to being 
the leader and steward of its efforts to fight HIV/AIDS. This includes 
increasing its financing from 7 percent of the national HIV/AIDS 
response in 2008 to 50 percent of the cost by 2015. To date, 19 
countries and two regional programs have signed Partnership Frameworks.
    To cite an example of PEPFAR's efforts to build African countries' 
capacity to sustain U.S. health programs in the near and long term, 
PEPFAR recently launched the Medical Education Partnership Initiative 
(MEPI), which seeks to transform medical education and dramatically 
increase the quality and quantity of health care workers in Africa. In 
partnership with the National Institutes of Health's (NIH) Fogarty 
Center and the Department of Health and Human Services (HHS) through 
Health Resources and Services Administration (HRSA), PEPFAR is making 
direct grants to African institutions, which are leading a network of 
U.S. medical schools, regional partners, and country health and 
education ministries.
    Through PEPFAR, the United States will provide about $130 million 
in MEPI grants that are awarded directly to African institutions, 
including two in South Africa. By providing grants directly to African 
institutions and supporting their partnerships with U.S. and 
international medical schools and universities, we support their 
leadership in developing programs that will train and retain future 
health care leaders, and tailoring education to meet the needs of the 
populations they serve. In some cases, the opportunities for medical 
faculty to continue their professional development and engage in 
research are powerful incentives to remain in their countries and 
promote excellence in medical education and practice.
    In addition, PEPFAR has partnered with HHS/HRSA on a Nursing 
Educational Partnership Initiative (NEPI) with similar goals and 
objectives as MEPI, except with a focus on nurses and midwives. The 
NEPI is a $35 million award over 5 years awarded to countries, as 
opposed to academic institutions, and managed by a Ministry of Health 
workgroup established to represent the key nursing and midwife 
educators, providers, and policymakers in the country. To date, there 
are three NEPI countries--Lesotho, Zambia, and Malawi.

    Question. BLOOD SAFETY: I understand that some PEPFAR funding for 
blood safety programs ended in March 2010. What measures are being 
taken by PEPFAR to ensure blood safety, and what progress has been made 
to help countries oversee the viability and safety of their blood 
supply? How does this factor into your FY12 budget request?

    Answer. The President's Emergency Plan for AIDS Relief (PEPFAR) 
agrees that adequate supplies of safe blood in resource-challenged 
countries are important components of comprehensive HIV prevention 
programming. Our blood safety work is a strong example of our efforts 
to promote country ownership of HIV/AIDS responses. We are partnering 
with countries to build their capacity to ensure a safe blood supply, 
with valuable technical assistance from technical partners. This 
capacity-building not only helps countries' HIV responses, but their 
efforts to address other diseases as well. Since its launch in 2004, 
PEPFAR has directly provided direct support to 14 Ministries of Health 
or National Blood Transfusion Services (NBTS), including 12 in sub-
Saharan Africa, with the goal of eliminating transfusion-transmitted 
HIV infections. All 14 countries achieved universal screening for HIV 
at these NBTS centers; 13 countries achieved universal screening for 
hepatitis B, hepatitis C, and syphilis. The United States will continue 
to support blood safety activities through both PEPFAR and the broader 
Global Health Initiative (GHI).
    The Centers for Disease Control and Prevention (CDC) awarded a 
PEPFAR Blood Safety Technical Assistance task order contract in 
September 2010 as a key strategy for building blood safety capacity. 
Task orders are established at the request of U.S. country teams to 
meet their country's specific needs. Multiple meetings and exchanges 
with Ministries of Health (MOH) and National Blood Transfusion Services 
(NBTS) are needed prior to submitting a task order request to identify 
needs and assure that PEPFAR programming is complementary to the 
country's own efforts. In addition, assessment and prioritization of 
identified blood safety needs are required. These activities took a 
number of months to complete and resulted in the identification of 22 
different task orders. Funding for blood safety activities was released 
via PEPFAR's Congressional Notification in March 2011, and all 22 task 
order requests are expected to be awarded in the near future.

    Question. STRETCHING FUNDS: In this difficult budgetary 
environment, how are you stretching each dollar through smart 
investments to ensure taxpayer dollars are going toward programs that 
have proven to save lives in terms of treatment and prevention?

    Answer. Accountability to Congress and the American people is the 
chief priority of the Global Health Initiative, regardless of the 
budgetary environment. But in these difficult times, it is especially 
important to ensure that taxpayer dollars are used efficiently and 
effectively to meet the ambitious targets we have set and save lives.
    Despite challenging economic times, we have achieved impressive 
life-saving results by stretching every dollar through smart 
investments. Allocating resources based on impact and efficacy; 
incorporating innovations that promote efficiency; and increasing 
collaboration with governments and stakeholders to align programs and 
target investments are critical components of our effort to do more 
with less. We have also looked inward, reducing costs by streamlining 
U.S. Government operations and pursuing the best available, all-
inclusive commodity pricing. Through all of these smart investments, we 
are supporting countries as they try to build an effective, durable 
continuum of care that meets the needs of their people. The more 
impactful and efficient our investments, the greater the developing 
country's ability to create a sustainable response.
    Coordination across the whole of government is also critical in 
creating cost saving efficiencies that allow us to make life-saving 
investments. Coordination means, at a minimum, that programming within 
and among U.S. agencies takes advantage of each agency's strengths, 
avoids duplication, and increases the efficiency and effectiveness of 
each dollar spent. Better coordination of programs and delivery 
platforms provides opportunities to strengthen the integration of 
health services at the point of delivery to meet more of the health 
care needs of individuals, as well as ensure satisfaction with, and 
increase demand for, those services. For example, in Mali five separate 
annual campaigns designed to provide nutrition and NTD treatments were 
integrated into one, streamlined pilot program. The pilot actually 
boosted health coverage while cutting the cost of delivery in half. 
This single campaign approach is being brought to scale, with hopes of 
expanding it to cover 80 percent of pregnant women and children under 
5. This will help ensure that more people have access to high-quality 
care everywhere we work.
    We are grateful for the continued support of Congress in the 
implementation of this critical work. By making smart investments with 
taxpayer dollars, we will save more lives. This is and will remain the 
first priority of the Global Health Initiative.

    Question. GLOBAL FUND: As a board member of the Global Fund to 
Fight AIDS, Tuberculosis, and Malaria, how have you responded to the 
reported misuse of funds in 4 of 145 grant countries, and what steps 
have been taken to enhance oversight, transparency, and auditing of the 
Global Fund?

    Answer. The USG has zero tolerance for fraud and corruption, and we 
are working aggressively with and through the Global Fund Board, 
Secretariat, and our bilateral programs to strengthen internal 
oversight systems, increase country-level capacity to comply with 
Global Fund requirements, and ensure resources reach those in need and 
are used effectively to save and improve lives.
    The United States has been a leader in calling for reform of the 
Global Fund. In October 2010, we called upon the Board to develop an 
action agenda that includes clear timelines and measures progress so 
all parties can be held accountable for the strong action steps that 
must be taken to improve the impact of grants and ensure the effective, 
efficient, and accountable use of resources. The Board embraced this 
call to action and created a Working Group, led by the Board Chair and 
including a USG representative, to recommend action steps to improve 
Fund procedures relating to performance and impact. Through this reform 
process we have called upon the Fund to take clear steps to: strengthen 
fiduciary controls; strengthen grant management; deliver better value 
for money in grants; and improve governance. We believe the package of 
reforms being presented to the Board for consideration and approval in 
May 2011 will result in significant improvements in Global Fund 
operations, oversight, and impact.
    The USG is also deeply engaged in supporting country-level 
oversight of Global Fund grant management and implementation through 
technical assistance and engagement with Country Coordinating 
Mechanisms. The USG strongly supports the Fund's Office of the 
Inspector General and its efforts to prevent fraud and misuse of funds, 
identify them when they occur, and take immediate steps in coordination 
with the Secretariat and relevant national authorities to recover 
funds, prosecute individuals implicated, and strengthen national 
systems in order to prevent them from recurring. The USG pushed for the 
creation of the OIG in 2005, links our contributions to the Global Fund 
to its maintenance of an independent OIG, and has consistently 
supported its work and advocated for transparent followup on its 
findings. In 2008, the USG pushed the Global Fund Board to adopt a 
policy reiterating its zero-tolerance policy for corruption and 
prohibiting the approval of new grants in countries under OIG 
investigation. In 2010, the USG again supported significantly increased 
funding and staff for the OIG and urged greater attention to OIG 
findings and accelerated followup on OIG recommendations. Finally, we 
have called upon the Fund to strengthen its day-to-day working 
relationship with the OIG, implement recommendations made by the OIG, 
expand the capacity of Country Coordinating Mechanisms to monitor grant 
performance, improve the oversight capabilities of Local Fund Agents, 
and track reporting data more effectively. We have also strongly 
supported the establishment of an independent High Level Panel on 
Fiduciary Controls, cochaired by former Governor Leavitt and former 
President Mogae (Botswana), which has been tasked with reviewing the 
Global Fund's fiduciary controls and oversight mechanisms. We look 
forward to the Panel's report and recommendations, which will be 
presented to the Global Fund Board later this year.

    Question. MOTHERS AND GIRLS: Describe PEPFAR's focus on preventing 
mother-to-child transmission and other programs for mothers and girls, 
including in countries afflicted with gender-based violence, such as 
the DRC.

    Answer. Prevention of mother-to-child transmission (PMTCT) is a 
significant cause of new HIV infections worldwide--causing one in every 
seven new infections. Yet PMTCT interventions are extraordinarily 
effective. Because it works so well and touches so many lives, PMTCT is 
a smart investment for PEPFAR--high-impact and cost-effective. In FY 
2010 alone:

  <bullet> PEPFAR directly supported HIV counseling and testing for 
        nearly 8.4 million pregnant women;
  <bullet> More than 600,000 HIV-positive pregnant women received 
        antiretroviral prophylaxis to prevent mother-to-child 
        transmission; and
  <bullet> Through these PMTCT efforts in 2010, more than 114,000 
        children are estimated to have been born HIV-free (adding to 
        the nearly 340,000 from earlier years of PEPFAR).

    PEPFAR is leading the global effort on PMTCT and working to ensure 
that every partner country with a generalized epidemic achieves 80 
percent coverage of testing for pregnant women at the national level, 
and 85 percent coverage of antiretroviral drug prophylaxis and 
treatment, as indicated, of women found to be HIV-infected.
    In 2010, PEPFAR also established ``PMTCT Acceleration Plans'' for 
six countries with high burdens of vertical transmission. PMTCT 
Acceleration Plans provided $100 million in additional FY 2010 PEPFAR 
funding--above the more than $956 million spent on PMTCT from FY 2004-
09--to fund plans targeting bottlenecks to expanding services. Based on 
the encouraging early results of this effort, PEPFAR has continued this 
funding in FY 2011.
    In addition to significantly reducing mother-to-child transmission, 
PMTCT efforts have benefits for overall health care for women. Linking 
HIV testing with antenatal care helps to identify women who are in need 
of HIV care, and whose infants will need additional followup. 
Counseling and testing can also help women who are HIV-negative remain 
HIV-free. PEPFAR is also starting to scale up screening for gender-
based violence (GBV) in PMTCT clinics it funds, as well as providing 
linkages and referrals to other key services, such as family planning, 
malaria prevention, and clinical services for under-5. The availability 
of these additional services provides an incentive for women to seek 
antenatal care. In Kenya, Uganda, South Africa and other countries, 
strong linkages among PMTCT, maternal and child health and other 
programs dramatically increased program coverage, allowing programs to 
focus on the needs of each woman and family in a more holistic way.
    Beyond PMTCT, PEPFAR also helps women and girls lead healthier 
lives through integrated programming that addresses their unique needs. 
Gender sensitive programming is a priority across the entire 
prevention, treatment, and care portfolio. This includes:

  <bullet> Increasing gender equity in HIV/AIDS programs and services;
  <bullet>  Reducing violence and coercion;
  <bullet> Engaging men and boys to address norms and behaviors;
  <bullet> Increasing women's and girls' legal protection;
  <bullet> Increasing women's and girls' access to income and 
        productive resources, including education.

    PEPFAR is also committed to preventing and mitigating the effects 
of Gender-Based Violence (GBV). PEPFAR supports significant work in the 
field to mainstream GBV into existing HIV programs. In FY 2010 PEPFAR 
provided an estimated $68 million in bilateral support for activities 
addressing GBV in more than 28 countries. Through the Gender Challenge 
Fund, PEPFAR makes additional resources available to country programs 
on a matching basis. To date, 15 countries have received additional 
resources through the Gender Challenge Fund. Current activities funded 
through the Gender Challenge Fund include expanding the response to GBV 
in Haiti, enhancing PMTCT projects to address barriers and involve men 
in Uganda, and raising awareness of new laws to protect women in 
Swaziland.
    In addition, PEPFAR is now investing in an intensified scale-up of 
the response to GBV in three countries--the DRC, Tanzania, and 
Mozambique. These programs seek both to prevent GBV and to respond to 
it, ensuring that women and girls targeted with violence have access to 
appropriate services. Within the DRC, for example, activities focus on 
expanding access to post-rape care for victims of sexual assault, 
including developing national guidelines for this care; mobilizing 
communities to resist GBV; a national level communication campaign to 
increase awareness of GBV, especially as it relates to HIV; and 
specific programming addressing norms and behaviors, GBV and coercion, 
and women's legal rights and protection related to HIV risk reduction. 
By addressing sexual and other forms of gender violence, PEPFAR is 
working to strengthen communities and reduce the structural factors 
that place women and girls at greater risk for HIV/AIDS.

    Question. The FY12 budget request includes increases for nutrition 
and maternal and child health programs. How does the administration 
plan to maximize the impact of these funds in the coming year? What 
prompted the increased focus on these concerns?

    Answer. Nutrition and Maternal and Child Health (MCH) are key 
components of the Obama administration's international development 
objectives. Nutrition lies at the intersection of Feed the Future and 
Global Health Initiatives, since achieving improved nutrition outcomes 
requires adequate health and sanitation services, as well as access to 
and the availability and utilization of nutritious foods. Maternal and 
child health programs, from maternity and newborn care to immunizations 
and the treatment of life-threatening childhood illnesses, save lives 
and provide direct investments in the human capital of populations in 
great need.
    Under the Global Health Initiative we are strategically integrating 
our program support for women and families including in family 
planning, maternal and child health, and nutrition programs. Country 
teams in the 28 priority countries are developing strategic action 
plans that we call ``BEST''--BEST Practices at scale in home, 
community, and facilities for smart integration that draw on latest 
evidence and best practices. Through these plans, USAID is sharing 
learning, increasing transparency, enhancing monitoring and evaluation 
and promoting innovation to accelerate use of new technologies and 
approaches to bring life-saving care to women.
    The administration will maximize the impact of funding by 
continuing to implement programs that adhere to the principles of 
effective development, as outlined in President Obama's Global 
Development Policy. Feed the Future and the Global Health Initiative 
will draw upon interagency cooperation that leverages expertise and 
experience across the U.S. Government-including USAID, the Department 
of State, the Department of Agriculture, the Department of Health and 
Human Services, Peace Corps, and others--to ensure the application of 
all relevant knowledge to achieve the best possible outcomes. 
Initiative efforts will be targeted toward countries and sectors where 
U.S. support has the greatest comparative advantage, allowing us to 
scale up and focus resources for maximum effectiveness. Furthermore, we 
will emphasize the importance of country leadership and accountability 
by aligning our investments to plans and priorities identified by the 
countries themselves. We will further expand our impact by leveraging 
the resources of multilateral institutions and supporting global 
efforts, such as the Scaling Up Nutrition movement and the U.N. 
Secretary General's Global Strategy for Women's and Children's Health. 
We will pursue innovative research programs to develop and disseminate 
new knowledge and technologies, such as introduction of new vaccines 
and more nutritious crop varieties, and draw upon public-private 
partnerships like the ``Helping Babies Breathe'' initiative for 
additional resources and expertise. Last, we will hold ourselves 
accountable through a rigorous program of monitoring and evaluation 
that will allow us to assess our impact, improve results, and develop 
best practices for future efforts.
    The administration's increased focus on nutrition and maternal and 
child health stems from its recognition that healthy and well-nourished 
populations form a foundation for successful economic development and 
poverty alleviation. The loss of productive lives of women who die or 
are incapacitated as a result of unsafe childbirth, and of young 
children who die or whose physical and mental capacity is permanently 
reduced from preventable and treatable illness and malnutrition, are 
among the greatest losses of human capacity in developing countries. 
Experts and economists have recently pointed to improved nutrition as 
one of the most effective solutions to the world's most pressing 
challenges. Moreover, scientific evidence has highlighted the critical 
importance of proper nutrition during the window of time between the 
start of a mother's pregnancy and a child's second birthday. Inadequate 
nutrition in this period of approximately 1,000 days can have 
detrimental and irreversible effects on a child's physical and 
cognitive development, with repercussions throughout life that impact 
an entire society.
    Fortunately, proven and cost-effective solutions exist, and U.S. 
maternal and child health and nutrition investments will focus on 
scaling up such solutions. The 2007-08 food price crisis and the recent 
global economic crisis led to an increase in poverty and hunger for 
millions of people, as well as continued concerns about the impact of 
rising food prices and the limited availability of health care on the 
most vulnerable. These experiences illustrate the great need for 
increased resources devoted to improving maternal and child health and 
nutrition and food security more broadly.
                                 ______
                                 

  Responses of MCC Vice President Patrick Fine to Questions Submitted
                    by Senator Christopher A. Coons

                              FOREIGN AID

    Question. Why are the requested levels of funding worth the 
investment for the U.S. taxpayer, and what metrics do you use to 
measure aid impact and effectiveness?

    Answer. Recent U.S. national security strategies, both under 
Presidents Bush and Obama, have identified U.S. support for global 
development, especially sustained economic growth, as essential for 
U.S. national security, global leadership, and guiding values. MCC 
understands that U.S. resources for development are scarce. For this 
reason, MCC's model is designed to meet the high expectations of U.S. 
taxpayers and partner countries themselves--that resources be used 
well, and that they yield good and measurable returns in terms of 
poverty reduction and growth.
    MCC has a singular focus with partner countries: to promote poverty 
reduction through economic growth, as evidenced through increased 
incomes of program beneficiaries. This approach demands metrics and 
approaches that are designed for
long-term investments and that enable MCC and country partners to set 
clear priorities, measure cost-effectiveness, estimate returns, track 
progress, and rigorously measure impact. MCC's approach to impact and 
effectiveness centers around five key questions.

    Question. 1. Which investments proposed to MCC will best support 
economic growth and poverty reduction?

    Answer. Most poor countries have many development needs, and 
stakeholders, both local and international, often struggle with setting 
priorities. There are also many needs that reflect objectives other 
than economic growth. To identify cost-effective investments in long-
term economic growth from among this range of needs, MCC and partner 
countries begin the compact development process with quantitative 
analyses to identify the main barriers to investment and growth. Once 
countries propose projects within these priority areas, MCC uses 
economic analysis to estimate the increase in local incomes these 
proposals will generate. These analyses allow MCC and partner countries 
to set priorities, and identify the implementation targets that are the 
drivers of expected incomes gains that will accrue largely after 
compact completion.

    Question. 2. Who will the investments benefit, and by how much?

    Answer. MCC and country partners use beneficiary analysis to assess 
how the total income gains of proposed projects will be distributed 
across different income groups.

    Question. 3. How do we know investments are on track to be 
successfully implemented?

    Answer. MCC and partner countries use monitoring and evaluation 
(M&E) plans to track program performance against targets. These M&E 
plans track progress from the earliest phases of implementation through 
to completion. For example, the M&E plan for a farmer training program 
would link early inputs (farmer training) to outputs (number of farmers 
trained) to outcomes toward the end of a compact (number of farmers 
actually adopting new farming practices and hectares of land under 
improved production), and finally to the projected impact that will 
accrue during the years following program completion (higher local 
incomes). M&E plans also track progress against key policy and 
institutional reforms that are integrated into compact programs to 
enhance impact and sustainability. When program designs change due to 
new information on costs or implementation experience, MCC and MCA 
partners use M&E plans and underlying economic analysis to revise 
targets, and assess implications for expected income gains and 
beneficiary numbers.

    Question. 4. Did investments achieve the projected impact?

    Answer. Many factors can influence changes in income, so MCC uses 
independent evaluations to provide rigorous assessments of the cost-
effectiveness of MCC investments. For example, an agriculture program 
might report income increases among the farmers who received training, 
but we would not know if these gains were caused by the program or by 
some other factor, such as ample rains or changes in agricultural 
prices that benefited all farmers. By measuring changes in incomes for 
both program farmers and farmers who received no training but were 
otherwise subject to the same influences, an impact evaluation can 
determine whether gains are attributable to the program itself.

    Question. 5. What did we learn to help us improve our investments 
and better achieve our goals?

    Answer. M&E reports and independent evaluations help us understand 
what works best, enhance ongoing implementation, and inform future 
project design. By making this information public, MCC contributes to 
the learning of the broader development community.

                                CR CUTS

    Question. How will proposed budget cuts in the continuing 
resolution, or CR, impact the administration's ability to implement its 
policy agenda and priorities in Africa this fiscal year?

    Answer. Since I testified before your committee, the Continuing 
Resolution has been signed into law, and contains $210 million in cuts 
below the FY 2010 enacted level, which provided MCC with $1.1 billion. 
MCC is beginning to consider the series of very hard choices that we 
will have to make. Cuts of this magnitude will impact Indonesia, 
Zambia, and Cape Verde.

                              INTERAGENCY

    Question. Describe levels of interagency coordination in developing 
the budget request for Africa.

    Answer. MCC is an active partner in the U.S. interagency process, 
including serving as colead for the Partnership for Growth initiative. 
At the country level, where programming occurs, MCC participates in the 
Embassy country team. We have been pleased with the level of 
collaboration in countries across our portfolio and on special 
initiatives such as Feed the Future.

    Question. To what degree have you embraced a whole of government 
approach when implementing an Africa strategy?

    Answer. MCC works with other U.S. Government agencies across a wide 
range of areas in Africa. For example, MCC and USAID are actively 
working to identify areas for collaboration in food security. In Mali, 
USAID is planning on complementing MCC's investments in land titling by 
supporting a legal framework to resolve land conflicts. In Senegal, MCC 
and USAID have identified opportunities for USAID programs in social 
services, farmer training and rural infrastructure to complement MCC's 
investments in road and irrigation networks. MCC and Peace Corps signed 
an agreement in September 2010 to enhance cooperation and share 
knowledge and resources in support of country-led development; this 
MCC/Peace Corps coordination is expected to be strongest in Africa. For 
example, in Lesotho, a Peace Corps Volunteer has been assigned to the 
partner government entity managing the MCC compact and is helping to 
implement a water supply and sanitation project. MCC is also working in 
Ghana and Tanzania with the Department of State, USAID, and other U.S. 
Government Agencies on a new Partnership for Growth, a whole-of-
government effort intended to accelerate growth and remove key 
obstacles to investment in a small number of select countries.

                                 CHINA

    Question. Describe the extent and nature of China's influence in 
sub-Saharan Africa, and the degree to which it impacts America's role 
in the region.

  <bullet> Are there areas of cooperation we have not fully explored 
        with China that may allow us to better meet shared regional 
        goals?
  <bullet> What steps are we taking to mitigate areas of tension with 
        China in Africa?
  <bullet> How are U.S. businesses faring in Africa given the economic 
        competition with China?

    Answer. MCC looks to the U.S. State and Treasury Departments, 
coleads of the U.S. strategic economic dialogue with China, to frame 
and pursue U.S. engagement opportunities with China and steps to 
mitigate areas of tension with China in Africa.

                               CAPE VERDE

    Question. What are the benefits and costs of a second compact with 
Cape Verde, and to what degree has it served as a regional model--
originally qualifying as a low-income country, and later graduating to 
the ``lower-middle'' income category?

    Answer. Cape Verde was selected by the MCC Board as eligible for a 
second compact in December 2009. MCC has made it clear to all current 
partner countries that eligibility for a second compact is not 
automatic, and depends on policy performance as well as strong compact 
implementation performance.
    Cape Verde's performance on MCC's eligibility indicators has been 
impressive. The country is the top performer for all lower and lower-
middle-income countries in Africa on control of corruption. To become 
eligible for a second compact following a graduation from lower to 
lower-middle-income status, Cape Verde aggressively took on necessary 
policy reforms, such as reducing the time to start a business from 52 
days to as little as 1 hour.
    Despite their policy progress, Cape Verde still has 40 percent of 
its population living on less than $2/day.
    Cape Verde achieved significant results under the first compact. I 
met the beneficiaries of MCC investments in Cape Verde last year, 
discussed the training and technologies that will allow farmers to 
prosper by transitioning to higher value crops, and I visited the 
roads, bridges, and modernized port that are spurring growth in 
commerce. All civil works were completed on time, and important policy 
reforms were achieved under the compact, including a new microfinance 
law, launching the first private credit bureau in the country, and 
lifting a 20-year embargo on agricultural produce exports from the 
country's most agriculturally productive island.
    The benefits of a second compact with Cape Verde are clear. First, 
Cape Verde's performance on the first compact demonstrated that it is a 
good partner with the United States and is committed to effectively 
employing foreign assistance funding. Second, Cape Verde serves as an 
example of an aggressive reformer committed to enacting and 
implementing the policies needed for growth. By investing in Cape Verde 
through a second compact, the United States will signal that it is also 
committed to backing countries that are pursuing smart, growth-oriented 
policies.

                            SECOND COMPACTS

    Question. How do you determine the criteria for qualifying for a 
second compact, especially in light of budgetary constraints? What is 
the justification for opting to engage with the same country in a 
second compact as opposed to creating new opportunities in other 
countries? Please also discuss the proposed second compact with Ghana 
in 2012.

    Answer. MCC's mandate is to partner with countries where 
investments will have the greatest potential returns in terms of 
poverty reduction and economic growth, and where U.S. taxpayer 
resources can be used most effectively. In some cases, the greatest 
opportunity for impact may be in deepening partnerships with existing 
MCC partner countries.
    Second compacts may present some of the best opportunities to 
reinforce the key elements of the MCC model. By being very selective in 
choosing second compact partners, MCC creates a strong incentive for 
ongoing policy and implementation performance among country partners. 
By building on lessons and experience in first compacts, second compact 
provide good opportunities for innovation and new partnerships with 
private sector and civil society. Continued engagement with a well-
performing country gives MCC the opportunity to help countries 
establish a firm path toward growth and greater private sector 
investment, and away from dependence on aid.
    MCC does not have an inherent preference for working with new or 
existing partners. The MCC Board of Directors makes decisions on which 
countries are eligible for MCC assistance. The Board's determination of 
eligible countries is based primarily on country performance on MCC 
selection indicators. In determining country eligibility, the Board 
also considers the opportunity to reduce poverty and generate economic 
growth within a country and the availability of MCC funds.
    In addition, for countries that are candidates for second compact 
selection, the Board considers each country's performance implementing 
its first compact. To assess first compact implementation performance, 
the Board considers country performance in three general areas:

  <bullet> Progress toward achieving compact results, including 
        significant progress relative to the planned compact timeline 
        and on process and output indicators, the degree to which 
        compact programs are on track to reach compact targets, and the 
        level of commitment to monitoring and evaluation plans included 
        in the compact.
  <bullet> The nature of the country partnership with MCC, including 
        political will and capacity to implement compact programs, pro-
        active management of implementation challenges, and achievement 
        of policy reforms associated with compact investments.
  <bullet> The degree to which the country has implemented the compact 
        in accordance with MCC's core policies and standards, including 
        in the areas of preventing fraud and corruption, procurement, 
        environmental impact, gender integration, monitoring and 
        evaluation, and legal provisions as defined in the compact 
        agreement and other supplemental documents.

    MCC's Board is selective when determining eligibility for 
subsequent compacts. Of the eight countries that will conclude compacts 
by the end of 2011 (Armenia, Benin, Cape Verde, Honduras, Ghana, 
Georgia, Nicaragua, and Vanuatu), MCC's Board has selected only three 
as eligible for a second compact--Cape Verde in FY10 and Georgia and 
Ghana in FY11.
    MCC's engagement with partner countries is not open-ended. MCC 
carefully considers the appropriate nature and duration of each country 
partnership based on the country's policy and implementation 
performance, as well as the opportunities to have an impact on growth 
and poverty reduction. This includes consideration of the potential 
sustainability of MCC's investments and of the country's ability to 
attract and leverage public and private resources in support of 
development. MCC's targeted, selective engagements are critical to 
ending the cycle of aid dependency, ensuring sustainability, and 
promoting country ownership.
    Ghana is a very poor country, but one of Africa's best governed. 
Ghana consistently performs well on the MCC indicator criteria. Its 
continued track record of democratic governance is demonstrated by its 
regular ranking among the top LIC performers in the ``Ruling Justly'' 
category.
    Implementation of Ghana's Compact is on track to achieve its 
objectives, and the investment is managed by a strong Ghanaian-led and 
staffed team. The Ghana Compact has already generated tangible interest 
from the private sector.
    Ghana was selected as second compact eligible in December 2010, and 
the compact development process began in 2011. The first step in the 
compact development process is for the Government of Ghana, with 
support from MCC, to conduct an analysis of binding constraints to 
growth. This analysis is still underway. Once the binding constraints 
to growth are better understood, MCC and the Government of Ghana, 
informed by a broad consultative process, will begin to set priorities 
for the second MCC compact.

                           POVERTY REDUCTION

    Question. One of the stated goals of the MCC is to reduce poverty. 
How do you assess poverty reduction in Africa, and to what extent do 
you believe your measurements--which include household surveys--serve 
as a model which can be emulated by other U.S. Government agencies and 
international institutions?

    Answer. In most contexts, it is common practice to use income 
levels that fall below some predetermined acceptable level to identify 
poor households. In development contexts, the international lines of 
$1.25 and $2 per day are generally accepted. We know that using such a 
measure misses a lot of information, but household income levels 
(usually measured using consumption expenditure information collected 
through household surveys) represent the best single indicator of 
household welfare levels.
    Using this standard, recent experience in Africa is mixed, but 
probably is a lot better than many casual observers might think. In 
fact, 17 countries with a total population of more than 300 million 
people saw their average real incomes rise by 50 percent between 1996 
and 2008. In these countries, the share of the population living on 
less than $1.25 per day fell from 59 percent in 1993 to 48 percent in 
2005. Another six countries experienced slower growth in the 13-24 
percent range. Much of this impressive performance reflects improved 
democratic and economic governance.
    Many of these countries are MCC partners, but it would be incorrect 
for MCC to claim credit for their macroeconomic successes. Instead, we 
need to look for investment-specific information that allows us to 
differentiate between the broader gains that are being generated by 
overall country performance and the increases in income that can be 
attributed to MCC programs. Household surveys are often an important 
source of such information, but in other cases, more targeted data 
collection suffices. For example, for some road investments, data on 
road quality (roughness) and traffic speeds and volume may provide an 
adequate basis for assessing impacts on local incomes.
    MCC's framework for results goes beyond surveys. The main elements, 
and those worth considering for broader use, include: (i) ex ante 
projections of results using benefit-cost analysis; (ii) monitoring of 
performance during implementation against targets; and (iii) rigorous 
independent impact evaluations, which include surveys both before and 
after, and also often include designs that allow the evaluator to 
attribute gains to the specific intervention. Although it may not be 
cost-effective to require each government expenditure to be assessed 
using such a framework, MCC has found that the clear delineation of 
program logic and expected returns imposes a useful discipline around 
investment decisions. This preparatory analysis, then, helps in 
constructing a monitoring plan that ties program input and output 
targets to the ultimate program objectives. The use of surveys and 
independent research designs to document what was actually accomplished 
satisfies MCC's strong commitment to transparency and accountability 
and to becoming a learning institution.

                               INDICATORS

    Question. Please discuss the range of inputs which inform MCC's 
assessment of indicators, and the requirement that a country must score 
above the median on performance indicators against other countries in 
their income bracket. For low-income countries, therefore, the bar is 
set quite low. Has the MCC considered changing its eligibility 
requirements?

    Answer. In keeping with MCC's commitment to aid effectiveness 
through the regular evaluation of its own practices, MCC is undertaking 
a comprehensive review of its selection process in 2011. At the time 
the selection system was established, MCC's country scorecard 
represented the most effective way to compile third-party data to 
compare policy performance as objectively as possible across the broad 
majority of low- and lower-middle-income countries. After using this 
system for 7 years, MCC believes it is appropriate to undertake a 
review to ensure that the system is remains the most effective 
indicator system for evaluating and selecting countries for 
eligibility. While the review may find that MCC should make no changes 
to the selection system, it may, alternatively, identify recommended 
adjustments.
    MCC has, and will continue to use third-party indicators to 
identify countries with policy environments that will allow Millennium 
Challenge Account funding to be effective in reducing poverty and 
promoting economic growth. MCC evaluates performance in three areas--
Ruling Justly, Investing in People, and Encouraging Economic Freedom--
using 17 independent, third-party policy indicators. MCC favors 
indicators that:

  <bullet> Are developed by an independent third party;
  <bullet> Utilize an analytically rigorous methodology and objective, 
        high-quality data;
  <bullet> Are publicly available;
  <bullet> Have broad country-coverage;
  <bullet> Are comparable across countries;
  <bullet> Have a clear theoretical or empirical link to economic 
        growth and poverty reduction;
  <bullet> Are policy-linked, i.e., measure factors that governments 
        can influence; and
  <bullet> Have broad consistency in results from year to year.

    While MCC may work with both low-income countries (LICs) and lower-
middle-income countries (LMICs), MCC is legislatively limited in the 
amount of assistance that it can provide to LMICs (no more than 25 
percent of the amount of assistance provided in a given year). LICs are 
defined as countries with a GNI per capita of less than $1,905 in FY11. 
There are 63 countries that fall into the LIC income classification in 
FY11. Among those countries, MCC is committed to working with the 
strongest performers, and the median system allows MCC to identify 
those countries. For developing countries, with attendant capacity and 
administrative challenges, the existing system is actually quite 
difficult to pass because countries must perform above the median on at 
least three indicators in each category, and must perform above the 
median on control of corruption. Over the past 4 years, only four LICs 
have passed every year (Tanzania, Lesotho, Bolivia, and Vietnam.)

                                 MALAWI

    Question. A new MCC compact with Malawi was signed last week 
despite Malawi's recent enactment of new laws that tighten restrictions 
on free speech and criminalize female homosexuality. I know that those 
measures gave the MCC pause--given the brief suspension of the compact 
by the MCC Board--but the decision was made to move forward. Please 
explain the dialogue you had with the Government of Malawi before 
signing the compact, and the degree to which it presented an 
opportunity to engage African Governments on critical social issues.

    Answer. In January 2011, the MCC Board of Directors approved a 
$350.7 million compact to support the Government of Malawi's power 
sector reform agenda, as well as to improve the availability, 
reliability, and quality of Malawi's power supply by rehabilitating key 
power generation and distribution assets and improving service to 
electricity consumers. That compact was signed on April 7, 2011.
    As you note, compact signing was delayed so that MCC could engage 
in a direct policy dialogue with the Government of Malawi about recent 
laws that could be used to restrict media freedoms and human rights
    Specifically, MCC was concerned that two clauses could be used to 
restrict media freedoms or individual human rights: a publications 
clause (section 46), which addresses the authority of the government to 
prohibit publications ``contrary to the public interest;'' and a human 
rights clause (section 137A), which criminalizes female homosexual 
conduct.
    Following a constructive, high-level dialogue in Lilongwe, the 
Malawian President and Cabinet published a statement to clarify that 
the publications clause in the amendments was intended to prohibit 
child-pornography or incitements to violence (not to restrict political 
speech). The government publically affirmed the constitutional 
protections of free speech, noting citizens' right to challenge the use 
of this law in the courts.
    With regard to the amendment criminalizing female homosexual 
conduct, MCC has taken a clear public stand that such laws are 
inconsistent with a country's human rights obligations, and with MCC's 
own policy indicators. We have made clear to the Government of Malawi 
that if Malawi criminally punishes any LGBT individuals under this law, 
MCC would begin the investigations that represent a first step in MCC's 
suspension/termination process.
    I believe MCC's actions have helped prompt a level of dialogue 
about human rights for LGBT populations in a country and a region where 
such rights are not always protected. In the President Mutharika's own 
speech at the compact signing, he described the imperative of 
``uphold[ing] freedom of choice and freedom of religion, and freedom of 
pursuit'' with regard to the transgender couple pardoned last June. To 
our knowledge, this was the first time President Mutharika has 
publically associated personal freedoms with LGBT issues.
    The Malawi compact is an investment estimated to generate $3.1 
billion in income benefits for close to 6 million Malawians. MCC is 
watching closely to see that the Government of Malawi upholds its own 
commitment to citizens' rights and freedoms. My agency has been very 
frank about this, both with the Government of Malawi, and with MCC's 
own stakeholders here in the United States.
                                 ______
                                 

  Responses of Deputy Assistant Administrator Rajakumari Jandhyala to 
          Questions Submitted by Senator Christopher A. Coons

                              FOREIGN AID

    Question #1. Why are the requested levels of funding worth the 
investment for the U.S. taxpayer, and what metrics do you use to 
measure aid impact and effectiveness?

    Answer. The United States has significant political, economic, and 
humanitarian interests in Africa. Disease and conflict know no borders, 
and undeveloped markets limit the potential of global economic growth. 
At the same time, we cannot turn our backs on those in need; the 
American people demonstrated their overwhelming commitment to help 
those in crisis through outpourings of donations after the earthquake 
and tsunami in Japan, the earthquake in Haiti, and other recent 
disasters. Assistance is an American value.
    USAID's efforts focus on responding to crises, combating disease 
and improving public health, helping to address transnational threats 
and challenges, strengthening democratic institutions and protecting 
the democratic gains of African countries, fostering broad-based and 
sustainable economic growth, and preventing, mitigating, and resolving 
armed conflict.
    Since 1998, dozens of African countries have embraced democratic 
rule. Today, 9 of Africa's 48 states are regarded as full democracies 
while 23 others are regarded by Freedom House as partial democracies. 
This is a remarkable achievement given that 30 years ago military 
dictatorships and one-party states predominated throughout the 
continent and we believe our sustained efforts to support democracy 
both diplomatically and through our assistance programs have played a 
key role in this success.
    The number of conflicts that preoccupied Africa and the 
international community over the past decade has been sharply reduced. 
USAID employs a range of conflict mitigation and peace and 
reconciliation activities in Africa. In FY 2010, support to conflict 
mitigation and reconciliation in the region totaled approximately $63 
million, with the majority of funding to the Democratic Republic of 
Congo, Ethiopia, Somalia, and Sudan. USAID also supports conflict early 
warning and prevention mechanisms in Kenya and through the Economic 
Community of West African States, the East African Inter-Governmental 
Authority on Development, and the African Union to analyze conflict 
trends and position resources to mitigate violence before it starts. 
African leaders recognize the negative impact of violent conflicts on 
their region and many of them demonstrate a willingness to assume 
greater responsibility for preventing and responding to conflicts. The 
participation of African states in subregional peacekeeping missions 
and the African Union's commitment to the establishment of five standby 
brigades across the continent attest to this fact. The African Union's 
principled stance opposing violent coups is another positive 
development, and USAID has been strengthening its coordination with the 
African Union with programming focused on conflict prevention, 
democracy and governance, food security, and health.
    Africa's economies have also made measurable strides. African 
governments have liberalized their economies, embraced market reforms 
and adopted probusiness policies. Prior to the onset of the global 
financial crisis in 2008, Africa enjoyed nearly a decade of steady 
economic growth, averaging over 5.3 percent a year. Although much of 
this growth was driven by oil and gas exports, and the rise in mineral 
and commodity prices, significant policy changes by African 
governments, an upsurge in agricultural exports, and the expansion of 
Africa's entrepreneurial middle class also played a major role in this 
turnaround. USAID's priority is fostering this sustainable, broad-based 
economic growth--one of the fundamental forces that will eventually 
transform the developing world, by accelerating development and 
eradicating poverty. We envision a world where private sector 
investment drives sustainable growth and market-led development 
replaces foreign assistance.
    Strengthening democratic institutions remains our most important 
policy priority, as weak governance dampens economic activity, 
undermines development progress, and can require costly humanitarian 
interventions. Democracy is a long-term process as opposed to a single 
event such as an election. We will continue to work in partnership with 
African governments and civil society organizations to strengthen their 
democratic institutions and to protect democratic gains. In Africa, 
USAID is working to combat corruption, and human rights violations by 
abusive governments and other nonstate actors. We encourage the 
development of independent judiciaries, strong legislative bodies, 
independent media, robust civil societies, and transparent budgets and 
elections. We help countries address technical, organizational, and 
political aspects of the election cycle. And we work to reverse 
democratic stagnation, military coups, and attempts by sitting 
presidents to illegally extend their mandates.
    The Millennium Challenge Corporation (MCC) and the African Growth 
and Opportunity Act (AGOA) work to accelerate Africa's economic 
development and encourage progrowth policies. Our efforts through AGOA, 
which gives African countries duty-free access to the U.S. market, 
focus on diversifying African exports away from petroleum products. 
Supporting trade capacity-building assistance, integration efforts that 
eliminate regional trade barriers, and enhanced transportation 
infrastructure are important to assisting Africa to increase its share 
of world trade.
    Africa's poverty puts it at a distinct disadvantage in dealing with 
major global and transnational problems like health pandemics, food 
shortages, and the illegal exploitation of maritime and mineral 
resources. Narcotics trafficking is an increasing problem in west 
Africa and could become a major destabilizing force if it is not 
stemmed. Africa is also acutely vulnerable to climate change, the 
effects of which will impact all areas, from food security and health 
to conflict and market access. USAID is leading efforts to ensure that 
African countries can adapt to climate change as they grow their 
economies. We help partner nations implement low-carbon development 
strategies to guide investment as well as to take concrete steps to 
achieve sustainable low-carbon growth. As Africa faces the impact of 
these transnational challenges, we must be equally active in working 
with leaders and governments across the continent and international 
partners to address issues that are global in nature, not just specific 
to Africa.
    USAID recognizes the need to focus our resources to maximize the 
impact of our assistance. Our programs focus on six African states 
facing major humanitarian problems or recovering from serious conflict: 
the Democratic Republic of the Congo, Kenya, Liberia, Somalia, Sudan, 
and Zimbabwe. We are also providing continued significant support to 
Ethiopia, Nigeria, and South Africa because of their importance in 
advancing regional security and economic growth. These nine countries 
play a major role in determining the prospects for conflict or 
stability and development in their regions, making them critical 
priorities for U.S. investments. USAID is also supporting the 
relatively well-performing countries of Ghana, Mali, Mozambique, and 
Tanzania to strengthen local governance and accountability to 
consolidate and deliver the dividends of democracy.

                                CR CUTS

    Question #2. How will proposed budget cuts in the continuing 
resolution, or CR, impact the administration's ability to implement its 
policy agenda and priorities in Africa this fiscal year?

    Answer. The President's FY 2011 request for Africa was robust, and 
we acknowledge that actual levels may be less than the request. State 
and USAID's central budget offices are currently reviewing the FY 2011 
appropriation language and funding levels, and have not yet made bureau 
or country-specific allocation recommendations. However, as levels are 
developed, the focus will be to ensure that the President's priorities 
in food security, health, and climate change are addressed, as well as 
ensuring that joint State/USAID priority focus countries receive 
appropriate funding.

                              INTERAGENCY

    Question #3. Describe levels of interagency coordination in 
developing the budget request for Africa.

    a. To what degree have you embraced a whole of government approach 
when implementing an Africa strategy?
    b. Secretary Carson and Deputy Assistant Administrator Jandhyala, 
please detail areas of cooperation between State and the Department of 
Defense--specifically, AFRICOM.

    Answer. Collaboration begins with a shared strategic vision with 
jointly agreed upon priorities for Africa. These are:

  <bullet> Strengthening democratic institutions and protecting the 
        democratic gains of African countries;
  <bullet> Fostering broad-based and sustainable economic growth;
  <bullet> Combating disease and improving public health;
  <bullet> Preventing, mitigating, and resolving armed conflict; and
  <bullet> Helping to address transnational threats and challenges.

    The initial input for developing the budget request comes from the 
Chiefs of Mission at each sub-Saharan Africa post in response to these 
goals through a Mission Strategic Resource Plan (MSRP). This plan 
reflects the input of all U.S. Government (USG) partners at post, and 
lays out a USG-wide approach for meeting the development and diplomatic 
challenges in each country. Reviews of these MSRPs are conducted in 
Washington, program and funding decisions are made, and a joint State/
USAID Africa budget submission is prepared. State Africa Bureau and 
USAID Africa Bureau work hand in hand throughout the budget development 
process, from the start of the request in the field to the development 
of final requests for the President.
    Other USG partners are included throughout the process as 
appropriate for their area of focus. For example, under the Global 
Health Initiative, and particularly through the President's Emergency 
Plan for HIV/AIDs Relief, State and USAID are joined by Health and 
Human Services' Centers for Disease Control, the Department of Defense 
and the U.S. Peace Corps in developing a comprehensive multiagency 
response to the HIV/AIDS pandemic. The Feed the Future initiative 
leverages a range of resources from across the U.S. Government in a 
shared effort to sustainably reduce global hunger and poverty. In 
Washington, the interagency Feed the Future team includes members from 
USAID; the Departments of State, Agriculture, and Treasury; Peace 
Corps; Millennium Challenge Corporation; Office of the U.S. Trade 
Representative; U.S. African Development Foundation; and the White 
House through National Security Council, Office of Management and 
Budget, and Office of Science and Technology Policy. In the field, 
USAID missions engage and coordinate with relevant agencies at post to 
harness all available food security resources towards the goals of Feed 
the Future.
    This collaboration continues throughout the implementation of 
programs, with the submission of a joint State/USAID Operational Plan 
to detail programming of current year appropriations, and a joint 
State/USAID Performance Report on results achieved in the previous 
fiscal year. These efforts are reflected in the joint State/USAID 
Annual Performance Report covering activities worldwide.
    The USAID Administrator and the Secretary of State serve as board 
members for the Millennium Challenge Corporation (MCC), along with 
other principals from the interagency community including the Secretary 
of Treasury, the U.S. Trade Representative, and more--which provides 
the highest level forum to ensure that our respective resources are 
brought to bear on common objectives that both increase the impact of 
developmental objectives and optimize stewardship of U.S. resources. 
Examples of USAID and MCC collaboration include:

  <bullet> In Mali's ongoing $461 million Compact, USAID is working 
        with MCC to advance work in land tenure and administration. 
        Through the Feed the Future initiative, USAID and MCC work in 
        complementary ways to strengthen local membership-based 
        organizations for adoption of agricultural best practices and 
        appropriate water management.
  <bullet> In Burkina Faso, USAID directly administers the education 
        component of the $481 million Compact ($28.9 million), 
        implementing the second phase of a girls' primary school 
        education program, which assists 132 communities throughout 
        Burkina Faso's rural areas.
  <bullet> In Tanzania, a 5-year, $698 million Compact, USAID and MCC 
        are collaborating to provide HIV/AIDS and other health services 
        to construction workers and communities, and to mitigate the 
        environmental impacts of MCC-funded infrastructure projects. 
        Feed the Future draws upon MCC infrastructure project and 
        procurement experience in local and international markets. 
        Also, regional roads funded by MCC will greatly facilitate 
        trade in target Feed the Future areas.

    USAID and the Departments of State and Defense collaborate on 
issues of diplomacy, development, and defense, and this cooperation is 
fully operationalized at the U.S. Africa Command (AFRICOM). Security is 
essential for long-term development to take place, and development is 
critical for security to be sustained. Therefore, civil-military 
cooperation with AFRICOM is a vital part of a ``3D'' (diplomacy-
development-defense) effort to achieve U.S. national security 
objectives. This cooperation takes the form of interagency staff 
liaisons and coordinated programming on three different levels: (i) in 
Washington, DC, (ii) in Stuttgart, Germany (AFRICOM headquarters), and 
(iii) on the African Continent.
    In Washington, a liaison officer from AFRICOM serves in USAID's 
Office of Military Affairs, in the Bureau for Democracy, Conflict, and 
Humanitarian Assistance. In addition, a development officer in USAID's 
Bureau for Africa conducts civil-military coordination full time with 
AFRICOM and other Department of Defense offices active in Africa. In 
addition to these staff exchanges, senior staff from USAID's Bureau for 
Africa regularly interact with their AFRICOM counterparts as well as 
with the Deputy Assistant Secretary of Defense for Africa. In one 
recent example, USAID Deputy Assistant Administrator for Africa, Raja 
Jandhyala, participated in an interagency forum to discuss AFRICOM's 
defense posture, advising the command on ways to optimize its resources 
to support both its security mission and USAID's development mission.
    In Stuttgart, a USAID Senior Foreign Service officer serves as the 
Senior Development Advisor to the AFRICOM Commander. A second USAID 
officer heads AFRICOM's Health and Humanitarian Assistance Branch in 
the Strategy, Plans, and Programs Division. Finally, an officer from 
USAID's Office of U.S. Foreign Disaster Assistance serves in AFRICOM's 
Operations and Logistics Division.
    USAID's Senior Development Advisor works on a daily basis with 
AFRICOM's senior leadership and participates actively in the command's 
planning and operations activities, in conjunction with State 
Department's Foreign Policy Advisor, to ensure that USAID missions in 
Africa are fully aware of and coordinating with current and proposed 
AFRICOM activities.
    USAID's Director of AFRICOM's Health and Humanitarian Assistance 
Branch is the only USAID officer in any combatant command that directly 
supervises military personnel and oversees military programs. The 
branch's Pandemic Response Program, funded by USAID, enables AFRICOM to 
assist African militaries to improve their pandemic planning and 
response capabilities. This team and USAID's officer in the Operations 
and Logistics Division created a Disaster Planning and Preparedness 
Program funded by AFRICOM to build African partner nations' capability 
to respond to natural and man-made disasters, using a coordinated 
civil-military approach.
    USAID's AFRICOM team has clarified roles and responsibilities of 
the agencies in support of humanitarian assistance. This was especially 
important during Operation Odyssey Dawn in Libya, as well as during 
planning efforts for the Democratic Republic of the Congo, Somalia, and 
Sudan.
    On the African Continent, the Combined Joint Task Force Horn of 
Africa (CJTF-HOA) assigns liaison officers at a number of USAID 
missions in east Africa and invites USAID to advise and coordinate on 
CJTF-HOA civil affairs projects throughout the region.
    One best practice that has emerged from USAID-AFRICOM cooperation 
is the recent opening of the Guistir clinic in a remote corner of 
Djibouti, near the border with Somalia. Civil-military planning in 
Djibouti is an interagency effort that places the Government of 
Djibouti in the lead of identifying programs that advance its own 
development goals. A string of cemeteries lines the road from Guistir 
to the next town, 20 kilometers to the west, where the nearest clinic 
was located; each grave represents a sick patient, perhaps a young 
mother in labor, who did not survive the journey. Since CJTF-HOA 
constructed the clinic in Guistir and USAID helped Djibouti equip and 
staff it, clinic staff have said they expect no more cemeteries would 
be needed along that road--a prime example of USAID's development 
leadership simultaneously contributing to CJTF-HOA's military 
objectives in the Horn of Africa.

                                 CHINA

    Question #4. Describe the extent and nature of China's influence in 
sub-Saharan Africa, and the degree to which it impacts America's role 
in the region.

    a. Are there areas of cooperation we have not fully explored with 
China that may allow us to better meet shared regional goals?
    b. What steps are we taking to mitigate areas of tension with China 
in Africa?
    c. How are U.S. businesses faring in Africa given the economic 
competition with China?

    Answer. China plays a significant role in Africa's economic and 
human development, particularly through trade and infrastructure 
development--roads, ports, and health facilities--that could help 
increase farmers' access to markets, improve regional trade 
integration, and improve health outcomes, which is in line with the 
U.S. Government's priority investments in Africa.
    Over the past several years, USAID has engaged the Chinese around 
development and humanitarian issues in Africa both bilaterally through 
annual high-level dialogues (U.S.-China Strategic and Economic 
Dialogue; U.S.-China Sub-Dialogue on Africa) and multilaterally through 
the China Organization for Economic Cooperation and Development (OECD) 
Development Assistance Committee. USAID, like many other donors, has 
been working to establish a regular development dialogue with China. 
Chinese officials have agreed verbally to explore collaboration with 
USAID in the health and agriculture sectors, with a special focus in 
Africa. However, progress has been slow.
    On the margins of the May 2010 U.S.-China Strategic and Economic 
Strategic and Economic Dialogue, USAID Administrator Shah met with 
China's Ministry of Health, Division of International Cooperation 
senior staff and discussed potential cooperation in select African 
countries in health and food security. We reached an agreement to 
conduct a joint assessment in health in Ghana and Liberia. The 
assessment was conducted in December 2010 and findings presented at the 
China-Africa International Health Conference in February 2011. The 
assessment allowed Chinese and U.S. health experts to examine jointly 
malaria, maternal health, and other public health programs, to 
determine how China and the United States could work together for 
greater development impact. The assessment concluded with a very strong 
recommendation, voiced by African health ministries and supported by 
representatives from key international organizations, that closer 
communication and collaboration between China, bilateral donors and 
other international organizations offered the potential to integrate 
China's strengths as a partner in health into an effective African-led 
health planning and coordination system. We are encouraged that the 
Chinese Government has allowed representatives from government-
affiliated think tanks to collaborate with USAID with the intent to 
improve health outcomes in Africa. Through this cooperation we hope to 
improve our understanding of Chinese foreign assistance structure, 
objectives, and goals to formulate an effective engagement process and 
mechanism to address issues that directly or indirectly affect overall 
U.S. foreign assistance programs and policies as a result of China's 
development activities in Africa and around the globe.
    In March 2011, USAID and the State Department held a food security 
and agriculture development workshop in Beijing that brought together 
United States and Chinese and U.S. agricultural and development policy 
experts to exchange information and discuss potential areas of 
collaboration, objectives, and complementarities. These modest 
collaborative efforts hold the potential in the long term to help 
developing countries, particularly in sub-Saharan Africa, make the best 
strategic use of opportunities and resources that China brings in 
support of economic growth and poverty reduction. Improvements here are 
particularly important in the agricultural sector, given the current 
significant levels of U.S. and international investment in support of 
the Comprehensive Africa Agriculture Development Program (CAADP).
    We would like to encourage China to implement internationally 
agreed standards through mechanisms such as the Extractive Industries 
Transparency Initiative, World Health Organization recommendations on 
good quality malaria drugs, the 2005 Paris Declaration on Aid 
Effectiveness, and 2008 Accra Agenda for Action on issues such as 
transparency, harmonization, ownership, and alignment.
    In 2009-10, China provided $110 billion in loans to developing 
countries and the private sector, compared to the World Bank's $100 
billion. As the largest provider of infrastructure financing in Africa, 
China is making a substantial contribution to economic development If 
managed well, China's assistance could help push Africa toward 
attaining the Millennium Development Goals. However, if managed poorly, 
achievements could erode and further weaken economic growth and poverty 
reduction efforts.

                            FEED THE FUTURE

    Question #5. In 2009, President Obama pledged $3.5 billion over 3 
years to address global hunger and poverty, and a year later launched 
the Feed the Future Initiative. Twelve of the twenty Feed the Future 
focus countries are located in sub-Saharan Africa, and the FY11 budget 
request was the first to specifically include Feed the Future.

    a. How is USAID implementing the Feed the Future effort in light of 
the reduction of funding in the CR?
    b. How much closer does the FY12 budget request bring us toward 
achieving the goals established by the President in 2009?
    c. What steps are being taken to encourage other donors to increase 
their pledges to fight global hunger?

    Answer. Feed the Future (FTF) embraces the country-led approach to 
developing and implementing agriculture and rural development 
investment plans, which increases the efficiency and impact of donor 
resources. In Africa, the Comprehensive Africa Agriculture Development 
Program (CAADP) processes integrate donors into the planning process 
and CAADP country investment plans have improved coordination, 
alignment, and harmonization of donor resources.
    In the past 2 years, FTF implementation progressed rapidly. In West 
Africa, for example, USG investments in food security facilitated a 5-
percent increase in intraregional trade in three value chains--maize, 
onions, and livestock--by strengthening market information systems, 
holding trade-related events, and providing technical assistance to 
producers, trader organizations, and agriculture-related firms.
    Half of the FY 2012 request for USAID and State Feed the Future 
activities is prioritized and concentrated in 20 focus countries with 
the political and investment environment that will produce the greatest 
impact in reducing global hunger and poverty. Of the $568 million 
requested for the 20 focus countries, we have further prioritized this 
request by requesting $284 million for five countries: Bangladesh, 
Ghana, Rwanda, Tanzania, and Uganda. In addition, FTF implementation is 
concentrating available resources based on policy, socioeconomic, and 
impact assessments conducted by U.S. Government country teams. The 
results of these assessments guide FTF investments to areas where there 
would be the greatest impact given available resources. FTF 
implementation is concentrating available resources. Specifically, 
investments are focusing on select crops, such as rice, sorghum, and 
millet in Mali, and legumes and dairy in Malawi, that would yield the 
greatest impact in securing broad-based reduction of poverty--
particularly among women--and increasing nutritional outcomes for the 
most vulnerable. Investments are also geographically focused in regions 
with the greatest agricultural potential and beneficiary impact, and 
where overlapping regional benefits from existing U.S. Government 
programs have the potential to enhance outcomes.
    Feed the Future also works to increase donor funding for 
agriculture-led growth. In line with the objectives of the 
administration's food security initiative, the U.S. Government 
supported the creation of the Global Agriculture and Food Security 
Program (GAFSP) trust fund which pools donor funds to provide an 
additional, unified source of financing to support sustainable food 
security strategies for those developing countries which demonstrate 
their commitment to addressing the food security needs of their 
population. The U.S. contributions to the GAFSP are leveraged by 
significant contributions from other donors.
    At the G8 summit in July 2009, President Obama pledged to provide 
at least $3.5 billion over 3 years (FY 2010-12) to attack the root 
causes of global hunger through accelerated agricultural development 
and improved nutrition. The U.S. Government commitment leveraged more 
than $18 billion in support from other donors, creating the financial 
capacity to significantly reduce the number of people living in extreme 
poverty and suffering from hunger and undernutrition. The President's 
FY 2012 budget requests $1.4 billion for State, USAID, and Treasury to 
meet the President's pledge.
    Like other donors, the United States is facing a tight budget 
environment. Nevertheless, we are still on track to meet our L'Aquila 
commitment of $3.5 billion over 3 years. To date, the United States has 
provided $813 million in FY 2010 funding to meet the L'Aquila 
commitment.
    Feed the Future establishes the United States as a political and 
moral force in the fight against hunger and poverty. The President's 
pledge at L'Aquila catalyzed over $18 billion in commitments from other 
donors and institutions in support of food security. Our global 
leadership on this issue has brought various donors to the table in the 
country-led processes for developing and implementing investment plans.
    More important than ``new'' versus ``old'' money is ensuring that 
pledges will be spent in support of the principles we all embraced at 
the 2009 G8 summit. We are encouraging other donors to ensure that is 
the case, as it is with our own pledge. Bilateral and multilateral 
development partners are working together to establish a mutual 
accountability framework, aimed at holding the partners accountable to 
each other at the global level; as well as development partners and 
beneficiary countries accountable to each other. The L'Aquila summit 
donors have provided breakdowns of their own pledges, which were 
compiled in a reporting tool designed by the Organization for Economic 
Cooperation and Development. This information is included in the G8 
Accountability Working Group's report, released at 2010 G8 summit in 
Muskoka, Canada.
    In addition, the United States-European Union development dialogue 
is pushing donor coordination and leveraging even further. Under the 
development dialogue we have agreed to work together in five pilot 
countries--Ethiopia, Mali, Zambia, Bangladesh, and Guatemala--and one 
region--ECOWAS (Economic Community of West African States). In these 
focus countries and region, the United States and European Union are 
jointly analyzing and reviewing country and regional plans, 
coordinating outreach to the private sector, jointly financing the 
CAADP Multi-Donor Trust Fund, and coordinating the provision of 
technical support for the development of country and regional 
investment plans.

    Question #6. Describe the process by which USAID selected the 12 
African focus countries for the Feed the Future initiative, especially 
because the initiative criteria extends beyond food insecurity. To what 
degree does governance and institution-building factor into your 
calculations in terms of a countries ability to effectively absorb 
funding?

    Answer. Focus countries were selected based on five factors related 
to the needs and opportunities for reducing food insecurity:

  <bullet> Level of Need: We assessed the level of need based on four 
        primary factors (1) income levels, (2) poverty rates, (3) the 
        Global Hunger Index (compiled by International Food Policy 
        Research Institute [IFPRI] in conjunction with Deutsche 
        Welthungerhilfe and Concern Worldwide), and (4) IFPRI's 
        categorization of level of food security. The Global Hunger 
        Index uses three equally weighted indicators to represent a 
        multidimensional measure of global hunger--the proportion of 
        undernourished as a percentage of national population, 
        prevalence of underweight children under the age of 5, and 
        mortality in children under 5.
  <bullet> Opportunity for Partnership: We sought to work in countries 
        that place a high priority on food security for all of their 
        citizens and that are committed to working in partnership with, 
        among others, donors, civil society, international 
        organizations, and the private sector. Our assessment was based 
        on a range of factors, including basic political stability and 
        the absence of conflict, the quality of governance, the overall 
        economic policy environment, and the commitment to design and 
        implement a high-quality strategy to enhance food security.
  <bullet> Potential for Agriculture-led Growth: Within our strategy, 
        the principle mechanism for reducing extreme hunger and poverty 
        is agricultural-led growth. Thus, we prioritized countries 
        where poverty is still predominantly rural and where there is 
        significant potential for improvements in agricultural 
        productivity and market development.
  <bullet> Opportunity for Regional Synergies: We prioritized countries 
        that present strong opportunities to strengthen regional trade 
        and development corridors, integrate markets and accelerate 
        regional growth, and play a major role in regional trade.
  <bullet> Resource Availability: A central tenet of our strategy is 
        that creating lasting progress in food security will require 
        deep investments in agricultural, economic, and social systems. 
        To achieve this, our resources are concentrated in a set of 
        countries that have committed a substantial proportion of their 
        own resources to provide the level of support necessary to 
        catalyze growth and significantly contribute to accelerating 
        progress toward the MDGs. We are committed to coordinating with 
        development partners to leverage additional resources, but 
        recognize that prioritization and strategic choices are still 
        required due to resource constraints.

    USAID has also embarked on an ambitious reform effort, USAID 
Forward, to change the way we do business--with new partnerships, an 
emphasis on innovation and a relentless focus on results. FTF aligns 
with USAID Forward principles to provide grants to more and varied 
local partners, and to create true partnerships to create the 
conditions where aid is no longer necessary in the countries where we 
work. FTF host country systems are assessed for their capacity to 
effectively implement food security programs. Based on findings, USAID 
will use host country systems to implement FTF programs. In cases where 
a FTF focus country's institutions do not have the capacity to 
effectively implement food security programs, FTF investments will help 
strengthen local systems to produce efficient local governments, 
thriving civil societies and vibrant private sectors able to manage 
USAID investments.

                   ASSISTANT ADMINISTRATOR FOR AFRICA

    Question #7. What limitations have been placed on USAID's work in 
Africa given the absence of an Assistant Administrator?

    Answer. There are not limitations on our work in Africa, but the 
absence of a Senate-confirmed Assistant Administrator is less than 
ideal. Our White House and Agency leadership are aggressively working 
to identify a candidate. In the interim, we currently have two talented 
and experienced Deputy Assistant Administrators managing the Africa 
Bureau. The Senior Deputy Assistant Administrator in charge of the 
Bureau is a Senior Foreign Service officer with over 20 years of 
experience on the continent. A third Deputy Assistant Administrator 
will come on board soon.

                             GLOBAL HEALTH

    Question #8. Advances in medical research around the world have led 
to the development of new, effective vaccinations that address some of 
the most pressing disease plagues facing sub-Saharan Africa. Given 
USAID's large role in implementing the Global Health Initiative, please 
describe how the budget request for FY12 will enable distribution of 
these lifesaving treatments. The administration emphasizes increasing 
``country ownership'' of U.S. health assistance programs.

    a. What does this mean in the context of Africa, where many 
governments are unable to assume significant financial control over 
global health programs in the near term?
    b. What type of investments might advance efforts to build African 
countries' capacity to sustain U.S. global health programs?
    c. What types of U.S. activities, if any, do you believe may 
complicate country efforts to assume greater control?

    Answer. The implementation of the Global Health Initiative (GHI) is 
guided by several approaches that will optimize the development and 
distribution of lifesaving treatments, including an emphasis on 
accelerating results through research and innovation, strengthening and 
leveraging key partnerships, and strengthening health systems. The FY 
2012 budget request reflects a comprehensive and integrated global 
health strategy to implement GHI by expanding the reach of our 
investments in the President's Emergency Plan for AIDS Relief (PEPFAR), 
the President's Malaria Initiative (PMI), maternal and child health, 
family planning, tuberculosis, neglected tropical diseases, and other 
programs, by tying individual health programs together in an 
integrated, coordinated system of prevention and care. This strategy 
will save lives while fostering sustainable health care delivery 
systems that can address the full range of developing country health 
needs.
    USAID supports research though its programs and through 
multilateral organizations to determine the most effective ways to take 
advantage in the field of advances in medical technology. Active 
measures to share learning and best practices among U.S. Government 
health staff and implementers encourage adjustments that keep U.S. 
assistance at the forefront of technological effectiveness.
    Under USAID Forward and the GHI principles, USAID is implementing a 
worldwide program to strengthen the capacity of government institutions 
to manage the financial resources in a transparent and accountable 
manner--to use country systems. As this capacity is developed, USAID 
will provide resources to the governments in an incremental manner even 
in the short run. Also, in strengthening countries' ability to make 
sound health financing policy, USAID has over 15 years of experience in 
developing the capacity of the countries to measure the flow of health 
expenditures using national health accounts. USAID assistance to build 
capacity in resource tracking and develop financial management systems 
has been successful in many African countries, especially in Kenya and 
Rwanda.
    Throughout Africa, USAID supports countries' role in health sector 
planning and strategy development, where country leaders develop and 
own the priority-setting process, often leading to a comprehensive, 
sectorwide plan for health development (or SWAp). USAID participates 
fully in the SWAp process for planning and priority setting in African 
countries, often being selected to serve as lead donor in the SWAp 
meetings. USAID's longstanding technical leadership in health sector 
monitoring and survey statistics, such as through the signature 
Demographic and Health Survey, is relied on in many countries for 
tracking progress under the country's SWAp. USAID supports technical 
assistance in many countries for preparation of analyses used in SWAp 
planning.
    USAID has a long history of strategic investments in health systems 
strengthening, providing assistance building management and 
policymaking capacity to countries in all the key functional areas: 
human resources, pharmaceutical management and logistics, strategic 
information, health financing, health governance and leadership, and 
service delivery. (See also the USAID Report to Congress on Health 
Systems Strengthening.)
    Under GHI, USAID places a high priority on strengthening the 
management of health programs, moving away from an earlier era when 
programs often were led by individuals with only clinical training and 
without formal training in health management or finance. For example, 
USAID provided assistance to Kenya for a comprehensive review of 
management weaknesses in the Ministry of Health. In response, USAID/
Kenya is supporting a large-scale program to provide management 
training to the health professionals. In other African countries, USAID 
is also placing a much stronger emphasis on strengthening the capacity 
of the health ministries in general and financial management in 
particular.
    Some observers see a tradeoff between quick implementation of 
program activities and building country-owned institutions and 
individual managers' capabilities. This is a false dichotomy. Through 
GHI, USAID encourages achievement of ambitious goals for improved 
health and country-led programs, which emphasizes countries' ownership 
of planning, execution, and monitoring of results. USAID Forward 
supports the use of country systems, harmonization of aid mechanisms 
among donors, and unified tracking and monitoring processes. USAID 
staff members routinely consult with partner country leaders and 
managers to ensure we are following country priorities.
    In all countries with weak health systems, USAID supports 
initiatives to building their public sector and private sector capacity 
for planning and management. This is a deliberate and long-term process 
which, over time, will permit countries to assume greater and greater 
control. In many African countries, USAID supports local universities 
and other institutions to build their capacity to train key health 
management and policy staff members, and provide consultations and 
advice to build systems.

                                FOOD AID

    Question #9. Please describe the relationship between Feed the 
Future and U.S. emergency and humanitarian food aid programs, 
especially since Africa receives the largest share of both agricultural 
development assistance and emergency aid.

    a. What are the linkages between the strategy and delivery of these 
two types of programs?
    b. What measures are in place to avoid duplication of efforts?

    Answer. The United States will continue to provide food aid during 
times of crisis, but a lasting solution to hunger requires a long-term 
commitment to agricultural growth. Agricultural growth fosters economic 
growth, reduces poverty, improves health, and is necessary to meet the 
needs of a growing world population in the face of climate change and 
other environmental challenges. The U.S. Government's Feed the Future 
(FTF) initiative addresses the root causes of hunger that limit the 
potential of millions of people, using a combination of bilateral 
programs and multilateral mechanisms. FTF promotes growth in the 
agriculture sector, facilitates local and regional trade, and invests 
in game-changing innovations and technologies to support productivity 
increases, so that countries are better able to combat hunger, feed 
their people, and contribute to stable global food supplies.
    One of the key principles of FTF is to support country-led 
agriculture and food security efforts, including in the development of 
country-owned food security strategies and investment plans, with 
participation from U.S. food assistance implementing partners and their 
local counterparts. In sub-Saharan Africa, this support is provided 
within the framework of the Comprehensive Africa Agriculture 
Development Program (CAADP), a continent-wide, African Union-led 
commitment to agriculture that is changing the way governments, donors, 
private sector and other stakeholders invest in agriculture and food 
security. At least 22 CAADP compacts and 19 CAADP country investment 
plans have been developed in Africa.
    Through these country-led strategies, FTF collaborates with other 
U.S. agricultural programs, such as Food for Peace, to ensure 
efficiency and the greatest impact at the country level. Sub-Saharan 
Africa receives approximately three-fourths of worldwide USAID-managed 
food aid with 80 percent of food aid funding going to six countries. 
During FTF strategy development, USG country teams analyzed current 
country humanitarian food aid programs in the design of their FTF 
strategy, targeting regional interventions that are complementary to 
humanitarian food aid programs.
    The administration's FY 2012 budget requests $79 million for a 
Community Development Fund (CDF), which will play a catalytic role in 
bridging humanitarian and development assistance. CDF investments will 
fund community-based interventions aimed at increasing the economic and 
nutritional resilience of the rural poor and accelerating their 
participation in economic growth. Examples of activities that we expect 
to support within integrated community development projects include 
nutrition education, livelihood diversification, microcredit and 
savings, conservation agriculture and other interventions adapted to 
preserve natural resources, and vocational education. Increased 
emphasis will be placed on building local capacity to manage risk and 
protect community and household assets.

                              INITIATIVES

    Question #10. How does Feed the Future, with its emphasis on 
sustainable agricultural development, and the Global Climate Change 
Initiative--or GCCI--collaborate and become mutually reinforcing 
initiatives in Africa, a region that faces significant food security 
issues and potentially devastating effects from climate change?

    Answer. Climate change is inextricably linked to food security 
because of its wide-reaching impact on agriculture and landscapes. 
Studies carried out by USAID's Famine Early Warning System Network 
(FEWS NET) have found that total rainfall in east Africa for example 
has never been lower than over the last 5 years. Since 1980, total 
rainfall during east and southern Africa's long rainy seasons has 
declined an estimated 15 percent. How small-scale farmers are able to 
adapt to these challenges is an important consideration for USAID.
    Under the Feed the Future initiative, USAID will invest in specific 
adaptive strategies such as sustainable agroecological methods and 
research into drought-resistant seeds. Of the $145 million in 
agriculture research and development requested in the FY 2012 budget 
for Feed the Future, $87 million will be spent in sub-Saharan Africa to 
increase productivity through breeding and genetics research for major 
food crops such as maize, sorghum, and rice, and to integrate adaptive 
technologies and practices in the production of various crops. 
Furthermore, there is potential for significant mitigation from 
agricultural lands through agroforestry and the adoption of perennial 
crops, which sequester carbon and reduce other agricultural based 
emissions, but also danger that agriculture will contribute to 
degredation of natural resources. Feed the Future will integrate 
indicators related to natural resource management and climate 
resilience into the monitoring and evaluation system to track the 
impact of agricultural productivity gains on resource management and 
climate mitigation within the initiative to provide information in case 
program modification is necessary.
    Farmers across the Sahel have had to adapt to climatic variability 
for decades, and they have been a model for USAID as we develop and 
scale up Feed the Furture adaptation techniques. Over the last 25 
years, as land pressure and variability increased, Sahelian farmers 
adapted by turning to natural forest management. Trees are less 
susceptible to rainfall fluctuations, and tree products such as fruits, 
gums, and wood can find ready domestic and export markets. Niger's 
farmers are managing nearly 5 million hectares of farm forests, which 
were simultaneously yielding tree products and improving soil 
productivity. During the aftermath of Niger's 2005 drought and food 
crisis, one study found that villages that had established farm forests 
suffered no increase in child mortality, and while unable to produce 
grains, these villages were still able to sell tree products to 
purchase food. By adapting to their changing environment, Niger's tree 
farmers found a way to survive through a drought crisis--which, in the 
coming years, may unfortunately become less of an anomaly and more of a 
regular cycle.
    However, integrating adaptive strategies of this type into food 
security programs on the ground will only get us so far. Two elements 
of the Global Climate Change Initiative will improve and reinforce the 
on-the-ground field work critical to the success of the Feed the Future 
initiative:

  <bullet> Improving access to science and analysis for decisionmaking: 
        Information and tools help nations and communities estimate the 
        probability of different kinds of climate effects and project 
        their likely impacts, assess the relative costs and benefits of 
        different interventions, and find ways of encouraging adoption 
        of the most cost-effective innovations. USAID invests through 
        the global climate change initiative in scientific capacity, 
        improved access to climate information and predictions, and 
        evidence-based analysis to identify vulnerable sectors, 
        populations, and regions and to evaluate the costs and benefits 
        of potential adaptation strategies. These investments will 
        result in better-informed choices among decisionmakers and 
        increase the probability of success in reducing vulnerability 
        to climate change. ``Decisionmakers'' includes government 
        policymakers at all levels, communities, farmers, firms and 
        entrepreneurs, and households.
  <bullet> Improving governance systems around adaptation to climate 
        change: Good decisions do not just require good science and 
        analysis. USAID is supporting efforts to integrate climate 
        information and analysis into inclusive, transparent 
        decisionmaking processes, effective governmental coordination 
        that is responsive to the needs of local constituents, improved 
        public communication and education, and strengthened community, 
        civil society, and private sector engagement. We will support 
        processes that include a broad range of host-country 
        stakeholders, including women, vulnerable populations, and 
        indigenous and other ethnic minorities.

    These additional activities, supported specifically through the 
Global Climate Change Initiative, complement and support the on-the-
ground work that is informing the Feed the Future Initiative multiyear 
strategies.
    USAID's core country teams working on Feed the Future activities 
draw on climate change expertise from throughout the Agency. In 
addition, many of the USAID staff working on these two issues are 
colocated in the same field offices and work together to build 
sustainable economic growth. Both Feed the Future and the Global 
Climate Change Initiative provide important components addressing 
climate change stresses on food security. Especially in the Africa 
region, these programs are being designed in partnership in order to 
enhance complementarities and to build stronger capacity among our 
partner countries to address these critical issues.

                             CLIMATE CHANGE

    Question #11. Please discuss the ways GCCI works with American 
institutions and companies to promote the use of adaptive technologies 
and clean energy best practices to stem the effects of climate change.

    Answer. The activities of USAID's African missions and the Africa 
Infrastructure Program (AIP) seek to support activities which help to 
attract and advance private investments into the clean energy and 
electricity sectors in sub-Saharan Africa. Most clean energy activities 
supported by USAID in Africa have the potential for supporting and 
creating attractive investment opportunities for private U.S. 
companies. Several ongoing USAID programs have been developed in 
response to conversations with U.S. companies regarding the greatest 
barriers to investment on the continent.
    USAID's bilateral missions in the Democratic Republic of Congo, 
Kenya, Liberia, Mozambique, and Nigeria will use climate change funds 
to support the planning and implementation of Low Emission Development 
Strategies, renewable energy microfinance activities, rural energy 
development, and the strengthening of government institutional capacity 
to support and attract private investment into clean and renewable 
energy technologies. Nigeria is also supporting capacity and market 
development programs necessary to significantly reduce the practice of 
gas flaring in the west African region. USAID's Africa regional 
missions, located in west Africa, east Africa, and southern Africa, 
will focus on developing regional institutional capacity to plan for 
and attract private investment into clean and renewable energy projects 
within their respective regions, and they are expected to continue some 
level of support for strengthening regional power pools' abilities to 
deliver renewable energy to customers within their respective 
geographic areas.
    USAID's AIP seeks to attract U.S. and international private 
investment into larger scale electricity infrastructure projects in 
Africa. The program does not directly partner with U.S. companies. 
Instead, it provides technical assistance to strengthen foreign 
governments' capabilities to successfully negotiate with U.S. companies 
trying to develop projects in Africa. Providing foreign officials with 
this expertise provides government negotiators with the understanding 
of what is required to attract and sustain private investment in their 
countries, and the confidence required to engage U.S. and other private 
sector interests to develop and obtain financing for proposed 
infrastructure projects on the subcontinent. The program is currently 
providing capacity-building and transaction support assistance to 11 
African governments which combined have the potential for constructing 
over 1,800 MW, or over $3 billion of new, clean, and renewable energy 
power projects in Africa.
    USAID's AIP is also currently seeking to make a significant 
commitment with other donors to building the capacity of governments in 
the development of significant geothermal energy opportunities in the 
East African Rift Valley Region. This effort could provide significant 
opportunities for U.S. geothermal companies which are highly 
competitive internationally.
    Representatives of the AIP regularly communicate with private U.S. 
companies who are developing electricity sector projects in Africa in 
an effort to understand the barriers that they are encountering, the 
needs and the inadequacies of government officials negotiating with 
them, alert them to opportunities, and to listen to their 
recommendations on what will make projects financeable. On more than 
one occasion, U.S. companies have asked AIP representatives if they 
would provide governments who they are negotiating with the assistance 
to enable them to close projects in a more expeditious manner.
    AIP also sponsors--along with U.S. Department of Treasury and the 
Infrastructure Consortium for Africa--a videoconference series that 
includes senior representatives of over six African governments, 
international financial institutions, U.S. project development 
companies, and other stakeholders that discusses what is necessary to 
financially close electricity sector projects in Africa, what is 
necessary to achieve common objectives and specific case studies of 
projects that have successfully reached financial closure.
    USAID's Private Financing Advisory Network (PFAN) partnership is 
currently supporting programs in a number of African countries by 
bridging the gap between investors and clean energy entrepreneurs and 
project developers. The network brings in a range of skilled advisors 
including project finance experts to provide project developers with 
guidance on feasibility, project structure, investment and financing, 
preparation of the business plan and introductions to investors that 
are focused on economically viable projects with social and 
environmental benefits. For example, for proposed project activity in 
southern Africa, through capacity-building and network expansion 
activities, PFAN expects to accelerate closure of up to 30 clean energy 
projects with a total financing forecasted to range from U.S. $58-$372 
million.
    Under USAID's ongoing partnership with the National Association of 
Regulatory Utility Commissioners (NARUC), we are supporting several 
activities in Africa:

  <bullet> In Nigeria, a USAID/NARUC-sponsored regulatory partnership 
        between the Nigerian Electricity Regulatory Commission (NERC) 
        and the Michigan Public Service Commission is underway to 
        enhance NERC's ability to undertake market-based regulatory 
        functions and provide effective oversight of the Nigerian 
        electricity sector. As a result of focused discussion on 
        consumer affairs to date, NERC opened a branch office in Lagos 
        (with plans to open five more in Nigeria) to handle consumer 
        complaints.
  <bullet> In West Africa, USAID recently launched an 18-month 
        technical assistance program between the ECOWAS Regional 
        Electricity Regulatory Authority and the West Africa Gas 
        Pipeline Authority, in partnership with the Organization of PJM 
        States, Inc.,\1\ to build the regulatory capacity of these 
        recently established regulatory institutions.
---------------------------------------------------------------------------
    \1\ An organization of statutory regulatory agencies in 13 American 
States and the District of Columbia, within which PJM Interconnection, 
LLC, a regional transmission operator approved by the Federal Energy 
Regulatory Commission, oversees the operation of the electric 
transmission grid and related services.
---------------------------------------------------------------------------
  <bullet> Under another USAID program, regulatory staff members from 
        six African countries will participate in an ongoing internship 
        program in the United States this summer to gain hands-on 
        knowledge of establishing regulatory incentives for renewable 
        energy.

    USAID also partners with the U.S. Energy Association to implement 
the Energy Utility Partnership Program. USEA is an association of 
public and private energy-related organizations, corporations, and 
government agencies. The Energy Utility Partnership Program is focused 
on volunteer-based, practitioner-to-practitioner, multiyear 
partnerships between U.S. and developing country utilities, regulatory 
and energy agencies for the purpose of promoting the more efficient, 
sustainable, and environmentally sound supply and use of energy. USEA's 
approach is to transfer market-based approaches and ``best practices'' 
for energy system operation and regulation. USEA partnership focus on 
such topics as energy sector reform; energy markets; energy efficiency 
and renewable energy; energy information and research; environmental 
improvement; and electricity generation, transmission, and 
distribution. In this unique public-private collaboration, U.S. partner 
institutions have demonstrated a commitment to the program by donating 
approximately $1 in time and supplies for every U.S. Government dollar 
spent. The success of USEA's partnership program results from the 
extraordinary voluntary commitment and expertise of participating U.S. 
utilities. USEA has supported partnerships in Egypt, Ghana, Kenya, 
Namibia, Nigeria, Senegal, Tanzania, Zambia, and Zimbabwe.

                          COMPLEX CRISIS FUND

    Question #12. The Complex Crisis Fund, first appropriated in 2010, 
is a flexible funding stream that allows civilian agencies to respond 
to emerging crises. How has the Complex Crisis Fund been used by USAID 
to effectively prevent violent conflict and mitigate escalating crises 
in Africa, and how does this fit into USAID's plan to implement the 
QDDR?

    Answer. Complex Crisis Funds (CCF) have been used by USAID to 
effectively support efforts to prevent violent conflict and mitigate 
escalating crises in Kenya, Kyrgyzstan, Sri Lanka, and Yemen.
    In Kenya, $3.95 million in CCF was provided to mitigate the threat 
of renewed ethnic-based violence in areas at high-risk of conflict from 
the International Criminal Court (ICC) and referendum-related 
activities. The referendum was calm, and the ICC announcement had 
little impact on violence. While there were many factors involved in 
the stability during this period, there are many that credit USAID 
activities as playing a crucial role.
    One way to improve civilian capacity is to expand our ability to 
use resources flexibly in dynamic environments. The CCF provides State 
and USAID the opportunity to quickly respond to rapidly evolving 
situations, which for various reasons, would have been difficult for 
the bilateral program funding mechanism to respond in a swift and 
appropriate manner.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
